U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                         Review of the Department
                          of Justice’s Use of Less-
                              Lethal Weapons

                                       May 2009




                                Report Number I-2009-003
                                   EXECUTIVE DIGEST


INTRODUCTION

       Department of Justice (Department) Special Agents, Deputy Marshals,
and correctional personnel may use less-lethal weapons when circumstances
require use of some force, but use of deadly force would not be appropriate. 1
Use of these weapons can also enhance the safety of law enforcement officers
and the public during law enforcement operations. However, while less-lethal
weapons are less likely to cause serious injury or death than firearms,
significant injuries and fatalities can result from their use.

       The Department’s law enforcement components – the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF); Drug Enforcement Administration
(DEA); Federal Bureau of Investigation (FBI); Federal Bureau of Prisons (BOP);
and United States Marshals Service (USMS) – use several types of less-lethal
weapons. The only less-lethal weapons provided to FBI and DEA Special Agents
are batons and pepper spray. In addition to batons and pepper spray, ATF,
BOP, and USMS personnel can use less-lethal weapons that include “bean bag”
shotgun rounds (bean bag rounds), baton launchers, and rubber projectiles.
Also in 2002, after successful pilot testing at its facilities, the BOP approved the
PepperBall system, which involves firing projectiles containing highly irritating
pepper powder. In addition, ATF and the USMS have approved the use of the
Taser, a conducted energy device that is a more sophisticated less-lethal
weapon. 2 The Taser delivers an electric charge intended to cause temporary
loss of muscle control. ATF began providing Tasers to its Special Agents in
January 2006 after completing a year of pilot testing. In April 2006, the USMS
approved the use of Tasers by Deputy Marshals. 3




        1 “Use of force” is defined as the amount of effort required by law enforcement personnel

to compel compliance by an unwilling subject. “Deadly force” is defined as an amount of force
that is likely to cause either serious bodily injury or death to another person.

       2 Although the term “Taser” is commonly used to refer to all types of conducted energy

devices, Tasers are specific weapons made by Taser International Inc. Taser International is the
market leader in conducted energy devices and sells several models to law enforcement agencies
and individuals for personal use. Stinger Systems is another manufacturer of conducted energy
devices. In this report, we use the term “Taser” when referring to devices made only by Taser
International and “conducted energy devices” to mean all such devices. See Appendix I for
descriptions of all the less-lethal weapons discussed in this report.

       3   The USMS’s Special Operations Group had been using Tasers since 2000.



U.S. Department of Justice                                                                  i
Office of the Inspector General
Evaluation and Inspections Division
        There have been no reported fatalities resulting from the use of less-lethal
weapons by Department components. However, fatalities have occurred at the
state and local level, particularly following the use of conducted energy devices.
For example, one recent study reported that over the last 8 years 334 people
have died after being subjected to a Taser discharge by state or local law
enforcement officers. Medical examiners concluded that the use of a Taser
contributed to or caused at least 50 of these fatalities. The remaining 284
fatalities were largely attributed to other factors such as drug intoxication. 4

       In addition to the less-lethal weapons already being used by the
Department, the Office of the Inspector General (OIG) learned of several
emerging weapon technologies that could be implemented by the Department in
the future. These newer less-lethal weapon technologies are either under
development or in use by other law enforcement agencies and the military.
Some of these weapons will present new challenges concerning deployment and
oversight to ensure proper use, particularly since some of these weapons leave
no marks or residue when used. For example, the long-range acoustic device –
currently used by the New York Police Department – is a weapon that
incapacitates individuals using high-energy sound waves aimed at a specific
target.

      The OIG conducted this review to determine the types of less-lethal
weapons used by the Department’s law enforcement components; the extent to
which the components are using these weapons; whether training and controls
have been implemented to ensure the weapons are used properly; whether
Department components have identified the impact of using these weapons on
their missions; and whether the Department assesses, deploys, and oversees
new and emerging less-lethal weapon technologies.

      In addition, the OIG examined research related to less-lethal weapons
conducted or funded by the Department’s National Institute of Justice (NIJ).
We also reviewed the Civil Rights Division’s investigations of less-lethal weapon
usage by Department law enforcement components and state and local law
enforcement agencies.




       4   Amnesty International, “Less Than Lethal”? The Use of Stun Weapons in US Law
Enforcement (December 16, 2008), www.amnesty.org/en/news-and-updates/report/tasers-
potentially-lethal-and-easy-abuse-20081216 (accessed April 8, 2009). The report stated it was
difficult to determine through autopsy alone whether a Taser caused or contributed to a fatal
arrhythmia as there are often no direct pathological signs. However, the autopsy findings
highlight risk factors similar to those cited in a National Institute of Justice report discussed in
the Background section of this OIG report.



U.S. Department of Justice                                                                     ii
Office of the Inspector General
Evaluation and Inspections Division
RESULTS IN BRIEF

       As shown in Table 1 on page vi, all the Department components we
reviewed authorize and train some of their personnel to use specific less-lethal
weapons in the performance of their duties. However, the extent of use of less-
lethal weapons varies widely by component: the DEA reported no use; the FBI
reported limited use; ATF’s and the USMS’s statistics reported moderate but
increasing use; and the BOP’s data showed the most use.

       The Department’s “deadly force” policy addresses the use of deadly force,
but does not specifically address the use of less-lethal weapons. Therefore, in
the absence of a Department-wide policy on the use of less-lethal weapons,
Department components have developed individual policies to guide their
personnel in the use of these weapons. The components’ less-lethal weapons
policies are based on reasonableness, which is the standard set forth in the
Department’s deadly force policy. Specifically, according to the Department’s
deadly force policy, the force used by a Department law enforcement employee
must be reasonable under the circumstances and is considered to be
appropriate when “the officer has a reasonable belief” that such force is
necessary. 5

       Although Department components have established policies for their
personnel’s use of less-lethal weapons, only ATF mandates that state and local
members of its task forces abide by its less-lethal weapons policies, including
ATF’s Taser policy. Conversely, the USMS, through its memoranda of
understanding with state and local law enforcement agencies, allows task force
officers to follow their home agencies’ less-lethal weapons policies. The use of
less-lethal weapons by state and local law enforcement officers participating on
FBI and DEA task forces is subject to the FBI’s and DEA’s general use of force
policies. For the DEA, state and local officers participating on DEA task forces
must also follow the DEA’s policies concerning the baton and pepper spray. For
the FBI, the specific guidance concerning the use of all less-lethal weapons by
task force officers is provided by their home agencies’ less-lethal weapons
policies. Because the DEA’s and FBI’s policies only address those weapons
issued to their personnel, which do not include conducted energy devices, both
agencies rely on the state and local task force officers’ home agencies to provide
guidance on the use of conducted energy devices if they carry these weapons
while participating on FBI and DEA task forces.



       5  The Department of Justice’s Deadly Force Policy (July 1, 2004) provides general
principles concerning the use of deadly force by Department law enforcement and correctional
officers and when their use of deadly force is appropriate.



U.S. Department of Justice                                                             iii
Office of the Inspector General
Evaluation and Inspections Division
       All of the components’ policies require that Special Agents, Deputy
Marshals, and correctional staff report all incidents in which they use less-
lethal weapons through the components’ use of force reporting procedures.
However, we found that the components did not adequately compile or assess
their less-lethal weapons usage data to identify trends in, or benefits from, their
use of these weapons.

       The USMS maintained the most detailed data related to its use of less-
lethal weapons and produced annual reports quantifying its use. However, the
USMS had not assessed the weapons’ impact on its operations. ATF provided
data on its increasing use of less-lethal weapons at our request, and included
data on shootings and other use of force incidents in annual internal agency
reports beginning in FY 2006, but had never formally analyzed the data. The
FBI had statistics on annual use of less-lethal weapons, but had not analyzed
the data because its use of less-lethal weapons was very limited. The BOP also
provided data it had collected on its personnel’s use of less-lethal weapons, but
analysis of this data was difficult because the BOP only recorded use of less-
lethal weapons as text in database comment fields. The DEA reported that it
had no statistics because its Special Agents had not used the less-lethal
weapons the DEA provides to them (baton and pepper spray).

       No component has reported any fatalities or significant injuries resulting
from the use of any type of less-lethal weapon. Additionally, we found only
isolated incidents of reported misuse of less-lethal weapons.

       ATF, the BOP, and the USMS have obtained new less-lethal weapons in
the last several years. However, we found no coordinated Department-wide
assessment of new less-lethal weapon technologies or development of use
policies and training materials. Instead, the Department components are
performing these functions independently. As a result, the components are not
informed of, or guided by, work done elsewhere in the Department.

       The NIJ funds research and the Civil Rights Division conducts
investigations that yield detailed information about law enforcement policies
and practices, some involving use of less-lethal weapons, at the state and local
levels. We believe that the Department’s law enforcement components could
benefit from similar information when developing or reconsidering their policies
and practices, but no formal mechanism exists for sharing the information. For
example, in 2008 the Civil Rights Division completed an extensive review of a
local law enforcement agency that identified deficiencies in that agency’s use of
and policies on conducted energy devices. However, of the officials we
interviewed from ATF and the USMS, only one was aware of the findings.




U.S. Department of Justice                                                   iv
Office of the Inspector General
Evaluation and Inspections Division
       In sum, we found no coordinated Department efforts either to develop
coordinated policies and training on the use of less-lethal weapons or to assess
the efficacy of new less-lethal weapon technologies. In addition, the
components have not adequately assessed trends in, or results from, their use
of less-lethal weapons. Further, the components rely on state and local
agencies’ policies for use of less-lethal weapons by state and local task force
officers on Department task forces. We believe that Department components’
use of less-lethal weapons, coupled with the rising incidence of deaths
associated with their use by state and local law enforcement, particularly
conducted energy devices, highlights a need for more coordinated Department
policy, guidance, and communication on the use of less-lethal weapons.
Additionally, a coordinated Department policy would help ensure the
appropriate use of less-lethal weapons by state and local law enforcement
officers participating on all of the different Department task forces.

      The following sections provide a more detailed discussion of the OIG’s
findings.

The Department’s law enforcement components are expanding their use of
less-lethal weapons and are continuing to acquire new less-lethal
technologies.

      All five of the Department’s law enforcement components authorize the
use of some form of less-lethal weapons, such as batons, bean bag rounds,
rubber projectiles, or pepper spray. In addition to these weapons, ATF and the
USMS provide their Special Agents and Deputy Marshals with the Taser device.
The BOP provides its correctional officers with access to the PepperBall system
and electronic custody control belts. As shown in Table 1, FBI and DEA Special
Agents only use batons and pepper spray.




U.S. Department of Justice                                                  v
Office of the Inspector General
Evaluation and Inspections Division
        Table 1: Less-Lethal Weapons Used by Department Components

    Type of Less-Lethal Weapon                             Component
                Impact Weapons                ATF    BOP      DEA      FBI     USMS

    Baton                                                                       
    Bean Bag Shotgun Rounds                                                       
    Baton Launcher                                                                 
    Rubber Projectiles, Pellets                       
                Chemical Agents

    CS Gas (Tear Gas)                         a                       a
    Pepper Spray                                                                
    PepperBall System                                 
    StingBall                                         
          Conducted Energy Devices
    Electronic Custody Control Belt, Stun
    Belt, or “Band-It” Electronic Restraint                                        
    Taser                                                                          
    Ultron II Contact Stun Device                                                   
                Sound Weapon

    Aerial Dispersion Shotgun Round                   
    a Only ATF’s Special Response Teams and the FBI’s Special Weapons and Tactics
    teams have access to tear gas.

    Source: OIG survey of ATF, BOP, DEA, FBI, and USMS.


       ATF and USMS personnel are increasing their use of less-lethal weapons
to perform their duties. At ATF, the Taser was the most used weapon in
FY 2007 and FY 2008, and use of other less-lethal weapons, including the
baton launcher, increased as well. Use by USMS personnel increased from
27 instances in FY 2003 to 156 instances in FY 2008. According to ATF
officials, ATF’s use has expanded because it has handled an increasing amount
of street-level crime. USMS officials said their acquisition and use of less-lethal
weapons has increased because they believe these weapons help support the




U.S. Department of Justice                                                              vi
Office of the Inspector General
Evaluation and Inspections Division
USMS’s mission. 6 ATF Special Agents and USMS Deputy Marshals often must
obtain compliance from subjects in situations that would justify the use of
deadly force. However, in some situations, less-lethal weapons would be useful.
For example, if a subject or fugitive refuses to obey verbal commands and
physically resists being placed in custody, less-lethal weapons such as the
Taser allow law enforcement officers to avoid engaging in hand-to-hand scuffles
with subjects. Use of less-lethal weapons in these circumstances reduces the
risk that subjects may wrest a firearm away from the Special Agent or Deputy
Marshal.

       Of all Department components, the BOP has made the most use of less-
lethal weapons in each of the past 5 years, from FY 2004 through FY 2008.
Additionally, BOP personnel increased their use of less-lethal weapons from 192
instances in FY 2004 to 476 instances in FY 2007. 7 According to BOP officials,
the BOP uses less-lethal weapons to obtain inmate compliance and quell
potential disturbances, which helps balance the BOP’s responsibilities to
maintain order and protect the safety of inmates and correctional officers. In
addition to batons and pepper spray, the BOP uses aerial dispersion rounds,
the PepperBall system, rubber projectiles, StingBalls, tear gas, bean bag
rounds, and electronic custody control belts. Unlike ATF and the USMS, the
BOP does not use Tasers because inmates could gain control of a device and
use it as a weapon against BOP staff or other inmates.

       In contrast, historically, the DEA and FBI have had few incidents in
which less-lethal weapons were used. The only less-lethal weapons these
agencies provide their Special Agents are batons and pepper spray. 8 DEA
officials told the OIG that DEA Special Agents had not reported any use of less-
lethal weapons during the period we reviewed (FY 2002 through FY 2008).
According to DEA officials, when its Special Agents arrest the targets of long-
term and undercover investigations, they usually do so with maximum force


       6 The USMS’s mission includes arresting violent fugitives; providing federal courthouse

security; protecting judges, witnesses, jurors, and members of the public; and transporting and
detaining federal prisoners.

        7 We compared FY 2004 to FY 2007 because the BOP did not track the use of less-

lethal weapons in separate categories prior to spring 2004, and we were able to obtain only
partial year data for FY 2008.

       8  The exception is that FBI Special Weapons and Tactics (SWAT) teams, which are
specially trained teams of Special Agents at each of the FBI’s 56 field offices. SWAT teams are
equipped with tear gas, a less-lethal weapon not made available to ordinary FBI Special Agents.
SWAT teams are trained to intervene in high-risk events, such as hostage or barricade
situations. From FY 2003 through FY 2008, FBI SWAT teams used tear gas in 12 different
operations.



U.S. Department of Justice                                                               vii
Office of the Inspector General
Evaluation and Inspections Division
under conditions that are not conducive to the use of less-lethal technologies. 9
According to the FBI, there are Special Agents who always carry less-lethal
weapons, but its personnel use pepper spray no more than five times a year and
many of those instances involve spraying dogs. FBI officials also said that FBI
Special Agents often choose not to carry less-lethal weapons because their daily
activities do not lend themselves to the use of that type of weapon. 10

No Department policy specifically governs the use of less-lethal weapons
by its law enforcement components or the state and local law enforcement
personnel serving on Department task forces.

      The only use of force policy issued by the Department relates to the use of
deadly force. This policy does not specifically address the use of less-lethal
weapons. As a result, the Department’s policy governing the use of less-lethal
weapons can be inferred from its deadly force policy:

       Law enforcement officers and correctional officers of the
       Department of Justice may use deadly force only when necessary,
       that is, when the officer has a reasonable belief that the subject of
       such force poses an imminent danger of death or serious physical
       injury to the officer or to another person. 11

      In the absence of a Department policy on the use of non-deadly force, or
on the use of less-lethal weapons, all of the components that use less-lethal
weapons have developed their own policies controlling use of these weapons.
The components’ policies are based on an “objective reasonableness” standard,
which is the standard set forth in the Department’s deadly force policy.
Specifically, according to the Department’s deadly force policy and previously
issued commentary that provided “practical guidance” to the components, the
force used must be reasonable under the circumstances and is appropriate
when “the officer has a reasonable belief” that such force is necessary. 12 For
example, the USMS policy for use of less-lethal weapons states that Deputy

       9 DEA officials said that when Special Agents apprehend suspects, they often do so

wearing full protective gear and with firearms drawn in case deadly force becomes necessary.

       10 While we were told that FBI Special Agents often do not carry the less-lethal weapons,

FBI policy states that Special Agents must use alternative methods and tactics when the use of
deadly force is not authorized under the deadly force policy.

       11   Department of Justice, Deadly Force Policy, July 1, 2004.

       12 When the Department issued its current policy in 2004, it did not include
commentary that was provided when the Department’s Policy Statement on the Use of Deadly
Force was approved by the Attorney General on October 17, 1995. www.usdoj.gov/ag/
readingroom/resolution14c.htm (accessed April 8, 2009).



U.S. Department of Justice                                                              viii
Office of the Inspector General
Evaluation and Inspections Division
Marshals may use “non-lethal” force when they have reasonable grounds to
believe that such force is necessary to:

       1.   protect themselves or others from physical harm,
       2.   restrain or subdue a resistant prisoner or suspect,
       3.   make an arrest, or
       4.   prevent a prisoner from escaping.

The USMS policy further states that a Deputy Marshal using an authorized
non-lethal device should use only the minimum force necessary to control a
subject and then should stop using the device. 13

       Although Department components have established policies for their
personnel’s use of less-lethal weapons, only ATF mandates that state and local
members of its task forces abide by its less-lethal weapons policies, including
ATF’s Taser policy. Conversely, the USMS, through its memoranda of
understanding with state and local law enforcement agencies, allows task force
officers to follow their home agencies’ less-lethal weapons policies. The use of
less-lethal weapons by state and local law enforcement officers participating on
FBI and DEA task forces is subject to the FBI’s and DEA’s general use of force
policies. For the DEA, state and local officers participating on DEA task forces
must also follow the DEA’s policies concerning the baton and pepper spray. For
the FBI, the specific guidance concerning the use of all less-lethal weapons by
task force officers is provided by their home agencies’ less-lethal weapons
policies. Because the DEA’s and FBI’s policies only address those weapons
issued to their personnel, which do not include conducted energy devices, both
agencies rely on the state and local task force officers’ home agencies to provide
guidance on the use of conducted energy devices if they carry these weapons
while participating on FBI and DEA task forces.

       The Department’s components operate hundreds of task forces that
involve thousands of state and local law enforcement officers across the
country. 14 Without a specific policy to the contrary, state and local law
enforcement officers participating on DEA, FBI, and USMS task forces may
carry and use less-lethal weapons in accordance with their home agencies’
policies. State and local law enforcement agencies increasingly equip their
officers with less-lethal weapons, particularly conducted energy devices, and we


       13   USMS Directive 8.31, Use of Force, June 29, 2005.

       14 See, for instance, U.S. Department of Justice Office of the Inspector General,
Coordination of Investigations by Department of Justice Violent Crime Task Forces, Evaluation
and Inspections Report I-2007-004 (May 2007), and The Department of Justice’s Terrorism Task
Forces, Evaluation and Inspections Report I-2005-007 (June 2005).



U.S. Department of Justice                                                             ix
Office of the Inspector General
Evaluation and Inspections Division
determined that state and local officers have used Tasers at least 18 times since
FY 2005 while serving on ATF and USMS task forces.

      Department components’ reliance on state and local agencies’ policies for
use of less-lethal weapons by state and local task force officers may not be
adequate to protect the Department’s interests in the event a subject is
seriously injured or killed by the use of a less-lethal weapon.

       Finally, we found that guidance regarding the appropriate use of less-
lethal weapons is often provided as a part of the components’ initial and re-
certification training programs for Special Agents, Deputy Marshals, and
correctional facility personnel. However, similar guidance is not contained in
the components’ formal policies. In addition, the information on use of less-
lethal weapons found in training materials is generally considered advisory, not
mandatory policy that the task force officers (or the components’ own personnel)
would be required to follow. For example, ATF’s Taser training curriculum
describes situations in which employing a Taser would be an appropriate use of
force. In contrast, ATF’s Taser Policy states only that “the [Taser] is classified as
an intermediate weapon and is an alternative to impact weapons and chemical
sprays.” Thus, even if state and local task force officers were provided with
components’ less-lethal weapons policies, they would not receive specific
guidance on reasonable and appropriate use contained in the components’
training materials. However, state and local law enforcement officers serving on
ATF task forces for an extended duration participate in ATF’s quarterly tactical
training, which addresses the use of less-lethal weapons, including Tasers.

All components require their personnel to report any use of less-lethal
weapons, but the components do not adequately compile and analyze the
resulting reports.

      All components have policies that require Special Agents, Deputy
Marshals, and correctional personnel to report, through their use of force
reporting procedures, all incidents in which they use less-lethal weapons.
Despite these reporting requirements, we found that the components did not
have complete data on their personnel’s use of less-lethal weapons during the
7-year period covered by the OIG’s review. Also, the components generally did
not evaluate their use statistics to determine trends in, or benefits from, their
use of less-lethal weapons.

      We found that the USMS maintained the most detailed use of force data
related to less-lethal weapons of the five Department components and produced
annual reports detailing the number of such uses. However, the USMS had not
assessed the weapons’ impact on USMS operations. For example, the USMS
had not attempted to quantify whether its increased use of the Taser had


U.S. Department of Justice                                                     x
Office of the Inspector General
Evaluation and Inspections Division
resulted in any reduction in subject or officer injuries. Further, we found that
the USMS’s methodology for generating summary tables for use of force
statistics was inconsistent.

      The BOP began collecting data related to the use of less-lethal weapons in
spring 2004. However, we identified problems with the BOP’s method of
recording information about its use of less-lethal weapons that reduce the
data’s utility for compiling statistics or analyzing trends. First, although the
BOP provided statistical data for pepper spray and bean bag round usage, it
was unable to provide total usage data for several other less-lethal weapons.
For these other less-lethal weapons, the BOP records their use as text in a
database comment field. This manner of record keeping makes producing
aggregate data on the use of less-lethal weapons onerous and prone to error. 15
Second, the BOP’s database is designed to track information by inmate rather
than by each use of a weapon. Because one use of a weapon such as tear gas
or the PepperBall system may affect multiple inmates, the database contains
many duplicate entries, overstating the reported uses of less-lethal weapons.

       The other three components’ record keeping practices for uses of less-
lethal weapons varied. ATF was able to provide data showing its increasing use
of less-lethal weapons, but had not analyzed the data in any formal manner.
The FBI had compiled some annual use statistics, but had not analyzed the
data because its use of less-lethal weapons was limited. The DEA stated that it
had no statistics because its Special Agents had not used less-lethal weapons.

None of the components reported any fatalities or significant injuries from
their personnel’s use of less-lethal weapons.

       When Special Agents, Deputy Marshals, and correctional staff report their
use of less-lethal weapons, these reports and any subsequent after-action
assessments must also identify any injuries or fatalities that occurred. During
the period of this review, FY 2002 through FY 2008, Department components
reported no fatalities or significant injuries to subjects or inmates resulting from
the use of less-lethal weapons. This stands in contrast to the fatalities and
significant injuries associated with the use of less-lethal weapons by state and
local law enforcement during the same period. 16

      According to component officials whose personnel use the Taser, their
personnel were less likely than state and local law enforcement officers to

       15 In fact, the OIG had to manually search the documentation provided by the BOP to
compile the statistics shown on page 24.

       16   Amnesty International, 2008.



U.S. Department of Justice                                                            xi
Office of the Inspector General
Evaluation and Inspections Division
confront the types of situations that may increase the risk of serious injuries
and fatalities associated with the use of conducted energy devices. They said
that state and local agencies are more likely to encounter individuals under the
influence of drugs or alcohol, or individuals suffering from mental illness. Some
studies of conducted energy devices have indicated that the presence of drugs,
alcohol, and mental illness may raise the risk of injury and fatality resulting
from the use of such weapons. Component officials also said training programs
provided to Special Agents and Deputy Marshals on the use of Tasers have
helped prevent fatalities and serious injuries.

      While the components did not report any fatalities or serious injuries
during our review period, our review of BOP data for 203 incidents of the
PepperBall system’s use from FY 2004 through June 2008 showed that the
weapon caused minor to moderate injuries to inmates in 65 of those incidents
(33 percent). The injuries described in the BOP’s records appeared moderate in
8 instances and minor in 57 others. Injuries recorded in the BOP’s database for
the remaining 138 instances did not appear related to the PepperBall system’s
use.

      We also found several reports of isolated incidents of misuse of less-lethal
weapons by component personnel. The BOP identified eight incidents of
substantiated misconduct involving BOP employees’ use of less-lethal weapons
from FY 2002 through FY 2007. ATF identified one instance of the misuse of a
Taser by one of its Special Agents.

      One of the eight BOP incidents occurred when two correctional officers
deployed a PepperBall system without authorization in response to a fight
between two inmates. Further, a supervisor failed to ensure the inmates were
medically assessed and decontaminated following the incident. As a result of
the misuse of the PepperBall system, the two correctional officers were
suspended for 14 days, and the supervisor was demoted.

       All uses of force by BOP correctional staff require after-action reports.
However, the use of a less-lethal weapon is investigated only if an allegation of
inmate abuse is made. According to officials from the BOP Office of Internal
Affairs, if they receive allegations that an inmate was abused with a less-lethal
weapon, the complaint is forwarded to the OIG Investigations Division and the
Department’s Civil Rights Division. If the OIG and the Civil Rights Division
decline to pursue the allegation, the BOP Office of Internal Affairs either
handles the investigation as a misconduct case or assigns the complaint to the
institution where the incident occurred for investigation. In conducting these
investigations, BOP officials said they examine whether the use of force was
authorized and whether it was exercised properly. All eight of the incidents
referenced above were declined for prosecution by the Civil Rights Division’s


U.S. Department of Justice                                                  xii
Office of the Inspector General
Evaluation and Inspections Division
Criminal Section, and the cases were returned to the BOP for consideration of
discipline.

      The incident involving an ATF Special Agent occurred when he used a
Taser belonging to a local law enforcement officer against a subject without
proper justification. Pursuant to ATF policies, the Special Agent’s field division
reported the use of the Taser to ATF’s Shooting Review Coordinator, who
forwarded the matter to the integrity section of ATF’s Internal Affairs Division,
due to the nature of the incident. Following an investigation, ATF concluded
that the Special Agent had exercised poor judgment in using the Taser on the
subject. The Special Agent received a 14-day suspension. 17

       The DEA, FBI, and USMS did not identify any instances of misuse of a
less-lethal weapon by a Special Agent or Deputy Marshal during the period of
our review.

       In reviewing the use of less-lethal weapons, including Tasers, ATF and the
USMS do not always perform the same type of review as would occur for
firearms discharges. For both components, uses of force, including uses of less-
lethal weapons, are investigated if a subject is seriously injured or killed or if
non-frivolous allegations of misconduct are made against the Special Agent or
Deputy Marshal involved in the incident. For ATF, a non-frivolous allegation of
excessive use of force would be investigated by the Integrity Section of ATF’s
Internal Affairs Division. For the USMS, an allegation of excessive force would
be investigated by the USMS Office of Inspections. For both ATF and the USMS,
in cases where no significant injury occurred or there was no indication of
improper use of force, the field office involved conducts a review and produces a
factual record of the incident and submits the report to the appropriate entity –
either ATF’s Internal Affairs Division or the USMS Office of Inspections. 18

The components independently assess new less-lethal weapons and have
separately developed policy and training materials for these weapons.

      The components that acquired new less-lethal weapon technologies
during the period we reviewed – ATF, the BOP, and the USMS – conducted
independent research and testing of the weapons prior to acquiring them,
developed policies, and trained new and existing personnel on the use of the




       17   The Civil Rights Division had no involvement in this case.

       18  Upon receipt of the factual record produced by the field office, ATF’s Internal Affairs
Division reviews the incident’s documentation.



U.S. Department of Justice                                                                  xiii
Office of the Inspector General
Evaluation and Inspections Division
weapons. 19 As part of their research, ATF and the BOP independently initiated
pilot testing to evaluate prospective weapons. 20 We found that the Department
and its components did not coordinate their efforts to identify emerging less-
lethal technologies (see text box, page 44) or to develop policies and procedures
to ensure the consistent and appropriate use of existing weapon systems.

      In addition, we identified two Department entities that fund research or
conduct oversight of less-lethal weapon technology – the National Institute of
Justice (NIJ) and the Civil Rights Division. The NIJ funds and performs
research related to state and local law enforcement, including the feasibility and
impact of less-lethal weapons. The Department’s Civil Rights Division conducts
investigations of state and local law enforcement agencies pursuant to
42 U.S.C. 14141 to determine whether law enforcement officers are engaged in
a pattern or practice of conduct that deprives persons of rights, privileges, or
immunities secured or protected by the Constitution or laws of the
United States. 21

       Although the lessons learned at the state and local level may be
applicable at the federal level, no formal mechanism exists for the NIJ or the
Civil Rights Division to provide information to the Department’s own law
enforcement components about their work related to the use of less-lethal
weapons. 22 For example, several recent NIJ-funded studies assessed the
Taser’s medical impact and the effects of different use policies adopted by the
state and local agencies. Further, as of April 2009, the Civil Rights Division was
continuing an extensive review of a local law enforcement agency that identified
deficiencies in that agency’s use of and policies on conducted energy devices.
As part of that review, the Civil Rights Division issued a technical assistance



       19  The OIG examined only components’ assessments of less-lethal weapon technologies
that were newly acquired during the review period. We did not consider the acquisition of
different types of munitions (e.g., foam baton, rubber bullets) or a change in a munitions’
delivery system (e.g., size or manufacturer) to be a “new” less-lethal weapon.

       20 The USMS did not perform a pilot test; however, its Special Operations Group had

been using Tasers since 2000.

        21 Within the Civil Rights Division, the Criminal Section prosecutes law enforcement

personnel. The Special Litigation Section investigates individual law enforcement agencies
where there is a cause to believe that an agency is engaged in a pattern or practice of violating
federal law. This Section seeks civil remedies, in the form of injunctive relief that range from
informal agreements to consent decrees.

       22 The components provided some examples of informal information sharing through
working groups and informal discussions with other governmental entities, but not directly with
each other.



U.S. Department of Justice                                                                 xiv
Office of the Inspector General
Evaluation and Inspections Division
letter to the agency that provided detailed recommendations for improving the
agency’s Taser policies and training curriculum.

       As part of our review, the OIG discussed the NIJ-funded studies and the
Civil Rights Division’s technical assistance with the law enforcement
components’ staff responsible for developing less-lethal weapons policies. 23
These officials stated that the results of the NIJ’s and Civil Rights Division’s
work would be useful to them in designing operational and training policies. In
developing their Taser policies, component officials expressed a desire to avoid
the problems encountered by their state and local counterparts with this
weapon. We believe that the Department would benefit from enhanced
information sharing among the NIJ, the Civil Rights Division, and the
Department’s law enforcement components concerning less-lethal weapons.

CONCLUSION AND RECOMMENDATIONS

       Although several of the Department’s law enforcement components are
expanding their use of less-lethal weapons and have added new less-lethal
technologies, the Department and its components do not coordinate the
assessment of these technologies or the development of use and training
policies. Moreover, the Department’s deadly force policy does not specifically
address the use of less-lethal weapons. While the components that use less-
lethal weapons have individually developed policies to govern these weapons
used by their personnel, the FBI and DEA do not have policies to address the
use of Tasers by state and local members of their task forces. Further, the
USMS, unlike ATF, does not mandate that state and local task force officers
abide by its less-lethal weapons policies, including the USMS’s Taser policy.

       The fatalities that have occurred following the use of conducted energy
devices by state and local agencies, coupled with greater use of these weapons
by the Department’s law enforcement components, lead us to recommend that
the Department coordinate and ensure that the components have appropriate
and consistent less-lethal weapons policies that include conducted energy
devices. These less-lethal weapons policies should include sufficient detail to
provide meaningful guidance on appropriate use of existing and emerging less-
lethal weapons.

      We also believe that the Department’s components can improve their
tracking and assessment of their use of less-lethal weapons. While all
components require uses of less-lethal weapons to be reported, we found that
the components did not maintain complete data and the components generally

        Of the USMS and ATF officials we interviewed, only one from the USMS Training
       23

Academy was aware of the Civil Rights Division’s investigation and technical assistance letter.



U.S. Department of Justice                                                                xv
Office of the Inspector General
Evaluation and Inspections Division
did not evaluate their use statistics to determine trends in or benefits or
drawbacks from their use of less-lethal weapons. There have also been isolated
reports of misuse of these weapons by component personnel. Because these
weapons have the potential to cause serious injury or death, we believe that
more consistent reporting on the use of less-lethal weapons should be required
to ensure that use trends and misuse are identified.

      Finally, the Department should consider coordinating efforts by the law
enforcement components, the NIJ, and the Civil Rights Division concerning
emerging less-lethal weapons. We believe that coordinated efforts would assist
the components in identifying new less-lethal weapons, developing use policies
and training curriculum, and proper use of these weapons.

       Therefore, we recommend that:

   1. The Department coordinate and ensure that its components develop
      appropriate and consistent policies to specifically address the use of less-
      lethal weapons, including conducted energy devices, by Department
      personnel and state and local law enforcement officers serving on
      Department task forces.

   2. The law enforcement components establish procedures to ensure that
      state and local task force members are informed of and adhere to the
      components’ less-lethal weapons policies.

   3. The law enforcement components periodically analyze their use of less-
      lethal weapons, including any injuries, fatalities, or misuse; analyze
      benefits from use of such weapons; and assess emerging trends in the use
      of such weapons.

   4. The NIJ and Civil Rights Division share the results of any research,
      reviews, or investigations concerning the use of less-lethal weapons with
      the Department’s law enforcement components. Given the sensitive
      nature of some of this information, the Department components should
      develop protocols to ensure appropriate dissemination of the NIJ’s and
      the Civil Rights Division’s work products.




U.S. Department of Justice                                                  xvi
Office of the Inspector General
Evaluation and Inspections Division
                                     TABLE OF CONTENTS



INTRODUCTION ........................................................................................1

BACKGROUND ...........................................................................................3

PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW............13

RESULTS OF THE REVIEW .....................................................................17

        Department’s Use of Less-Lethal Weapons .......................................17

        Less-Lethal Weapons Policies ...........................................................26

        Components’ Reporting and Analysis of
        Less-Lethal Weapons Use ................................................................33

        Injuries and Misuse of Less-Lethal Weapons ....................................38

        Component’s Less-Lethal Weapons Assessments and
        National Institute of Justice and Civil Rights Division
        Less-Lethal Weapons Activities .......................................................41

CONCLUSION AND RECOMMENDATIONS ...............................................49

APPENDIX I: LESS-LETHAL WEAPONS ...................................................51

APPENDIX II: LESS-LETHAL WEAPONS TRAINING .................................55

APPENDIX III: THE DEPARTMENT COMPONENTS’ ASSESSMENT
    PROCESS FOR ACQUIRING NEW LESS-LETHAL WEAPONS ............59

APPENDIX IV: DEPARTMENT RESPONSE ..............................................65

APPENDIX V: OIG ANALYSIS OF DEPARTMENT RESPONSE ...................67

APPENDIX VI: ATF RESPONSE ...............................................................69

APPENDIX VII: OIG ANALYSIS OF ATF RESPONSE .................................71

APPENDIX VIII: DEA RESPONSE ............................................................73



U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX IX: OIG ANALYSIS OF DEA RESPONSE .................................75

APPENDIX X: CIVIL RIGHTS DIVISION RESPONSE .................................77

APPENDIX XI: OIG ANALYSIS OF CIVIL RIGHTS DIVISION
    RESPONSE ......................................................................................79

APPENDIX XII: FBI RESPONSE...............................................................81

APPENDIX XIII: OIG ANALYSIS OF FBI RESPONSE ................................83

APPENDIX XIV: BOP RESPONSE ............................................................85

APPENDIX XV: OIG ANALYSIS OF BOP RESPONSE ................................87

APPENDIX XVI: OJP RESPONSE.............................................................89

APPENDIX XVII: OIG ANALYSIS OF OJP RESPONSE ..............................91

APPENDIX XVIII: USMS RESPONSE .......................................................93

APPENDIX XIX: OIG ANALYSIS OF USMS RESPONSE ............................97




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      INTRODUCTION


       In some arrest situations and other law enforcement activities, the use of
force may be required to protect the safety of the officer or the public. 24
Occasionally, the threat to an officer or the public justifies the use of deadly
force – an amount of force that is likely to cause either serious bodily injury or
death to another person.

       When use of force is required, but deadly force may not be appropriate,
law enforcement officers may employ less-lethal weapons to gain control of a
subject. Less-lethal weapons are designed to induce a subject to submit or to
comply with directions. These weapons give law enforcement officers the ability
to protect the safety of officers, subjects, and the public by temporarily
incapacitating subjects. While less-lethal weapons are intended to avoid
causing any serious harm or injury to a subject, significant injuries and death
can occur from their use. However, the death of a subject is significantly less
likely to occur from the discharge of a less-lethal weapon than from the
discharge of a firearm.

      Traditional less-lethal weapons used by law enforcement agencies and
correctional facility personnel include pepper spray, rubber projectiles, “bean
bag” shotgun rounds (bean bag rounds), and batons. Newer more
sophisticated weapons include conducted energy devices (such as Tasers),
which are designed to deliver an electric charge that can cause temporary loss
of muscle control. 25 The Department of Justice’s (Department) law
enforcement components – the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF); Drug Enforcement Administration (DEA); Federal Bureau of
Investigation (FBI); Federal Bureau of Prisons (BOP); and United States
Marshals Service (USMS) – use several types of less-lethal weapons.




        24 The International Association of Chiefs of Police (IACP) defines use of force as “the

amount of effort required by police to compel compliance by an unwilling subject.” IACP study,
Police Use of Force in America 2001, October 2001, p. 1, www.theiacp.org/Portals/0/pdfs/
Publications/2001useofforce.pdf (accessed April 8, 2009).

       25 Although the term “Taser” is commonly used to refer to all types of conducted energy
devices, Tasers are specific weapons made by Taser International, Inc. Taser International is
the market leader in conducted energy devices and sells several models to law enforcement
agencies and individuals for personal use. Stinger Systems is another manufacturer of
conducted energy devices. In this report, we use the term “Taser” when referring to devices
made only by Taser International and “conducted energy devices” to mean all such devices.
See Appendix I for descriptions of all the less-lethal weapons discussed in this report.



U.S. Department of Justice                                                                 1
Office of the Inspector General
Evaluation and Inspections Division
       During the period covered by this review – fiscal years (FY) 2002 to
2008 – the number of state and local law enforcement agencies that have
initiated or expanded their use of less-lethal weapons (especially conducted
energy devices) has increased. 26 The Department’s law enforcement and
correction components have similarly expanded their use of less-lethal
weapons. For example, the BOP has acquired the PepperBall system, which
fires projectiles containing highly irritating pepper powder, and ATF and the
USMS have acquired Tasers. In addition, local law enforcement personnel
participating in task forces led by the Department may carry less-lethal
weapons if they have been authorized to do so by their local agencies.

        Although there have been no reported fatalities from the use of
less-lethal weapons by Department components, as state and local law
enforcement’s use of less-lethal weapons has increased, the number of
fatalities associated with the weapons’ use also has increased. That has been
particularly true for conducted energy devices. 27

       The Office of the Inspector General (OIG) conducted this review to
determine the extent to which the Department’s components are using less-
lethal weapons, whether controls have been implemented to ensure the
weapons are used appropriately, and to assess the results of the acquisition
and use of less-lethal weapons by Department components. The review also
examined the efforts of the Department’s National Institute of Justice (NIJ) and
Civil Rights Division related to the use of less-lethal weapons by the
Department. 28




       26 More than two-thirds of U.S. law enforcement agencies now use conducted energy
devices. See William P. Bozeman, William E. Hauda, Joseph J. Heck, Derrel D. Graham,
Brian P. Martin, James E. Winslow, “Safety and Injury Profile of Conducted Electrical Weapons
Used by Law Enforcement Officers Against Criminal Suspects Corrected Proof,” Annals of
Emergency Medicine, (January 22, 2009), www.annemergmed.com/article/S0196-
0644(08)02061-1/abstract (accessed April 15, 2009).

       27 Amnesty International reported that between 2001 and 2008, 334 deaths have been

associated with local law enforcement agencies’ use of the Taser. Amnesty International, “Less
Than Lethal”? The Use of Stun Weapons in US Law Enforcement (December 16, 2008),
www.amnesty.org/en/news-and-updates/report/tasers-potentially-lethal-and-easy-abuse-
20081216 (accessed April 8, 2009).

       28  The NIJ is a sub-component of the Department’s Office of Justice Programs, which
funds research, development, and evaluation of crime control and justice issues. According to
the NIJ’s website, it also provides information and tools to support local and state law
enforcement, and assesses programs, policies, and technologies related to criminal justice
issues.



U.S. Department of Justice                                                               2
Office of the Inspector General
Evaluation and Inspections Division
                                      BACKGROUND


       In this Background section, we identify the less-lethal weapons used by
the Department’s law enforcement components, describe the Department’s use
of force policies, discuss the potential risks associated with less-lethal
weapons, and present a summary of previous studies on the use of less-lethal
weapons.

Department Users of Less-Lethal Technology

      All of the Department’s law enforcement components authorize at least
some of their personnel to use less-lethal weapons in the performance of their
duties. All use some form of impact weapon (such as baton, bean bag rounds,
and rubber projectiles) as well as chemical agents (such as pepper spray). ATF,
BOP, and USMS also equip some of their personnel with a conducted energy
device. ATF and the USMS use Tasers, and the BOP uses an electronic
custody control belt for escorting the highest security risk inmates. 29

      Table 1 shows the less-lethal weapons available for each of the five
components’ personnel to use. 30 (See Appendix I for a description of each of
these types of weapons.)




       29  The electronic custody control belt is placed around the inmate’s waist and can be
activated by an officer to deliver an electrical shock to the inmate.

       30While the weapons listed in Table 1 have been acquired and are available for use,
only some are used on a routine basis by any of the components’ personnel.



U.S. Department of Justice                                                                3
Office of the Inspector General
Evaluation and Inspections Division
      Table 1: Less-Lethal Weapons Used by Department Components

  Type of Less-Lethal Weapon                                  Component
                 Impact Weapons                 ATF     BOP     DEA       FBI    USMS

  Baton                                                                       
  Bean Bag Shotgun Rounds                                                       
  Baton Launcher                                                                 
  Rubber Projectiles, Pellets                            
                 Chemical Agents

  CS Gas (Tear Gas)                             a                       a
  Pepper Spray                                                                
  PepperBall System                                      
  StingBall                                              
          Conducted Energy Devices
  Electronic Custody Control Belt, Stun Belt,
  or “Band-It” Electronic Restraint                                              
  Taser                                                                          
  Ultron II Contact Stun Device                                                   
                 Sound Weapon

  Aerial Dispersion Shotgun Round                        
  a Only ATF’s Special Response Teams and the FBI’s Special Weapons and Tactics teams
  have access to tear gas.

  Source: OIG Survey of ATF, BOP, DEA, FBI, and USMS.


Use of Force Policies in the Department

       The use of force by the Department’s law enforcement and correctional
officers is governed by the components’ use of force policies, and the
Department’s deadly force policy. These policies, which describe how various
levels of force may be used during law enforcement operations, are designed to
protect the public’s civil rights and to provide clear guidance to officers so that
they can effectively perform their duties. The components’ use of less-lethal
weapons, like any other use of force, is subject to these policies.



U.S. Department of Justice                                                          4
Office of the Inspector General
Evaluation and Inspections Division
       The Department’s deadly force policy states:

       Law enforcement officers and correctional officers of the
       Department of Justice may use deadly force only when necessary,
       that is, when the officer has a reasonable belief that the subject of
       such force poses an imminent danger of death or serious physical
       injury to the officer or to another person. 31

      Consistent with the Department’s deadly force policy, the components
have established use of force policies and have trained their Special Agents,
Deputy Marshals, and BOP personnel that any use of force, both deadly and
non-deadly, must be reasonable in the specific circumstance that the force is
used. For example, the USMS use of force policy states that:

       1. Personnel must always use the minimum force reasonably
          necessary to protect themselves or others from bodily harm, to
          restrain or subdue a resistant prisoner or suspect, to make an
          arrest, or to prevent a prisoner from escaping. Use of a higher
          level of force is permitted only when it is warranted by the
          subject’s actions, apparent intentions, and apparent
          capabilities.

       2. The use of force must be objectively reasonable under all the
          circumstances known to the deputy at the time and may range
          from verbal coercion to the use of firearms. (If means other
          than deadly force appear to be sufficient to accomplish the
          objective, deadly force should not be used.)

       3. All incidents involving the use of firearms or non-lethal devices
          will be reported according to established procedures. 32




        31 Department of Justice, Policy Statement: Use of Deadly Force, July 1, 2004. The

components’ policies are based on the commentary to an earlier version of the Department’s
policy, referred to as Resolution 14, approved by the Attorney General on October 17, 1995.
The 2004 policy does not include a commentary.

       32 USMS Directive 8.31, Use of Force, June 29, 2005. Other components’ training
materials contain similar language regarding reasonableness.



U.S. Department of Justice                                                               5
Office of the Inspector General
Evaluation and Inspections Division
Risks Posed by Less-Lethal Weapons

        While less-lethal weapons are intended to provide an alternative to the
use of deadly force, they nonetheless have the potential to cause significant
bodily injury or death. Fatalities have occurred at the state and local level from
less-lethal weapons, particularly following the use of conducted energy devices.
For example, one recent study reported that over the last 8 years, 334 people
died after being subjected to a Taser discharge by state or local law
enforcement officers. Medical examiners concluded that the use of a Taser
contributed to or caused at least 50 of these fatalities. The remaining 284
fatalities were largely attributed to other factors such as drug intoxication. 33

       The predominant injury associated with the use of less-lethal weapons is
blunt trauma. The impact of weapons such as the baton, bean bag round, and
the PepperBall system can be significant, especially when the weapons are fired
at close range or when the subject is struck in sensitive areas like the head or
groin.

      For conducted energy devices, an identified risk is that an individual
could go into cardiac arrest from a Taser discharge. Also, burns to the subject
or the officer are another serious injury that the law enforcement community
has identified to be associated with using conducted energy devices, specifically
when used in conjunction with an alcohol-based pepper spray or near other
flammable liquids.

Prior Studies and Reviews of Less-Lethal Weapons

NIJ-Funded Studies and Reports

       The NIJ has funded studies to assess the role that the Taser may have
played when individuals who were “Tased” subsequently died in police custody.
The NIJ has also funded several recent studies conducted by universities on
the effect of emerging less-lethal technologies on state and local law
enforcement officers’ use of force. Some of these studies, including one about
the effect of Taser use, are still ongoing, but preliminary findings were
presented at the 2008 NIJ Conference.

       •    National Institute of Justice, Study of Deaths Following Electro
            Muscular Disruption: Interim Report, June 2008. This study found

       33  Amnesty International, 2008. The report stated that it is difficult to determine
through autopsy alone whether a Taser caused or contributed to a fatal arrhythmia as there
are often no direct pathological signs. However, the autopsy findings highlight risk factors
similar to those cited in an NIJ report discussed on the next page.



U.S. Department of Justice                                                                6
Office of the Inspector General
Evaluation and Inspections Division
            that “there is no conclusive medical evidence that indicates a high
            risk of serious injury or death from the direct effects of conducted
            energy device exposure [Tasers].” Also, “there is no medical evidence
            to suggest that exposure to a conducted energy device produces
            sufficient metabolic or physiologic effects to produce abnormal cardiac
            rhythms in normal, healthy adults.” However, the study cautioned,
            “preliminary review of deaths following conducted energy exposure
            indicates that many are associated with continuous or repeated
            discharge of the device.” 34

       •    Three studies that were funded by the NIJ assessed the effects of
            Tasers or other conducted energy weapons on use of force outcomes
            and their medical effects on subjects. The researchers presented their
            findings at the 2008 NIJ Conference and stated the following:

            o William P. Bozeman, William E. Hauda, Joseph J. Heck, Derrel D.
              Graham, Brian P. Martin, James E. Winslow, “Safety and Injury
              Profile of Conducted Electrical Weapons Used by Law Enforcement
              Officers Against Criminal Suspects Corrected Proof,” Annals of
              Emergency Medicine, January 22, 2009. During the 36-month
              period covered by the study, conducted electrical weapons were
              used against 1,201 suspects to see what, if any, injuries would
              occur. The study found that only mild or no injuries were observed
              after conducted electrical weapons were used on 1,198 subjects
              (99.75 percent). Of the mild injuries, 83 percent were superficial
              puncture wounds from conducted electrical weapon probes.
              Significant injuries occurred in three subjects (0.25 percent), and
              two subjects died in police custody. Medical examiners did not
              find conducted electrical weapon use to have caused or
              contributed to either of the two deaths. 35

            o Charlie Mesloh, Mark Henych, and Ross Wolf, Less Lethal Weapons
              Effectiveness, Use of Force and Suspect and Officer Injuries: A Five-
              Year Analysis, a report to the National Institute of Justice,
              September 2008. This study found that the Taser had
              substantially changed the manner in which law enforcement
              officers apply force. The study also found that the Taser enabled
              officers to disable and control a subject from a safe distance and
              caused fewer injuries when compared with use of other less-lethal


       34   See www.ojp.usdoj.gov/nij/pubs-sum/222981.htm (accessed April 8, 2009).

       35 DOI: 10.1016/j.annemergmed.2008.11.021, www.annemergmed.com/
article/S0196-0644(08)02061-1/abstract (accessed April 15, 2009).



U.S. Department of Justice                                                            7
Office of the Inspector General
Evaluation and Inspections Division
                  weapons. The study also found that the likelihood of injury to the
                  officer and the subject increased as the duration of the interaction
                  between them increased, regardless of the type of less-lethal
                  weapon used. 36

              o Michael R. Smith, Geoffrey P. Alpert, Robert J. Kaminski, Lorie
                Fridell, and John MacDonald, A Multi-Method Evaluation of Police
                Use-of-Force Outcomes, summer 2008. These researchers found
                that the use of Tasers was associated with significantly reduced
                injuries to both officers and citizens. The study found that the risk
                of injury to subjects and officers increased when the use of
                physical force employed by the officers consisted of hard-hand
                control (e.g., punching, kicking). The study also showed that the
                use of pepper spray resulted in reduced incidence of injury to
                subjects and was neutral to slightly increasing the risk of officer
                injury.

         •    Sarah V. Hart, Director, National Institute of Justice, before the
              Subcommittee on Aviation, Committee on Transportation and
              Infrastructure, U.S. House of Representatives, concerning “Less-Than-
              Lethal Weapons,” May 2, 2002. In 2001, the Aviation and
              Transportation Security Act (Pub. L. No. 107-71, Section 126(a))
              required the NIJ to assess whether less-lethal weapons could be used
              by commercial airline flight deck crew members to temporarily
              incapacitate individuals who presented a clear and present danger to
              the safety of the aircraft, its passengers, or individuals on the ground.
              In April 2002, the NIJ concluded that the use of electric stun devices
              in accordance with appropriate policies and training may be an
              effective means for flight deck crews to thwart an attack, but should
              not be deployed without further testing. 37

Government Accountability Office Reports

       Reviews conducted by the Government Accountability Office (GAO) have
identified the types of less-lethal weapons used by state and local law
enforcement agencies and the U.S. military. The efforts of the GAO also
addressed the feasibility of using the Taser in aviation security.

         •    GAO, Taser Weapons: Use of Tasers by Selected Law Enforcement
              Agencies, GAO-05-464, May 2005. The GAO reviewed the protocols

         36   See www.ncjrs.gov/pdffiles1/nij/grants/222769.pdf (accessed April 8, 2009).

         37   NCJ 205293, www.ojp.usdoj.gov/nij/speeches/aviation.htm (accessed April 8,
2009).



U.S. Department of Justice                                                                  8
Office of the Inspector General
Evaluation and Inspections Division
            and procedures of seven local law enforcement agencies that had the
            largest and longest use of the Taser device. 38 The GAO found that all
            seven of the agencies it reviewed had established use of force policies,
            training requirements, operational protocols, and safety procedures to
            help ensure the proper use of Tasers. Although none of the agencies
            had separate use of force policies that specifically addressed Tasers,
            all seven agencies included the use of Tasers in their broader
            policies. 39 Taser training was required for officers who used the
            weapons, and safety procedures required that Tasers not be used on
            children or pregnant subjects, near bystanders, or in proximity to
            flammable liquids. The procedures also required that subjects struck
            by the Taser barbs in the neck, face, or other specific, sensitive body
            areas be examined by a physician. The GAO did not assess which
            protocols or procedures demonstrated best practices, nor did it focus
            on use of Tasers by federal officials, other than the potential use by
            the Transportation Security Administration on airplanes.

       •    As of March 2009, the GAO was conducting a review of the
            Department of Defense’s less-lethal weapons programs. The review
            was focusing on military development or application of less-lethal
            weapons.

Reviews and Studies by Other Organizations

       Other organizations, such as the International Association of Chiefs of
Police (IACP) and the Royal Canadian Mounted Police (RCMP), have completed
assessments of less-lethal weapon technologies, including conducted energy
devices. IACP and the RCMP have issued reports providing guidance to law
enforcement agencies using such weapons or considering acquiring them. The
reports provide insight into the potential pitfalls of deploying less-lethal
weapons without appropriately completed acquisition strategies and use and
reporting policies.

       •    Royal Canadian Mounted Police, RCMP Use of the Conducted Energy
            Weapon (CEW): Final Report, June 2008. The RCMP report identified

       38   See www.gao.gov/new.items/d05464.pdf (accessed April 8, 2009).

       39   The agency the GAO identified as having the least restrictive policy was the Orange
County (Florida) Sheriff’s Office, which authorized the use of Tasers even in situations where
the suspect was only passively resisting. The other six agencies the GAO reviewed required:
(1) the suspect to demonstrate behavior that created a risk of physical injury to others or
(2) situations that the officer perceived as volatile. As of April 2009, the Orange County
Sheriff’s Office was the subject of an ongoing investigation conducted by the Civil Rights
Division’s Special Litigation Section concerning its personnel’s use of Tasers.



U.S. Department of Justice                                                                  9
Office of the Inspector General
Evaluation and Inspections Division
            that its conducted energy weapon policy had become less restrictive
            without appropriate justifications and noted that the instances of the
            weapon’s use were under-reported due to lax reporting structures. 40

       •    IACP, Electro-Muscular Disruption Technology: A Nine-Step Strategy for
            Effective Deployment (April 2005). This report recommended that
            agencies follow a nine-step deployment strategy when acquiring
            conducted energy weapons to ensure management accountability and
            guidelines for appropriate use. 41

       Other studies and reports concerning less-lethal weapons include:

       •    Byron K. Lee, Eric Vittinghoff, Dean Whiteman, Minna Park, Linda L.
            Lau, Zian H. Tseng, “Relation of Taser (Electrical Stun Gun)
            Deployment to Increase in In-Custody Sudden Deaths,” American
            Journal of Cardiology, January 22, 2009. These researchers
            examined the effect of Taser acquisition on rates of (1) in-custody
            sudden deaths in the absence of lethal force, (2) lethal force (firearm)
            deaths, and (3) officer injuries requiring emergency room visits for 126
            police and sheriff departments in California. The study found that the
            rate of in-custody sudden deaths increased 6.4 times and the rate of
            firearm deaths increased 2.3 times in the first full year after agencies’
            Taser acquisitions compared with the average rates 5 years before
            Tasers were acquired. In the second through fifth years after Taser
            acquisition, the in-custody death and firearm death rates decreased to
            pre-acquisition of Taser levels. The researchers observed no
            significant change in the rate of serious officer injuries after agencies
            acquired Tasers. 42

       •    City of Houston, Conducted Energy Device Program Performance Audit,
            Report No. 2009-09, September 8, 2008. This audit, conducted by an
            accounting firm and two universities, found that the Houston Police
            Department used Tasers disproportionately against minority groups. 43
            Specifically, the audit team found that the officers were using the
            Tasers more often against minority groups instead of implementing


       40   See www.cpc-cpp.gc.ca/af-fr/PDF/FinalCEWReport_e.pdf (accessed April 8, 2009).

       41 See www.theiacp.org/LinkClick.aspx?fileticket= Jk7o%2b4Ai2hE%3d&tabid=87
(accessed April 8, 2009).

       42DOI: 10.1016/j.amjcard.2008.11.046, www.ajconline.org/article/%20S0002-
9149(08)02113-9/abstract (accessed April 8, 2009).

       43   See www.houstontx.gov/controller/auditmain.html (accessed April 8, 2009).



U.S. Department of Justice                                                              10
Office of the Inspector General
Evaluation and Inspections Division
            other defensive tactics or compliance methods (such as physical
            controls and verbal instruction) where the use of deadly force would
            be unreasonable.

       •    University of Bradford, Non-Lethal Weapons Research Project, January
            2006, citing studies conducted by the United Kingdom Ministry of
            Defence’s Science and Technology Laboratory (Dstl). This report
            indicated that research may not have been adequate to assess the
            potential harms of the Taser. Based on its prior studies, the Dstl had
            concluded that the Taser’s electrical discharge was unlikely to have
            an adverse effect on the heart in healthy individuals. However, the
            Dstl stated that an increased risk of heart failure among individuals
            with existing heart problems and those under the influence of
            recreational drugs, including alcohol, “could not be excluded” in
            assessing the risk of fatalities associated with the use of a Taser. 44




       44 During a year-long trial of the weapon in the United Kingdom, over 50 percent of
those subjected to Taser discharges were under the influence of drugs or alcohol.
www.bradford.ac.uk/acad/nlw (accessed April 8, 2009).



U.S. Department of Justice                                                              11
Office of the Inspector General
Evaluation and Inspections Division
        PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW


Purpose

       We conducted this review to: (1) determine the types of less-lethal
weapons used by the Department’s law enforcement components; (2) the extent
to which they are using these weapons; (3) whether training and controls have
been implemented to ensure the weapons are used properly; (4) whether
Department components have identified the impact of using these weapons on
their missions; and (5) whether the Department assesses, deploys, and
oversees new and emerging less-lethal weapon technologies. In addition, the
review examined research related to less-lethal weapons conducted or funded
by the NIJ. We also reviewed the Civil Rights Division’s investigations of less-
lethal weapon usage by Department law enforcement components and state
and local law enforcement agencies.

Scope

      The OIG’s review focused on the five law enforcement components that
use less-lethal weapons (ATF, DEA, FBI, BOP, and USMS) and on two
components that are involved in researching or reviewing the use and alleged
misuse of these weapons by federal, state, and local law enforcement personnel
(NIJ and Civil Rights Division). Our review examined the components’ use of,
and the Department’s efforts concerning, less-lethal weapons from FY 2002
through FY 2008.

Methodology

      The methodology used in this review consisted of interviews with officials
from the Department’s components, document review, data analysis, and
observation of component training. Through these activities, we:

   •   identified the types of less-lethal weapons used by Department
       components, as well as the number of weapons acquired and their
       utilization;
   •   identified Department or component-specific policies governing the use of
       less-lethal weapons, including acquisition and training curricula, as well
       as reporting and investigation procedures when less-lethal weapons are
       used;
   •   identified Department research concerning less-lethal weapons,
       including development efforts and the promotion or adoption of best
       practices, and determined whether there are any ongoing or planned



U.S. Department of Justice                                                 12
Office of the Inspector General
Evaluation and Inspections Division
       studies to assess the advantages or detriments from the components’
       using less-lethal weapons; and
   •   determined whether any deaths or significant injuries have resulted from
       Department components’ use of less-lethal weapons.

Interviews

       To obtain an overview of components’ acquisition and use of less-lethal
weapons and of policies governing those weapons, we interviewed more than 30
officials from ATF, DEA, FBI, BOP, USMS, NIJ, and the Civil Rights Division.
We interviewed officials from the law enforcement and correctional components
who were principally responsible for determining the weapons the components
would acquire and those officials responsible for establishing the policies
related to use of weapons, including development of training curricula. We met
with NIJ officials who oversaw the selection and grant funding to universities to
perform studies or analyses of the use of less-lethal weapons and agencies’
policies regarding such use. We also met with Civil Rights Division officials to
determine the extent to which the Division reviews the components’ use of force
and less-lethal weapons policies. Finally, we discussed with Civil Rights
Division officials whether they had conducted investigations into alleged
misuse of less-lethal weapons by Department law enforcement officers and
correctional personnel or by state and local law enforcement agencies.

Document Review

      We reviewed component policies that pertained to the authorization and
acquisition of less-lethal weapons. Our review focused on the activities the
components performed prior to and after the acquisition of the weapons. The
OIG assessed whether there was evidence that the components had a sound
basis for their decisions (that they acquired weapons for which there was a
demonstrated need or, conversely, that they declined to acquire a weapon
which would not have been beneficial or cost effective).

       We also reviewed the Department’s and the components’ policies on less-
lethal weapons and use of force. We included in our review any policies
applicable to the use of less-lethal weapons by state and local police officers
participating on a federal task force with a Department law enforcement
component. To identify existing best practices and whether they had been
considered by the components, we evaluated policy statements and guidance
issued by law enforcement trade associations, such as the International




U.S. Department of Justice                                                 13
Office of the Inspector General
Evaluation and Inspections Division
Association of Chiefs of Police, and examined NIJ (and other) studies on the
safety of Taser and other less-lethal weapons. 45

       We also reviewed several recent reports related to the use of less-lethal
weapons, including those detailing possible safety concerns and studies that
documented the potential for the weapons’ misuse. Additionally, we examined
NIJ’s efforts concerning less-lethal weapons to determine if it was assisting the
Department’s law enforcement components either in acquiring or in evaluating
their use of these weapons.

Data Analysis

       To ascertain the less-lethal weapons acquired by the Department’s law
enforcement components, we requested data identifying the total number of
weapons (units). Additionally, the OIG requested that each of the five
components provide data on the number of instances of actual use of less-
lethal weapons by their personnel since FY 2003. 46 We also requested data
concerning the number of deaths or significant injuries to subjects that have
resulted from the use of less-lethal weapons by Department components over
the past 7 years. In addition, we asked the components for any analyses they
have performed on the advantages or disadvantages of their use of less-lethal
weapons.

Site Visits

       To determine if the Department’s law enforcement components
established training curriculum; set standards for the issuance, storage, and
maintenance of the weapons; and have procedures for reporting and
investigating the use (or discharge) of such weapons, OIG staff attended use of
force training and instruction for Special Agents at the Federal Law
Enforcement Training Center (FLETC) in Glynco, Georgia. During the
classroom scenarios and physical training sessions, OIG staff observed, among
other things, instruction on the methods by which Special Agents are taught to
use various less-lethal weapons and the appropriate circumstances in which
they should be used.


       45 The OIG observed the presentation of preliminary findings from several of these

studies at the 2008 NIJ Conference. OIG staff also discussed the research findings with the
presenters, which included the effects on officers’ decisions to use force when they carry Tasers
and assessments of the likelihood that a Taser was a direct or indirect cause of an in-custody
death.

       46   Based on the validity and availability of the components’ less-lethal weapons use
statistics, we limited the review of the data to the period FY 2003 through FY 2008.



U.S. Department of Justice                                                                14
Office of the Inspector General
Evaluation and Inspections Division
                               RESULTS OF THE REVIEW


       The Department’s law enforcement components are expanding
       their use of less-lethal weapons and are continuing to acquire
       new less-lethal technologies.          No Department policy
       specifically governs the use of less-lethal weapons by its law
       enforcement components or the state and local law
       enforcement personnel serving on Department task forces. In
       addition, the components independently assess new less-lethal
       weapons and have separately developed policy and training
       materials for these weapons. All components require their
       personnel to report any use of less-lethal weapons, but the
       components do not adequately compile and analyze the
       resulting reports.     None of the components reported any
       fatalities or significant injuries from their personnel’s use of
       less-lethal weapons.

The Department’s law enforcement components are expanding their use
of less-lethal weapons and are continuing to acquire new less-lethal
technologies.

       All five of the Department’s law enforcement components provide several
types of less-lethal weapons to their personnel. The only less-lethal weapons
provided to FBI and DEA Special Agents are batons and pepper spray. In
addition to batons and pepper spray, ATF, BOP, and USMS personnel can use
less-lethal weapons that include bean bag rounds, baton launchers, and
rubber projectiles. Also, in 2002, after successful pilot testing at its facilities,
the BOP approved the PepperBall system, which involves firing projectiles
containing highly irritating pepper powder. In addition, ATF and the USMS
have approved the use of the Taser. ATF began providing Tasers to its Special
Agents in January 2006 after completing a year of pilot testing. In April 2006,
the USMS approved the use of Tasers by Deputy Marshals. 47

       The extent of use of less-lethal weapons varies widely by component: the
DEA reported no use; the FBI reported limited use; ATF’s and the USMS’s
statistics reported moderate but increasing use, especially the USMS’s use of
the Taser; and the BOP’s data showed the most use. The components’ less-
lethal weapons use statistics are presented later in this report.


       47 The USMS did not perform pilot testing prior to its approval of the Taser for use by
its Deputy Marshals during general operations. The USMS’s Special Operations Group had
been using Tasers since 2000.



U.S. Department of Justice                                                                15
Office of the Inspector General
Evaluation and Inspections Division
       Officials from the three components that use less-lethal weapons to a
significant degree – ATF, USMS, and BOP – stated that the daily interactions
their personnel have with street-level criminals and inmates are the driving
force behind their increasing use of less-lethal weapons. These components
have acquired more technologically advanced less-lethal weapons, such as the
Taser and the PepperBall system, and use of those weapons has increased with
their distribution to agency personnel. Component officials stated that the
primary justification for equipping Department law enforcement personnel with
less-lethal weapons is to provide an “intermediate weapon” that can be used in
appropriate situations to place a subject in custody or regain control of a
subject without significant injury or death. The intent is to simultaneously
protect the officer’s safety and minimize the risk of harm to the subject.

       In contrast, DEA and FBI officials told us that their Special Agents do not
often carry or otherwise use less-lethal weapons because the daily activities of
their Special Agents do not routinely place them in situations likely to require
use of less-lethal weapons. 48

ATF and the USMS are increasing their use of less-lethal weapons to perform
their duties.

       Over the past 6 years, ATF personnel have increased their use of less-
lethal weapons, that is, Tasers, baton launchers, bean bag rounds, and pepper
spray. In FY 2007 and FY 2008, the Taser was the weapon most used by ATF
personnel, supplanting firearms, which in previous years had been the most
used weapon. At the USMS, the number of times its personnel used less-lethal
weapons increased from 27 incidents in FY 2003 to 156 incidents in FY 2008. 49
The weapons used were chemical agents (pepper spray), impact weapons (bean
bag round and baton), and conducted energy devices (Taser and Stun Belt).

       ATF and the USMS officials stated that they have acquired less-lethal
devices, including the Taser, based on their assessments that the activities of
their Special Agents and Deputy Marshals include situations in which using
the weapons would be advantageous in confronting violent individuals.
According to ATF officials, ATF’s use of less-lethal weapons has expanded
because ATF increasingly addresses street-level crime, including firearms

        48 According to the FBI, those Special Agents that work on high-risk assignments such

as Violent Crime Task Forces and Gang Task Forces do carry less-lethal weapons on a regular
basis.

       49  Further, the total number of uses of the Taser by USMS personnel for FY 2008 was
significantly higher than the projection provided to the OIG by the USMS during summer 2008.
Therefore, there appears to have been a marked increase in the use of the Taser by USMS
personnel in the fourth quarter of FY 2008.



U.S. Department of Justice                                                             16
Office of the Inspector General
Evaluation and Inspections Division
trafficking. USMS officials believe less-lethal weapons help support its mission
and their acquisition and use of these weapons has increased. 50

       ATF Special Agents and USMS Deputy Marshals often must obtain
compliance from subjects in situations that would justify the use of deadly
force. However, in some situations, less-lethal weapons would be useful. For
example, if a subject or fugitive refuses to obey verbal commands and
physically resists being placed in custody, less-lethal weapons such as the
Taser allow law enforcement officers to avoid engaging in hand-to-hand scuffles
with subjects. Use of less-lethal weapons in these circumstances reduces the
risk that subjects may wrest a firearm away from the Special Agent or Deputy
Marshal.

      ATF and the USMS are the only two components that currently use
Tasers. Both agencies decided independent of each other to acquire Tasers
several years ago and believe the Taser is an effective alternative to baton and
pepper spray. Officials of both components told us that they expanded their
Taser acquisitions because they have found that the Taser enables officers to
achieve control while minimizing the risk of significant injury or death to both
the subject and the officer. Specifically, ATF officials said the Taser “levels the
playing field,” especially in situations where a Special Agent is confronting a
subject who is physically much larger than the Special Agent.

       ATF provides Tasers to its Criminal Enforcement Field Offices and not to
individual Special Agents. Special Agents can sign out Tasers as they do
shotguns or rifles. However, an ATF Special Agent must be certified to use the
Taser to carry it. ATF has 700 Tasers for use by its 2,270 Special Agents.
Approximately 1,800 to 2,000 Special Agents are certified to use the Taser.
The USMS stated that it has provided approximately 1,000 Tasers to its field
divisions for use by approximately 3,000 Deputy Marshals operating at its field
offices. The USMS plans to purchase additional Tasers, which may be used by
Deputy Marshals who have been certified by the USMS to use the weapon.

      Our analysis of ATF and USMS use of force data shows that their
personnel are increasingly using less-lethal weapons, especially the Taser.
Table 2 presents ATF’s data on the number of incidents in which less-lethal
weapons were deployed from FY 2003 through FY 2008. As shown in the table,
ATF’s use of less-lethal weapons, including the Taser, has increased, while its
use of firearms has remained largely consistent during the same period. In
FY 2008, less-lethal weapons accounted for 79 percent of ATF’s use of force.

       50 The USMS’s mission includes arresting violent fugitives; providing federal
courthouse security; protecting judges, witnesses, jurors, and members of the public; and
transporting and detaining federal prisoners.



U.S. Department of Justice                                                              17
Office of the Inspector General
Evaluation and Inspections Division
Additionally, the Taser accounted for nearly 50 percent of ATF’s uses of force in
FY 2008.
                                  Table 2: ATF Use of Force
                                     FY 2003 – FY 2008
                                           FY        FY        FY        FY        FY          FY
       Type of Force Used                 2003      2004      2005      2006      2007        2008
       Pepper Spray                         0         0         0         0         1         1a
       Tasers                               0b       0b        2c        9d        14e        21f
       Baton Launcher                       2         2         4         0         5         11
       Bean Bag Gun                         1         1         5         1         0          1
       Baton                                0         0         0         0         0          0
       Firearms                             7         2         9         4        12          8
       Physical   Controlg                  3         1         2         1         1          1
       Total                               13         6        22        15        33         43
       Percentage of Use of Force,
                                          23%b      50%b      50%c      67%       61%         79%
       Using Less-Lethal Weapons
   a   One use by an ATF task force officer.
   b  These figures do not factor in 21 Taser uses that occurred during ATF’s pilot test. ATF’s
   Internal Affairs Division did not receive use of force reports for these 21 Taser uses. ATF
   estimates that 7 of these uses occurred in FY 2003 and 14 in 2004. If those uses are
   included, less-lethal weapons would account for 68 percent of ATF’s reported instances of use
   of force over the 2-year period of FY 2003 and FY 2004.
   c ATF officials stated that FY 2005 figures for Taser use are likely to be inaccurate as
   consistent reporting procedures were not implemented until FY 2006.
   d Includes one use on a canine, two uses by a task force officer, and one use by a local officer
   on an ATF operation.
   e   Includes one use by a task force officer and one use by a local officer on an ATF operation.
   f   Includes two uses on canines.
   g Only those incidents in which physical control results in significant injury to or the death

   of the subject are reported to ATF’s Internal Affairs Division. Prior to FY 2006, these
   incidents may not have been reported to ATF’s Shooting Review Coordinator, but instead
   were processed by ATF’s Integrity Section and reviewed for potential misconduct. Since
   FY 2006, incidents in which physical control resulted in significant injury or death have been
   reviewed in a manner similar to firearm discharges but are not subject to ATF’s Shooting
   Review Board.
   Source: ATF Internal Affairs Division.

       Table 3 presents the USMS’s data on the number of incidents in which
force of some kind was used from FY 2003 through FY 2008. As shown in the
table, the USMS is significantly increasing its use of less-lethal weapons. In
FY 2008, the USMS’s use of less-lethal weapons (chemical munitions, Taser,
and baton) accounted for 61 percent of all reported uses of force. This is a




U.S. Department of Justice                                                                         18
Office of the Inspector General
Evaluation and Inspections Division
marked increase from 31 percent in FY 2004. 51 As shown in Table 3, the Taser
has become the USMS’s most used weapon and the primary method for
applying force. USMS Office of Inspections officials told us they believe Deputy
Marshals are using the Taser as a substitute for pepper spray. The data
supports that conclusion as the use of pepper spray in FY 2008 was 59 percent
less than the average number of pepper spray uses during the period of
FY 2003 through FY 2007. Additionally, over the last 4 years the USMS’s use
of firearms has generally remained consistent, including during the period of
significantly expanded use of the Taser (FY 2007 and FY 2008). 52 USMS
Inspections officials stated that the Taser is not a substitute for firearms in
those situations where deadly force would be warranted.




       51   The OIG compared FY 2008 to FY 2004 as the FY 2003 data for physical control
appeared low given its consistency across FY 2004 through FY 2008. According to USMS
Office of Inspections officials, supervisor training seminars, which began in 2003, included a
block of instruction on the importance of reporting instances of physical control.

       52 However, the average number of firearm discharges over the last 4 years shows a
53 percent increase versus the average number of discharges during FY 2003 and FY 2004.



U.S. Department of Justice                                                                19
Office of the Inspector General
Evaluation and Inspections Division
                               Table 3: USMS Use of Force
                                   FY 2003 – FY 2008
                                        FY        FY        FY         FY        FY        FY
Type of Force Used                     2003      2004      2005       2006      2007      2008
Chemical Munitions/Irritants           22         22        33         20        13            9
Taser X26 & Taser M-25                  0         1          7         8         77       138
Stun Belt (Band-It)                     2         1          4         4         0             0
Ultron II                               0         0          0         0         0             0
Expandable Baton                        3         6          8         8         6             9
Baton Launcher                          0         0          0         0         0             0
Bean Bag Shotgun Rounds                 0         0          0         0         0             0
Firearm Discharge                      13         18        24         22        25        24
Physical Control                        8         42        50         50        66        72
Other a                                 5         8          2         3         3             3

Total                                   53        98        128       115        190       255
Percentage of Use of Force,
                                       51%        31%       41%       35%        51%       61%
Using Less-Lethal Weapons
Note 1: According to the USMS Office of Inspections, many of the Taser deployments also
included the application of physical force. If a Deputy Marshal or USMS task force officer uses
more than one type of weapon or applies physical control in addition to a weapon during the
same encounter, all uses of force would be included in their respective categories in the table.
Thus, the table likely includes double-counting of applications of force.
Note 2: The totals include uses of force by USMS task force officers from state or local law
enforcement agencies, including seven uses of the Taser in FY 2008.
a An example of “Other”: A Deputy Marshal used a handgun (but did not discharge it) as a
blunt object to break a window of a vehicle driven by a fugitive.

Source: USMS Office of Inspections’ FY 2007 and 2008 Annual Reports.

Of the Department’s law enforcement components, the BOP has made the most
use of less-lethal weapons over the last 4 years.

      While the BOP’s statistics for less-lethal weapons show fluctuations in
the use of specific less-lethal weapons during the review period, these statistics
demonstrate it has had the most uses of less-lethal weapons within the
Department in each of the past 5 years, from FY 2004 through FY 2008. In
addition to batons and pepper spray, the BOP utilizes aerial dispersion rounds,
the PepperBall system, rubber projectiles, StingBalls, tear gas, bean bag
rounds, and electronic custody control belts. According to BOP officials, the
BOP uses less-lethal weapons to obtain compliance and quell potential


U.S. Department of Justice                                                                20
Office of the Inspector General
Evaluation and Inspections Division
disturbances, which helps balance its responsibilities to maintain order and
protect the safety of inmates and correctional officers.

       The BOP’s mission requires it to ensure that federal offenders serve their
sentences in facilities that are safe, humane, cost-efficient, and appropriately
secure. These considerations limit the types of less-lethal weapons that the
BOP authorizes in its facilities. The BOP approved the use of the PepperBall
system after concluding that it could safely deliver the chemical agent in
pepper spray with less risk of exposing BOP personnel to it. While the BOP
uses an electronic custody control belt, a type of conducted energy device, it
does not use the Taser. Correctional officials use the custody control belt when
transporting particularly violent inmates, within or outside of BOP facilities, or
if an inmate engages in inappropriate behavior. The BOP does not use Tasers
because of the risk that an inmate could disarm the correctional officer, gain
control of the Taser, and use it as a weapon against staff or other inmates.

       BOP officials told us that correctional facility staff often inquire about the
BOP obtaining Tasers. BOP Office of Science and Technology (BOP OST)
officials stated that in-custody deaths associated with the Taser and the limited
number of rounds that can be fired from the weapon are two additional reasons
the BOP has not moved to obtain Tasers for operational use. Therefore, the
BOP’s evaluations of the Taser’s suitability for its operations have not advanced
past these preliminary assessments.

        BOP personnel do not routinely carry less-lethal weapons in the cell
block areas of BOP institutions. Rather, the weapons are stored in the
institution’s armory or at other approved locations, such as officer posts in the
facility’s towers. Use of the weapons must be approved by the Warden or
designated official in response to a disturbance or to transport a maximum
custody inmate. The BOP’s use of force statistics are presented below in
Table 4.




U.S. Department of Justice                                                     21
Office of the Inspector General
Evaluation and Inspections Division
             Table 4: Bureau of Prisons Use of Less-Lethal Weapons
                              FY 2004 – FY 2008
                                          FY          FY     FY       FY       FY
        Type of Force Used               2004a       2005   2006     2007     2008b
        Baton                              23         90     85       66        15
        Pepper Spray                      125        208    121      313        63
        PepperBall System                  26         29     64       44        40
        Aerial Dispersion Shotgun
                                           1          4      15       39        30
        Round
        Bean Bag Round/Stun Gun            6          4       4        6         5
        CS Gas (Tear Gas)                  0          1       0        1         4
        StingBall                          11         12     11        8        10
        Rubber Projectiles, Pellets c      3          18     11       15        27
        Electronic Custody Control
                                           0          0       0        0         0
        Device
        Total                             195        366    311      492       194
        a With the exception of baton use, there was no reportable data for FY 2003
        and only partial data for FY 2004. According to BOP officials, the BOP did not
        track the use of less-lethal weapons in separate categories prior to spring
        2004. In approximately April 2004, the BOP implemented its current tracking
        procedures.
        b   FY 2008 data is through June 30, 2008.
        c Pepper spray projectiles are excluded, while “Foam Batons” are included, in
        this category.

        Source: BOP.

      The BOP’s FY 2008 total of 194 uses of less-lethal weapons through
June 30, 2008, in Table 4 projects to a total of 259 over a full-year period. The
OIG’s review of the pepper spray totals for all years in the table suggests that
there are duplicative entries in the data. While the annual use of pepper spray
has fluctuated, the BOP’s total use of other less-lethal weapons in its arsenal
has remained largely consistent. Specifically, the 3-year average for the BOP’s
use of less-lethal weapons (other than pepper spray) from FY 2005 through
FY 2007 is 176. This average is nearly identical to the projected total for
FY 2008, which is 175. Table 4 also shows increases in the use of rubber
projectiles and the aerial dispersion shotgun, and decreasing use of the baton.




U.S. Department of Justice                                                               22
Office of the Inspector General
Evaluation and Inspections Division
The DEA and the FBI make minimal use of less-lethal weapons.

       The only less-lethal weapons provided to FBI and DEA Special Agents are
batons and pepper spray. 53 FBI and DEA officials told us that their Special
Agents often choose not to carry these weapons because of their respective
missions and operating environments. The result is infrequent use of these
less-lethal weapons by their Special Agents. FBI and DEA Special Agents are
required to carry only the standard-issue firearm when performing their duties.
However, FBI policy states that Special Agents must use alternative methods
and tactics when the use of deadly force is not authorized under the deadly
force policy.

       DEA officials told the OIG that its Special Agents have not made a single
use of the less-lethal weapons provided to them. DEA Inspections Division
officials stated they had never heard of a DEA Special Agent using a baton or
pepper spray, and the DEA does not seek to compile statistical data on its
personnel’s use of less-lethal weapons. DEA officials said that most of the
DEA’s enforcement work involves long-term investigations and significant
undercover operations. According to DEA officials, therefore, when DEA
Special Agents apprehend the targets of their investigations, they do so with
maximum force under conditions that are not conducive to the use of less-
lethal alternatives. 54

        According to the FBI, there are Special Agents operating on high-risk
assignments, such as on Violent Crime Task Forces and Gang Task Forces,
who always carry less-lethal weapons, but its personnel use pepper spray no
more than five times a year, and many instances of use involve spraying dogs.
FBI officials also said that FBI Special Agents often choose not to carry less-
lethal weapons because their daily activities do not lend themselves to the use
of that type of weapon. According to FBI officials, its focus on international
and domestic terrorism and on more than 200 other federal offenses –
including cyber crime, organized and white collar crime, public corruption, and
civil rights violations – is not likely to place FBI Special Agents in situations
where use of a less-lethal weapon would be warranted. Accordingly, officials
said that FBI Special Agents are not typically equipped with weapons other
than the standard-issue firearm.

       53 The exception is FBI Special Weapons and Tactics (SWAT) teams, which are specially

trained teams of Special Agents at each of the FBI’s 56 field offices. SWAT teams are equipped
with tear gas, a less-lethal weapon not made available to ordinary FBI Special Agents. SWAT
teams are trained to intervene in high-risk events, such as hostage or barricade situations.
From FY 2003 through FY 2008, FBI SWAT teams used tear gas in 12 different operations.

       54 DEA officials said that when Special Agents apprehend suspects, they often do so
wearing full protective gear and with firearms drawn in case deadly force is necessary.



U.S. Department of Justice                                                             23
Office of the Inspector General
Evaluation and Inspections Division
      In addition to its Special Agents, the FBI also has its own police force,
which provides protective security for FBI personnel, including the FBI
Director, and performs law enforcement duties at and around FBI facilities. 55
FBI Police officials stated that very few confrontations with citizens would
warrant the use of any type of force. Typically, in providing building security,
FBI Police personnel direct citizens away from prohibited areas with stern voice
commands or occasionally use hands-on techniques to achieve compliance.
FBI Police officials said that their personnel have had success using these
techniques and believe they can complete their duties with the less-lethal
weapons currently approved for their use (baton and pepper spray). They said
that the use of the baton or pepper spray was extremely infrequent.

       DEA officials stated they considered acquiring other less-lethal weapons
such as the Taser but decided not to do so. The officials told us that the DEA
concluded that the limited number of scenarios in which Special Agents would
be likely to use these weapons did not justify their acquisition and annual
training on their use. 56 FBI officials also said the minimal potential advantages
of Tasers were outweighed by the acquisition costs and the resources that
would be necessary to ensure proper training and certifications.

No Department policy specifically governs the use of less-lethal weapons
by its law enforcement components or the state and local law
enforcement personnel serving on Department task forces.

       The only use of force policy issued by the Department relates to the use
of deadly force. This policy does not specifically address the use of less-lethal
weapons. When the deadly force policy was clarified in July 2004, the
revisions removed reference to the use of non-deadly force. As a result, the
Department’s policy governing the use of less-lethal weapons can be inferred
from its deadly force policy.

       According to a July 7, 2004, FBI electronic communication, the language
in the Department’s deadly force policy was modified to restate the policy in a
more clear and succinct manner because the prior version of the policy was
confusing. Specifically, the previous policy stated that deadly force was not
necessary if non-deadly force “reasonably appear[ed] sufficient to accomplish”


       55   The primary mission of FBI police officers is to deter or respond to a terrorist attack,
or other criminal acts, at and around FBI facilities. FBI police officers perform duties such as
identification checks, roving patrols, and unscheduled perimeter and internal patrols. Officers
also monitor electronic intrusion and communications systems.

       56   A Taser costs approximately $800 a unit. Including the holster and cartridges, the
total cost is approximately $1,000.



U.S. Department of Justice                                                                   24
Office of the Inspector General
Evaluation and Inspections Division
the arrest or other law enforcement objective. 57 The new deadly force policy
states:

       Law enforcement officers and correctional officers of the
       Department of Justice may use deadly force only when necessary,
       that is, when the officer has a reasonable belief that the subject of
       such force poses an imminent danger of death or serious physical
       injury to the officer or to another person. 58

All of the components developed and implemented separate policies on their
personnel’s use of less-lethal weapons.

       In the absence of a Department policy, we found that all of the
components have created separate policies to guide their personnel in the use
of less-lethal weapons. The components’ less-lethal weapons policies are based
on an “objective reasonableness” standard, which is the standard set forth in
the Department’s deadly force policy. Specifically, according to the
Department’s deadly force policy and previously issued commentary that
provided “practical guidance” to the components, the force used must be
reasonable under the circumstances and is appropriate when “the officer has a
reasonable belief” that such force is necessary.

      For example, the USMS revised its use of force policy to reflect the
changes made to the Department’s deadly force policy. In a June 29, 2005,
memorandum, Deputy Marshals were provided with the revised use of force
Directive, which states that Deputy Marshals may use “non-lethal” force when
they have reasonable grounds to believe that such force is necessary to:

       1.   protect themselves or others from physical harm,
       2.   restrain or subdue a resistant prisoner or suspect,
       3.   make an arrest, or
       4.   prevent a prisoner from escaping.



        57 FBI electronic communication, Revisions To The Department Of Justice Deadly Force

Policy, July 7, 2004.

        58 The Department of Justice’s Deadly Force Policy (July 1, 2004) is designed to protect

the public’s civil rights and to provide guidance to officers so that they can effectively perform
their duties. The policy provides general principles concerning the use of deadly force by
Department law enforcement and correctional officers and when their use of deadly force is
appropriate. However, the policy does not include commentary which was provided when the
Department’s Policy Statement on the Use of Deadly Force was approved by the Attorney
General on October 17, 1995. www.usdoj.gov/ag/readingroom/resolution14c.htm (accessed
April 8, 2009).



U.S. Department of Justice                                                                 25
Office of the Inspector General
Evaluation and Inspections Division
The Directive further states that a Deputy Marshal using an authorized non-
lethal device should use only the minimum force necessary to control a subject
and then should stop using the device. 59

       BOP personnel must adhere to the guidance contained within the BOP’s
Correctional Services Manual. The manual contains the rules governing the use
of less-lethal weapons by BOP personnel. For example, the use of chemical
agents shall be restricted to instances when an inmate is armed or barricaded
and cannot be approached without danger to personnel or self or when delay in
restoring order would result in a larger disturbance or loss of control. 60

       DEA Special Agents must follow Section 6123.1 of the agency’s Special
Agents Manual, “Other Defensive Equipment,” which contains the DEA’s less-
lethal weapons policies. For example, Special Agents may use batons to
subdue a resisting or attacking individual and may use pepper spray as
necessary for self-defense, or in defense of another person, when they believe
they or another person are in danger of bodily harm. Special Agents may use
pepper spray to eliminate the threat posed by subjects who are combative or
who physically resist their own arrest or the arrest of someone else. The use of
pepper spray does not preclude any subsequent, justifiable use of a higher level
of force. 61

       FBI Special Agents are required to adhere to the polices and training
standards outlined in the FBI’s Manual of Investigative Operations and
Guidelines (MIOG) when using a less-lethal weapon, such as baton or pepper
spray. Similarly, the FBI Police policy on batons states that an officer shall use
a baton only according to the use of force continuum and use of force
guidelines, only until the threat is neutralized, and must report the incident to
their supervisor and file a report. 62 All FBI Police Officers who carry a baton




       59   USMS Directive 8.31, Use of Force, June 29, 2005.

      60 Bureau of Prisons Program Statement 5500.11 (October 2003), Correctional Services

Manual, Chapter 1, Section 103.

       61   DEA Agents Manual, Section 6123.1 (March 1999).

       62  A use of force continuum provides law enforcement officers with an escalating series
of options available in response to a suspect’s behavior. The officer is permitted to increase the
use of force as the suspect becomes increasingly combative and the threat posed by the subject
escalates. FBI Law Enforcement Bulletin, Volume 76, Number 9 (September 2007),
www.fbi.gov/publications/leb/2007/sept2007/september2007.htm (accessed April 8, 2009).




U.S. Department of Justice                                                                 26
Office of the Inspector General
Evaluation and Inspections Division
must have completed training and be accredited as being satisfactorily
proficient in its use. 63

       ATF revised its use of force policy in fall 2008 using the “objective
reasonableness” standard for any use of force, which would include the use of
less-lethal weapons. ATF’s Taser policy is contained in both memoranda and
training curriculum. For example, ATF classifies the Taser as an intermediate
weapon and in the same category as impact weapons (e.g., baton) and chemical
agents (e.g., pepper spray), and states that, “the primary purpose of employing
the [Taser] is to save lives.” 64 For ATF officials, one of the foremost concerns in
crafting the Taser policy was where to place the weapon on ATF’s use of force
continuum. ATF officials said they wanted to be very conservative in the
weapon’s application, especially in light of the issues that the Orange County
(Florida) Sheriff’s Office was having with its Taser policy. 65 Therefore, ATF
decided that the weapon could not be deployed in response to a subject’s
noncompliance with ATF personnel’s verbal commands.

       In creating their Taser policies, ATF and the USMS both consulted with
state and local law enforcement agencies as well as independent organizations
to identify best practices. However, the OIG found that ATF and the USMS did
not coordinate with each other in constructing their policies.

Not all of the components have specifically addressed the use of less-lethal
weapons on their task forces by state and local law enforcement officers.

      The Department’s components operate hundreds of task forces that
involve thousands of state and local law enforcement officers across the
country. 66 Further, during its May 2007 review of the coordination of
Department task force investigations, the OIG reported that the Department
had increased its use of different types of task forces to assist state and local

       63FBI Manual of Police Operations, Section 10.11, Use of the Collapsible Baton
(September 2007).

       64 ATF Policy for Bureau Issued X-26 Taser, issued in a Memorandum from Assistant

Director, Training and Professional Development, to All Special Agents In Charge on March 7,
2007.

       65The Orange County (Florida) Sheriff’s Office incurred media scrutiny and community
complaints following several highly publicized uses of Tasers during incidents in which their
use appeared questionable.

       66 See, for instance, U.S. Department of Justice Office of the Inspector General,
Coordination of Investigations by Department of Justice Violent Crime Task Forces, Evaluation
and Inspections Report I-2007-004 (May 2007), and The Department of Justice’s Terrorism Task
Forces, Evaluation and Inspections Report I-2005-007 (June 2005).



U.S. Department of Justice                                                              27
Office of the Inspector General
Evaluation and Inspections Division
law enforcement in reducing violent crime. 67 Given the expanded number of
Department-sponsored task forces and state and local law enforcement officers
serving on them, there is a significant likelihood that task force officers will be
carrying less-lethal devices while operating under the auspices of a Department
component.

       Additionally, state and local law enforcement agencies increasingly equip
their officers with less-lethal weapons, particularly conducted energy devices.
For example, the New York City Police Department recently increased its
acquisition of Tasers, and its Taser-certified officers are members of DEA task
forces. Further, we determined that state and local officers have used Tasers
at least 18 times since FY 2005 while serving on ATF and USMS task forces.

       Although Department components have established policies for their
personnel’s use of less-lethal weapons, only ATF directs that state and local
task force members abide by its less-lethal weapons policies, including ATF’s
Taser policy. Other Department components’ reliance on state and local
agencies’ policies for use of less-lethal weapons by state and local task force
officers may not be adequate to protect the Department’s interests in the event
a subject is significantly injured or killed by the use of a less-lethal weapon.

      ATF has recognized that its task forces include non-ATF personnel that
may be authorized by their home agencies to carry Tasers. As a result, ATF
has implemented policies to address the use of less-lethal weapons by non-ATF
task force members. Specifically, ATF has issued guidance that only ATF
Special Agents may use ATF-issued Tasers. Thus, state and local officers
serving on ATF task forces may use their own agency-issued Tasers provided
they are certified to do so and provided they adhere to ATF’s Taser policy.

       According to USMS officials, its memoranda of understanding (MOU)
with state and local law enforcement agencies do not mandate that those
agencies’ officers serving on USMS task forces abide by the USMS’s less-lethal
weapons policies. The MOUs allow task force officers to follow their respective
state and local agencies’ less-lethal weapons policies.

       The use of less-lethal weapons by state and local law enforcement
officers participating on FBI and DEA task forces is subject to the FBI’s and
DEA’s general use of force policies. For the DEA, state and local officers
participating on DEA task forces must also follow the DEA’s policies concerning
the baton and pepper spray. For the FBI, the specific guidance concerning the
use of all less-lethal weapons by task force officers is provided by their home

       67  Review of Coordination of Investigations by Department of Justice Violent Crime Task
Forces, I-2003-004 (May 2007).



U.S. Department of Justice                                                                28
Office of the Inspector General
Evaluation and Inspections Division
agencies’ less-lethal weapons policies. Because the DEA’s and FBI’s policies
only address those weapons issued to their personnel, which do not include
conducted energy devices, both agencies rely on the state and local task force
officers’ home agencies to provide guidance on the use of conducted energy
devices if they carry these weapons while participating on the components’ task
forces.

      Further, even for ATF and the USMS, which have Taser policies, we
found that guidance regarding the appropriate use of less-lethal weapons is
often provided as a part of the components’ initial and re-certification training
programs for Special Agents, Deputy Marshals, and correctional facility
personnel. However, similar guidance is not contained in the components’
formal policies that would be available to task force officers. The information
on use of less-lethal weapons found in training materials is generally
considered advisory and not mandatory policy.

        For example, ATF’s Taser training curriculum describes situations in
which employing a Taser would be an appropriate use of force. In contrast,
ATF’s Taser Policy only states that “the [Taser] is classified as an intermediate
weapon and is an alternative to impact weapons and chemical sprays.” Thus,
even if state and local task force officers were provided with components’ less-
lethal weapons policies, they would not receive specific guidance on reasonable
and appropriate use contained in the components’ training materials.
However, state and local law enforcement officers serving for an extended
duration do participate in ATF’s quarterly tactical training, which addresses
the use of less-lethal weapons, including Tasers. Task force officers must be
initially certified on the Taser by their home agencies, but if their home
agencies allow, may participate in ATF’s annual Taser recertification class. The
class consists of a written policy test, scenario-based training, and a review of
the functionality of the weapon.




U.S. Department of Justice                                                   29
Office of the Inspector General
Evaluation and Inspections Division
In furtherance of their less-lethal weapon policies, the components provide
training on less-lethal weapons to their personnel.

       In addition to providing instruction on the components’ use of force
policies, the components also provide tactical instruction on each of the less-
lethal weapons the components have acquired for their personnel to use. The
components have established training policies to certify trainers and provide
Special Agents, Deputy Marshals, and BOP personnel with required training.
We found that the components provided training to ensure that less-lethal
devices are used appropriately. However, in crafting their respective Taser
training curricula, ATF and the USMS did not coordinate with each other. 68

       The OIG found that the components’ training on the use of force now
focuses on the “reasonableness” of the force applied rather than the previous
“use of force continuum” model (see footnote 62, above). 69 As it applies to the
application of use of force, including deadly force, “reasonableness” is
determined by reference to the facts and circumstances confronting the law
enforcement officer at the time of the encounter. Accordingly, officers’ conduct
in making split-second decisions in tense, unpredictable, or rapidly evolving
situations is judged by how a “reasonable officer” would respond.

       In sum, the components’ use of less-lethal weapons, coupled with the
rising incidence of deaths associated with their use by state and local law
enforcement, particularly conducted energy devices, highlights a need for more
coordinated Department policy, guidance, and communication. Additionally,
a coordinated Department policy would help ensure the appropriate use of less-
lethal weapons by state and local law enforcement officers participating on all
of the different Department task forces.

      An expanded discussion of the components’ efforts to train their
personnel on the use of less-lethal weapons is contained in Appendix II.




        68 During this review, the OIG suggested that ATF Training Academy officials consider

meeting with USMS Training Academy officials to assist ATF in its initiation of Taser training at
its Training Academy in FY 2009. USMS Training Academy officials stated they would be
receptive to providing such assistance.

       69  The law enforcement components made this change in focus to allow officers to react
more instinctively. However, the continuum model is still referenced in training materials.
Additionally, statements by BOP officials indicate that the BOP has not made the transition to
the “objective reasonableness” standard to the same extent as the other four components.



U.S. Department of Justice                                                                30
Office of the Inspector General
Evaluation and Inspections Division
Recommendation

       We recommend that:

       1. The Department coordinate and ensure that its components develop
          appropriate and consistent policies to specifically address the use of
          less-lethal weapons, including conducted energy devices, by
          Department personnel and state and local law enforcement officers
          serving on Department task forces.

       2. The law enforcement components establish procedures to ensure that
          state and local task force members are informed of and adhere to the
          components’ less-lethal weapons policies.


All components require their personnel to report any use of less-lethal
weapons, but the components do not adequately compile and analyze the
resulting reports.

       All components have policies that require Special Agents, Deputy
Marshals, and correctional staff to report all incidents in which they use less-
lethal weapons. 70 Despite these reporting requirements, we found that the
components did not have complete data on their personnel’s use of less-lethal
weapons during the period covered by of the OIG’s review.

       Some components compiled less-lethal weapon use statistics but did not
use consistent or appropriate methodologies that would enable accurate data
analysis and the identification of trends in the use of less-lethal weapons.
Additionally, those components that had more than minimal use of less-lethal
weapons had not performed any quantitative or qualitative analyses to
determine whether and to what extent benefits resulted from the use of less-
lethal weapons.

      All of the components’ policies require personnel to complete use of force
reports, including the use of less-lethal weapons. The reports are forwarded
through the components’ use of force reporting procedures. FBI policy requires
that deployment of the baton be documented and reviewed at the local level by
the squad supervisor and that the use of pepper spray be reported through FBI
Headquarters. ATF’s Internal Affairs Division currently receives use of force
reports detailing all Taser and other less-lethal weapon use (baton, pepper
spray, bean bag round). According to USMS directives, it is imperative that all

       70  Brandishing (merely drawing) a less-lethal weapon does not constitute use under
any of the components’ reporting requirements.



U.S. Department of Justice                                                             31
Office of the Inspector General
Evaluation and Inspections Division
use of force incidents be documented and reported in a timely manner for
statistical analysis, training purposes, policy compliance, and excessive use of
force claims. 71

      While component personnel are required to produce these reports, the
data compilation on less-lethal weapons use and the sophistication of the
components’ data vary significantly. Further, the components’ efforts to
determine trends in, or evaluate the benefits from, their use of less-lethal
weapons is inadequate.

USMS

      We found that the USMS maintained the most detailed data related to
the use of less-lethal weapons and produced annual reports quantifying its
use. The USMS Office of Inspections’ FY 2007 and FY 2008 annual reports
provide a detailed breakout of use of force incidents, including those incidents
involving task force officers. However, the OIG found that the USMS’s
methodology for generating summary tables for use of force statistics was
inconsistent. Specifically, the USMS included unintentional firearm discharges
in the use of force summary table for 4 of the 6 years (FY 2003 through
FY 2008). 72 Also, there were instances when the summary data tables did not
match the itemized supporting tables.

BOP

       The BOP began collecting data related to the use of less-lethal weapons
in spring 2004. However, we identified problems with the BOP’s method of
recording information about its use of less-lethal weapons that reduce the
data’s utility for compiling statistics or analyzing trends. First, although the
BOP provided statistical data for pepper spray and bean bag round usage, it
was unable to provide total usage data for several other less-lethal weapons.
For these other less-lethal weapons, the BOP only recorded use as text in
database comment fields. This manner of record keeping makes producing
aggregate data on the use of less-lethal weapons onerous and prone to error.
In fact, the OIG had to manually search the documentation provided by the
BOP to compile the statistics shown above on page 24. Second, the BOP’s
database is designed to track information by inmate rather than by each use of
a weapon. Because one use of a weapon such as tear gas or the PepperBall

       71USMS Directives 2.1, Law Enforcement Response, and 2.2, Critical Reporting
Requirements.

       72  For those years in which unintentional firearm discharges were included, the data is
distorted and could lead to skewed usage trends.



U.S. Department of Justice                                                               32
Office of the Inspector General
Evaluation and Inspections Division
system may affect multiple inmates, the database contains many duplicate
entries, overstating the reported uses of less-lethal weapons.

       During the course of the OIG’s review, the BOP recognized its problem of
identifying how many uses of a weapon occurred during a particular incident.
Specifically, the BOP identified that the statistics initially provided to the OIG
overstated the number of uses by BOP personnel of the bean bag round. After
purging the duplicate entries, the BOP re-calculated the data and provided the
OIG with what it believed to be a more accurate use total. 73 The BOP is
currently in the process of constructing a database that will automate its use of
force reports, thereby allowing the BOP to analyze all use of less-lethal
weapons. The OIG suggested that the BOP construct the database so that it
could both associate all involved inmates affected by use of less-lethal
weapons, while simultaneously identifying duplicative instances.

ATF

       ATF’s Internal Affairs Division was able to provide readily analyzable data
on its increasing use of less-lethal weapons upon request. ATF stated that the
data was not entirely accurate for FY 2003 through FY 2005 because its less-
lethal weapons reporting procedures had not yet been standardized. For
example, ATF officials stated that the 21 uses of the Taser that occurred during
ATF’s pilot testing that spanned from FY 2003 into FY 2004 were not reported
to the Internal Affairs Division. 74 Further, there were only two reported uses of
the Taser by ATF personnel during all of FY 2005, which seems abnormally low
in view of the fact that ATF personnel had used the Taser 21 times during the
12-month pilot test. 75

       According to ATF Internal Affairs Division officials, prior to FY 2006 not
all use of force incidents were reported to the Division. 76 However, “any non-
frivolous allegation of misconduct” would have been reported to the Internal
Affairs Division. At the beginning of FY 2006, ATF formalized its reporting
procedures involving “intermediate weapons” (baton, pepper spray, Taser, bean


       73 The OIG had to perform a similar methodology to calculate the utilization data for

the PepperBall system and aerial dispersion shotgun.

       74 The uses of the Taser by ATF Special Agents during the pilot testing were reported to

those ATF officials overseeing the program.

       75Following the completion of the pilot project, the Tasers were still available for use to
the same personnel that were provided the weapons during the pilot.

       76 While not reported to the Internal Affairs Division, all uses of force were expected to
be reviewed within the appropriate field office.



U.S. Department of Justice                                                                  33
Office of the Inspector General
Evaluation and Inspections Division
bag round, and baton launcher) or any use of force resulting in significant
injury or death. All such instances were thereafter required to be reported to
ATF’s Internal Affairs Division and were subsequently included in its internal
agency use of force reports. However, the OIG found that no entity within ATF
had been directed to analyze the use statistics in any formal manner. 77

DEA and FBI

       According to DEA officials, the DEA had no less-lethal weapons use
statistics because its Special Agents had not used such weapons. As stated
previously, DEA officials said their Special Agents operate under conditions
that are not conducive to the use of less-lethal weapons.

      The FBI had compiled some annual use statistics, but had not analyzed
the data because its use of less-lethal weapons was very limited. The FBI had
no mandatory requirement that use of the baton be reported to FBI
Headquarters. However, any Special Agent who deployed a chemical agent
(including pepper spray) in any form was required to inform FBI Headquarters
by electronic communication within 5 working days of the incident, describing
the use and providing detailed results of the exposure. 78 These records were
forwarded to and maintained by the FBI’s chemical munitions program
manager. 79

No Assessment of the Benefits of Less-Lethal Weapons Use

       In addition to the deficiencies in the data and the methodology used to
compile the statistics, we found that the components are not analyzing the
data from these reports to assess the benefits of their use of less-lethal
weapons and any emerging trends. For example, the USMS had not attempted
to quantify the positive impacts (if any) from its increased use of the Taser,
specifically, whether subject or officer injuries had decreased because Deputy
Marshals deployed the Taser instead of using physical force.

      As part of this review, the OIG requested Deputy Marshal injury data
from the USMS. The USMS injury data is separated into two categories:

       77   The OIG suggested that the ATF Inspections Division contact USMS officials to
discuss the USMS’s statistical data analysis. Also, the OIG discussed with USMS Inspections
officials the modification of the USMS use of force database to permit the cross-referencing
with allegations of misuse for reporting and analysis purposes.

       78   12-14.1 Chemical Agents Policy (see MIOG, Part 2, 11-4.5.4, 30-3.8).

       79The chemical weapons program manager is a member of the FBI’s Critical Incident
Response Group, which is stationed at Quantico, Virginia.



U.S. Department of Justice                                                             34
Office of the Inspector General
Evaluation and Inspections Division
(1) injuries resulting in Deputy Marshals’ missing time on the job and
(2) injuries that did not result in Deputy Marshals’ missing time on the job.
Table 5 shows the number of instances in which Deputy Marshals reported
suffering injuries while on duty.

                     Table 5: USMS Deputy Marshal Injury Data
                                FY 2002 – FY 2008
                                      Instances Where Deputy Marshals Reported
                                            Suffering Injuries While On Duty
                    Year                   Lost Time              No Lost Time
                   FY 2002                    128                      352
                   FY 2003                    121                      340
                   FY 2004                    159                      440
                   FY 2005                    144                      337
                   FY 2006                    144                      342
                   FY 2007                    132                      254
                   FY 2008                    192                      314
            Source: USMS Human Resources Division.

       The USMS significantly expanded its use of the Taser beginning in
FY 2007. 80 The USMS data shows that the average number of injuries that
resulted in lost time over the 2-year period FY 2007 and FY 2008 versus the
average over the prior 5-year period (FY 2002 through FY 2006) increased by
16 percent, and the FY 2008 figure represents a 39-percent increase over the
prior 6-year average. However, the same analysis shows a 22-percent decrease
in the number of instances in which Deputy Marshals incurred injuries but did
not miss time on duty beginning in FY 2007. 81 While there are likely to be
several factors that caused these percentage increases and decreases, it is
noteworthy that they coincide with the USMS’s expanded use of the Taser.

       Absent changes in other factors, the data in Table 5 indicates that the
USMS’s use of the Taser may not have resulted in one of the principal benefits
that the Taser was supposed to provide – reduction in significant officer
injuries. However, the USMS has not attempted to determine whether there is
a cause and effect relationship between its expanded use of the Taser and the
increase in injuries. Additionally, when reviewing the significant increase in
use of force by Deputy Marshals (as shown in Table 3 on page 22), it appears
that the Taser is not being used by Deputy Marshals as a substitute for other
types of force. Instead of being used in place of physical control or other less-
lethal weapons (baton or pepper spray), the Taser appears to be used in

       80   See USMS Taser use statistics, page 22.

       81   However, the marked increase in FY 2008 was not consistent with this trend.



U.S. Department of Justice                                                                35
Office of the Inspector General
Evaluation and Inspections Division
situations where Deputy Marshals previously reported no use of force. In
addition to having not assessed whether this is occurring, the USMS also has
not identified whether qualitative information, such as interviews with Deputy
Marshals and reviews of use of force reports, would explain the Deputy
Marshals’ current practice concerning the use of Tasers. 82

       Because of the deficiencies in data management and analysis discussed
above, the components and the Department cannot reliably identify trends,
emerging problems, or benefits associated with the use of less-lethal weapons.
While the accuracy of the reporting data has improved since FY 2006, we
believe that better analysis is needed to identify trends in the components’ use
of less-lethal weapons, as well as to assess both positive and negative impacts.

Recommendation

       We recommend that:

       3. The law enforcement components periodically analyze their use of
          less-lethal weapons, including any injuries, fatalities, or misuse;
          analyze benefits from use of such weapons; and assess emerging
          trends in the use of such weapons.


None of the components reported any fatalities or significant injuries
from their personnel’s use of less-lethal weapons.

       When Special Agents, Deputy Marshals, and correctional staff report
their use of less-lethal weapons, these reports and any subsequent after-action
assessments must identify any injuries or fatalities that occurred. During the
period of the OIG’s review, FY 2002 through FY 2008, Department components
reported no fatalities or significant injuries to subjects or inmates stemming
from the use of less-lethal weapons. This contrasts with the fatalities and
significant injuries associated with the use of less-lethal weapons at the state
and local level during the same period. 83

       According to officials from the components whose personnel use the
Taser, their personnel were less likely than state and local law enforcement
officers to confront the types of situations that may increase the risk of serious
injuries and fatalities associated with the use of conducted energy devices.

       82  These types of activities could be performed by the USMS Office of Inspections
during its inspections of field office operations.

       83   Amnesty International, 2008.



U.S. Department of Justice                                                                  36
Office of the Inspector General
Evaluation and Inspections Division
State and local law enforcement agencies are more likely to encounter
individuals under the influence of drugs, alcohol, or who are suffering from
mental illness. As discussed in the Background section of this report, some
studies of conducted energy devices have indicated that the presence of drugs,
alcohol, and mental illness may raise the risk of injury and fatality resulting
from the use of such weapons. Component officials also said training
programs provided to Special Agents and Deputy Marshals on the use of Tasers
have helped prevent fatalities and serious injuries.

       While the components did not report any fatalities or serious injuries
during our review period, our review of BOP data for 203 incidents of the
PepperBall system’s use from FY 2004 through June 2008 showed that the
weapon caused minor to moderate injuries to inmates in 65 of those incidents
(33 percent). The injuries described in the BOP’s records appeared moderate in
8 instances and minor in 57 others. Injuries recorded in the BOP’s database
for the remaining 138 instances did not appear related to the PepperBall
system’s use.

The components reported isolated incidents of misuse of less-lethal weapons.

       We also found several reports of misuse of less-lethal weapons by
component personnel. The BOP identified eight incidents of substantiated
misconduct involving its employees’ use of less-lethal weapons from FY 2002
through FY 2007. ATF identified one instance of the misuse of a Taser by one
of its Special Agents.

      One of the eight BOP incidents occurred when two correctional officers
deployed a PepperBall system without authorization in response to a fight
between two inmates. Further, a supervisor failed to ensure the inmates were
medically assessed and decontaminated following the incident. As a result of
the misuse of the PepperBall system, the two correctional officers were
suspended for 14 days, and the supervisor was demoted.

       All uses of force by BOP correctional staff require after-action reports.
However, the use of a less-lethal weapon is investigated only if an allegation of
inmate abuse is made. According to officials from the BOP Office of Internal
Affairs, if they receive allegations that an inmate was abused with a less-lethal
weapon, the complaint is forwarded to the OIG Investigations Division and the
Department’s Civil Rights Division. If the OIG and the Civil Rights Division
decline to pursue the allegation, the BOP Office of Internal Affairs either
handles the investigation as a misconduct case or assigns the complaint to the
institution where the incident occurred for investigation. In conducting these
investigations, BOP officials said they examine whether the use of force was
authorized and whether it was exercised properly. All eight of the incidents


U.S. Department of Justice                                                  37
Office of the Inspector General
Evaluation and Inspections Division
referenced above were declined for prosecution by the Civil Rights Division’s
Criminal Section, and the cases were returned to the BOP for consideration of
discipline.

       The incident involving an ATF Special Agent’s misuse of a Taser occurred
when he used a Taser belonging to a local law enforcement officer against a
subject without proper justification. Pursuant to ATF policies, the Special
Agent’s field division reported the use of the Taser to ATF’s Shooting Review
Coordinator, who forwarded the matter to the integrity section of ATF’s Internal
Affairs Division, due to the nature of the incident. The Shooting Review
Coordinator determined that there was sufficient reason to believe that the
deployment demonstrated an improper use of force and forwarded the matter
to ATF’s integrity section of the Internal Affairs Division. Following an
investigation by the integrity section, the matter went before ATF’s Professional
Review Board, and the Bureau Deciding Official subsequently determined that
the Special Agent had exercised poor judgment in using the Taser on the
subject. The Special Agent received a 14-day suspension. 84

       The DEA, FBI, and USMS did not identify any instances of misuse of a
less-lethal weapon by a Special Agent or Deputy Marshal during the period of
our review.

       In reviewing the use of less-lethal weapons, including Tasers, ATF and
the USMS do not always perform the same type of review as would occur for
firearms discharges. For both components, uses of force, including uses of
less-lethal weapons, are investigated if a subject is seriously injured or killed or
if non-frivolous allegations of misconduct are made against the Special Agent
or Deputy Marshal involved in the incident. For ATF, a non-frivolous allegation
of excessive use of force would be investigated by the Integrity Section of ATF’s
Internal Affairs Division. For the USMS, an allegation of excessive force would
be investigated by the USMS Office of Inspections. For both ATF and the
USMS, in cases where no significant injury occurred or there was no indication
of improper use of force, the field office involved conducts a review, produces a
factual record of the incident, and submits the report to the appropriate
entity – either ATF’s Internal Affairs Division or the USMS Office of Inspections.




       84   The Civil Rights Division had no involvement in this case.




U.S. Department of Justice                                                    38
Office of the Inspector General
Evaluation and Inspections Division
The components independently assess new less-lethal weapons and have
separately developed policy and training materials for these weapons.

       ATF, the BOP, and the USMS have obtained new less-lethal weapons in
the last several years. Our review found that these components independently
tested and evaluated the less-lethal weapons they acquired. We found no
coordinated effort by the components or at the Department level to identify new
and emerging less-lethal technologies or to assist the components in developing
policies and procedures to ensure the consistent and appropriate use of
weapon systems already acquired. As a result, their efforts generally are not
informed by work done elsewhere in the Department.

      In addition, we identified two Department entities that fund research or
conduct oversight of less-lethal weapon technology – the National Institute of
Justice (NIJ) and the Civil Rights Division. The NIJ funds and performs
research related to state and local law enforcement, including the feasibility
and impact of less-lethal weapons. The Department’s Civil Rights Division
conducts investigations of state and local law enforcement agencies pursuant
to 42 U.S.C. 14141 to determine whether law enforcement officers are engaged
in a pattern or practice of conduct that deprives persons of rights, privileges, or
immunities secured or protected by the Constitution or laws of the United
States. 85

       Although the lessons learned at the state and local level may be
applicable at the federal level, no formal mechanism exists for the NIJ or the
Civil Rights Division to provide information to the Department’s own law
enforcement components about their work related to the use of less-lethal
weapons. 86

Components conducted research, testing, and evaluation before approving and
acquiring new less-lethal weapon technologies.

       We examined the steps that ATF, the BOP, and the USMS took once they
identified weapon technologies that appeared promising. We also assessed
whether the components acquired weapons for which there was a

        85 Within the Civil Rights Division, the Criminal Section prosecutes law enforcement

personnel. The Special Litigation Section investigates individual law enforcement agencies
where there is a cause to believe that an agency is engaged in a pattern or practice of violating
federal law. This Section seeks civil remedies, in the form of injunctive relief that range from
informal agreements to consent decrees.

       86  The components provided some examples of informal information sharing through
various working groups and informal discussions with other governmental entities, but not
directly with each other.



U.S. Department of Justice                                                                 39
Office of the Inspector General
Evaluation and Inspections Division
demonstrated need that the new weapons would address. Specifically, we
reviewed whether the components completed research, testing, and evaluation
to verify that the new weapons would perform in a manner that would aid the
components’ personnel in performing their daily duties. Our assessments were
limited to those components that acquired new less-lethal weapons during the
period covered by the OIG’s review, FY 2002 through FY 2008. 87

       Our review found that each of the three components performed
independent assessments of the less-lethal weapons they acquired, including
pre-acquisition research and testing of the less-lethal weapons. These
activities included evaluating the weapons through pilot testing, developing use
policies, and training new and existing personnel on the use of such
weapons. 88 We found that the Department and its components did not
coordinate the effort to identify emerging less-lethal technologies (see text box,
page 44), or to develop policies and procedures to ensure the consistent and
appropriate use of existing weapon systems.

       In evaluating the Taser, ATF officials attended demonstrations, evaluated
state and local law enforcement agency policies, and reviewed materials from
independent organizations. In addition, ATF officials met with representatives
from Taser International Inc. to ensure ATF had best practices in place prior to
initiating a pilot test to determine whether the Taser would be an effective less-
lethal weapon for its Special Agents. Based on its assessment of the testing,
ATF officials decided that the Taser would further ATF’s mission. The officials
briefed the agency’s senior leaders on the test results and supported obtaining
Tasers for wider use by ATF.

        In assessing the PepperBall system, the BOP’s Office of Science and
Technology (OST) researched the system and proposed pilot testing at BOP
facilities. Following the OST’s consultations with BOP medical staff and the
General Counsel, the BOP’s Executive Staff approved the testing program. The
OST worked with the PepperBall system vendor, trained BOP trainers, and
certified staff to use the weapon. Following the completion of the pilot testing,
the OST prepared an after-action report, which concluded that the PepperBall

        87 The OIG examined only components’ assessments of less-lethal weapon technologies

that were newly acquired during the review period. We did not consider the acquisition of
different types of munitions (e.g., foam baton, rubber bullets) or a change in a munitions’
delivery system (e.g., size or manufacturer) to be a “new” less-lethal weapon.

       88 Although all of the law enforcement components stated that they kept abreast of the
developing less-lethal technologies, they had identified only a handful of technologies that had
piqued their interest as potential weapons that may further the mission of their respective
organizations. These include a Taser “wireless” shotgun (ATF, USMS); a limited magazine
PepperBall system (BOP); and a Taser designed specifically for cell block use (BOP).



U.S. Department of Justice                                                                40
Office of the Inspector General
Evaluation and Inspections Division
system’s accuracy and accompanying blunt trauma impact made it an ideal
chemical dispensing system. The report recommended that the PepperBall
system be approved for the BOP’s medium- and high-security facilities.

       In examining the Taser, USMS Training Academy officials researched the
weapon and contacted state and local law enforcement agencies as well as
other Department components, including ATF, for more information regarding
its use. Officials reviewed information from Taser International Inc. and other
sources, including safety evaluations by independent organizations, and
attended a Taser instructor certification program. Thereafter, officials drafted a
Taser policy directive and developed Taser training and use policies, which
were reviewed by the USMS Office of the General Counsel. As a result, the
USMS’s Research and Evaluations Committee, the entity responsible for
deciding whether to acquire new equipment, including less-lethal weapons, for
Deputy Marshals, recommended to the USMS Director that Tasers be provided
to Deputy Marshals.

      An expanded discussion of the three components’ efforts before obtaining
new less-lethal weapons is contained in Appendix III.

The National Institute of Justice’s less-lethal weapons research focuses on the
use of new technologies by state and local law enforcement agencies.

       The NIJ’s charter mandates that it focus on assisting law enforcement
and correctional agencies at the state and local level. Consequently, the efforts
that it funds must have a significant impact on state and local law enforcement
efforts. Hence, while the NIJ has funded projects that have a potential benefit
for federal law enforcement efforts, the research had to have a demonstrated
likely positive impact on state and local law enforcement efforts.

       Nevertheless, some of the projects the NIJ funds on less-lethal weapons
could potentially benefit the Department’s law enforcement components. For
example, several recent NIJ-funded studies on state and local law enforcement
agencies’ Taser use assessed the medical impact of the Taser device and the
effects of varying use policies adopted by the state and local law enforcement
agencies. These research studies were presented at the 2008 NIJ Conference,
and they may be useful to the Department’s law enforcement components in
designing training and operational policies provided to Special Agents and
Deputy Marshals. Specifically, the components could address potential




U.S. Department of Justice                                                  41
Office of the Inspector General
Evaluation and Inspections Division
problems identified by state and local law enforcement agencies when adopting
or modifying their own less-lethal technology policies. 89

       In addition to the research that              Emerging Less-Lethal Weapon Technologies
the NIJ funds, the NIJ has its own
                                                    Long Range Acoustic Device (LRAD) – A weapon
ongoing less-lethal research initiatives,           that incapacitates using high-energy sound
including blunt trauma studies that                 waves focused in a 15- to 30-degree “beam,”
focus on impact weapons’ capabilities               allowing the LRAD to be aimed at a specific
and their associated medical risks. 90              target. Used by the New York Police
                                                    Department.
According to NIJ officials, the blunt
trauma studies examine a device’s                   Electrolaser – An electroshock weapon that
capabilities and the medical effects of             forms an electrically conductive laser-induced
its use. Specifically, through collection           plasma channel. A powerful electric current
                                                    can be sent down the channel to incapacitate
of data from actual incidents and a
                                                    subjects. Developed for the U.S. military.
review by medical personnel, the
studies assess the force of impact and              Dazzler – Employs intense visible light usually
risk of injury to the subject from each             generated by a laser to cause temporary
                                                    blindness or disorientation. Used by the U.S.
less-lethal device.
                                                    military in Iraq.

       NIJ officials also informed the              Sticky Foam Gun – Shoots sticky material that
OIG of several emerging weapon                      entangles and impairs individuals. Used by
technologies that demonstrated                      the U.S. Marine Corps in Operation United
                                                    Shield.
potential for future implementation.
The “T-Rad” (Remote Area Denial),                   Active Denial System – Emits electromagnetic
which is an in-place device that                    radiation that deters individuals by causing a
discharges Tasers if individuals enter a            painful burning sensation without actually
                                                    burning the skin. Developed by the
restricted area, may have application in
                                                    Department of Defense’s Joint Non-Lethal
a prison environment. Additionally,                 Weapons Directorate.
less-lethal weapons utilizing directed
energy based upon infrared and radio                LED Incapacitator – A light emitting diode
frequency waves are in the                          (LED) flashlight generates lights at several
                                                    specific frequencies with multiple colors and
development phase. These weapons                    random pulses that the brain cannot process.
can penetrate windows and other light               The result is that the subject becomes
building material without damaging                  physically ill. In development for the U.S.
property. Further, these weapons do                 Department of Homeland Security.
not result in environmental
                                                    These technologies are discussed further in
contamination as pepper spray does,                 Appendix I.
and the infrared and radio frequency

       89 The OIG forwarded synopses to the component officials the OIG had interviewed to
apprise them of the studies’ findings of the impact of Taser acquisition on use of force decisions
by state and local officers.

       90   The weapons include batons, rubber projectiles, StingBalls, and bean bag rounds.



U.S. Department of Justice                                                                 42
Office of the Inspector General
Evaluation and Inspections Division
waves have limited negative medical consequences because their effects are
mostly superficial. The OIG identified other new less-lethal weapon
technologies that are under development or are in use by other law
enforcement agencies and the military (see text box above).

The Department’s law enforcement components have not sought the assistance
of the Civil Rights Division in the development of their less-lethal weapons
policies.

       The Civil Rights Division has a limited role in the Department’s use of
less-lethal weapons. Civil Rights Division officials stated that they do not
formulate or review the law enforcement               Taser Investigation Procedures
components’ use of force policies generally
or specific policies related to the              We met with a Supervisory Special Agent
components’ use of less-lethal weapons.   91     (SSA) within the FBI’s Civil Rights
However, the Civil Rights Division’s             Division who discussed her ongoing
                                                 research into Taser use by state and
Criminal Section is responsible for              local law enforcement agencies. The
investigating and prosecuting individual         goal of the SSA’s research is to construct
cases of alleged excessive use of force by       an investigator’s manual for FBI Special
law enforcement or correctional officers.        Agents investigating alleged violations of
These cases could include the misuse of          citizens’ civil rights stemming from
                                                 improper use of the Taser by state and
less-lethal weapons. 92 In addition, the Civil local law enforcement officers. The
Rights Division’s Special Litigation Section     manual would allow FBI Special Agents
investigates state and local law                 to quickly obtain basic information
enforcement agencies’ patterns of conduct        about the weapon so that they could
to determine possible misuse of force,           focus predominantly on determining if
                                                 the use of the weapon was proper under
including less-lethal weapons. These             the circumstances or whether the officer
investigations can identify underlying           applied excessive force. Following our
problems that Department components              discussion, the OIG referred the FBI SSA
may also confront.                               to the ATF Internal Affairs Division as it
                                                         had just completed a similar effort when
                                                         crafting ATF’s policies.
       For example, as of April 2009, the
Special Litigation Section was continuing
an extensive review of a local law enforcement agency that identified
deficiencies in that agency’s use of and policies on conducted energy devices.
The Special Litigation Section initiated the review of the Orange County
(Florida) Sheriff’s Office based on complaints it received and on media scrutiny


       91  When the OIG initiated this review, we included the Civil Rights Division in the scope
to identify activities that the Division engaged in that might have an impact on the law
enforcement components’ use of less-lethal weapons.

       92 During the period we reviewed, the Civil Rights Division did not initiate any
prosecutions against the components’ personnel for alleged misuse of a less-lethal weapon.



U.S. Department of Justice                                                                43
Office of the Inspector General
Evaluation and Inspections Division
of the sheriff’s office’s policies and practices concerning use of Tasers.
According to ATF’s and the USMS’s websites, this local agency participates on
existing Department task forces. 93 Additionally, according to the Special
Litigation Section, an officer from the Orange County Sheriff’s Office carries a
Taser issued by Orange County while operating on a FBI task force. Thus, the
FBI and USMS are relying on this local agency’s deficient policies when officers
from this agency are carrying Tasers while operating under the auspices of the
Department.

       The review of the Orange County Sheriff’s Office was the Special
Litigation Section’s first investigation of a state or local law enforcement
agency’s alleged misuse of conducted energy devices. As part of that review, in
August 2008, the Special Litigation Section issued a technical assistance letter
to the agency that identified deficiencies and provided detailed
recommendations for improving the sheriff’s office’s Taser policies and training
curriculum. 94

       Some of the recommendations included in the Special Litigation Section’s
technical assistance letter to Orange County Sheriff’s Office included the
following:

   •   Use policies should include reference to the Fourth Amendment, which
       mandates that conduced energy device uses be reasonable in light of the
       surrounding facts and circumstances.

   •   Although the use of the device against a fleeing subject may be
       reasonable under certain circumstances, the mere act of fleeing the
       presence of law enforcement, without more, does not create
       circumstances under which an officer’s deployment of a conducted
       energy device would be considered a reasonable use of force.

   •   Agencies should create their own training materials, scenario-based use
       and arrest drills, and testing procedures and not just rely on the
       manufacturer’s materials.

       After reviewing the technical assistance letter, we discussed it with
officials from both the Special Litigation Section and the Department’s law

       93  See www.atf.gov/field/tampa/vcit-orlando_info.htm and www.usmarshals.gov
/district/fl-m/taskforces/index.html (accessed April 8, 2009).

       94  Shanetta Y. Cutlar, Chief, Special Litigation Section, U.S. Department of Justice Civil
Rights Division, to Kevin Beary, Orange County Sheriff, SYC:DHW:GG:WEN DJ 207-17M-4
(August 20, 2008), www.usdoj.gov/crt/split /documents/orangecty_ta_ltr.pdf (accessed
April 8, 2009).



U.S. Department of Justice                                                                 44
Office of the Inspector General
Evaluation and Inspections Division
enforcement components. The Department law enforcement component
officials stated that they would consider incorporating similar language into
their respective training curricula. Officials from both the Civil Rights Division
and the law enforcement components stated that they would be interested in
exchanging information in the future to ensure that all were abreast of current
findings and best practices related to less-lethal weapons. We believe that the
Department would benefit from enhanced information sharing between the
Civil Rights Division and the law enforcement components when circumstances
warrant. 95

Recommendation

       We recommend that:

       4. The NIJ and Civil Rights Division share the results of any research,
          reviews, or investigations concerning the use of less-lethal weapons
          with the Department’s law enforcement components. Given the
          sensitive nature of some of this information, the Department
          components should develop protocols to ensure appropriate
          dissemination of the NIJ’s and the Civil Rights Division’s work
          products.




       95   Although USMS Training Academy staff had previously reviewed the guidance letter
as part of their collaboration with FLETC, other law enforcement component officials were
unaware of the letter’s issuance. The Civil Rights Division also failed to apprise the OIG of the
letter’s existence despite several OIG requests for information. The OIG discovered the letter
while researching concerns about the Orange County Sheriff’s Office’s use of Tasers.



U.S. Department of Justice                                                                 45
Office of the Inspector General
Evaluation and Inspections Division
                     CONCLUSION AND RECOMMENDATIONS


       Although several of the Department’s law enforcement components are
expanding their use of less-lethal weapons and have added new less-lethal
technologies, the Department and its components do not coordinate the
assessment of these technologies or the development of use and training
policies. Moreover, the Department’s deadly force policy does not specifically
address the use of less-lethal weapons.

       While the components that use less-lethal weapons have individually
developed policies to govern their personnel’s use of the weapons, the FBI and
DEA do not have policies to address the use of Tasers by state and local
members of their task forces. Further, the USMS, unlike ATF, does not
mandate that state and local task force officers abide by its less-lethal weapons
policies, including the USMS’s Taser policy.

       The fatalities that have occurred following the use of conducted energy
devices by state and local agencies, coupled with greater use of these weapons
by the Department’s law enforcement components, lead us to recommend that
the Department coordinate and ensure that the components have appropriate
and consistent less-lethal weapons policies that include conducted energy
devices. These less-lethal weapons policies should include sufficient detail to
provide meaningful guidance on appropriate use of existing and emerging less-
lethal weapons.

       We also believe that the Department’s components can improve their
tracking and assessment of their use of less-lethal weapons. While all
components require uses of less-lethal weapons to be reported, we found that
the components did not maintain complete data and generally did not evaluate
their use statistics to determine trends in, or benefits or drawbacks from, their
use of less-lethal weapons. There have also been isolated reports of misuse of
these weapons by component personnel. Because these weapons have the
potential to cause serious injury or death, we believe that more consistent
reporting on the use of less-lethal weapons should be required to ensure that
use trends and misuse are identified.

      Finally, the Department should consider coordinating efforts by the law
enforcement components, the NIJ, and the Civil Rights Division concerning
emerging less-lethal weapons. We believe that coordinated efforts would assist
the components in identifying new less-lethal weapons, developing use policies
and training curriculum, and ensuring proper use of these weapons.




U.S. Department of Justice                                                  46
Office of the Inspector General
Evaluation and Inspections Division
       Therefore, we recommend that:

       1. The Department coordinate and ensure that its components develop
          appropriate and consistent policies to specifically address the use of
          less-lethal weapons, including conducted energy devices, by
          Department personnel and state and local law enforcement officers
          serving on Department task forces.

       2. The law enforcement components establish procedures to ensure that
          state and local task force members are informed of and adhere to the
          components’ less-lethal weapons policies.

       3. The law enforcement components periodically analyze their use of
          less-lethal weapons, including any injuries, fatalities, or misuse;
          analyze benefits from use of such weapons; and assess emerging
          trends in the use of such weapons.

       4. The NIJ and Civil Rights Division share the results of any research,
          reviews, or investigations concerning the use of less-lethal weapons
          with the Department’s law enforcement components. Given the
          sensitive nature of some of this information, the Department
          components should develop protocols to ensure appropriate
          dissemination of the NIJ’s and the Civil Rights Division’s work
          products.




U.S. Department of Justice                                                  47
Office of the Inspector General
Evaluation and Inspections Division
                APPENDIX I: TYPES OF LESS-LETHAL WEAPONS


 Type of Less-Lethal                  Description                    Photo
      Weapon
 Impact Weapons
                       A round stick of various lengths
                       made of hardwood, aluminum, or
                       plastic composite materials.
 Baton




                       Bean bag rounds are heavy nylon
                       cloth squares about the size of a
                       tea bag filled with an ounce of lead
                       birdshot and loaded into a
 Bean Bag Shotgun
                       standard-size shotgun shell. They      Picture not available
 Rounds
                       are deployed through a munitions
                       delivery system, usually a standard
                       shotgun adapted to fire bean bag
                       rounds.
                       A munitions delivery system,
                       usually a standard shotgun or
                       grenade launcher, adapted to fire
                       baton rounds. A baton launcher
 Baton Launcher
                       can fire one long baton or several
                       shorter batons (as shown in the
                       picture). ATF, for example, uses a
                       37 millimeter baton launcher.
                       Rubber projectiles are encased in a
                       shotgun shell and usually fired
                       from a 12-gauge shotgun.
 Rubber Projectiles,
 Pellets




U.S. Department of Justice                                                            48
Office of the Inspector General
Evaluation and Inspections Division
 Chemical Agents
                        CS Gas, typically referred to as tear
                        gas, is a gas that causes tears and
                        painful breathing. The gas is
                        deployed through a munitions
                        delivery system, usually a standard
 CS Gas (“Tear Gas”)
                        shotgun or grenade launcher,
                        adapted to fire gas grenades or tear
                        gas cartridges. A gas gun can fire
                        single-shot rounds or multi-shot
                        rounds of chemical agents.
                        Canisters of oleoresin capsicum
                        (OC), OC gas, or capsicum spray
 Pepper Spray           disperse a chemical compound that
                        irritates the eyes to cause tears,
                        pain, and even temporary blindness.
                        A munitions delivery system that
                        launches up to four projectiles with
 PepperBall System      20 foot-pounds of force that release
                        hot pepper powder (capsaicin II).


                        A small, soft rubber container that
                        includes a bursting charge that
                        distributes a payload of over 100
                        soft rubber balls. When it explodes,
 StingBall              the outer casing bursts and ejects      Picture not available
                        the rubber balls outward in a radial
                        pattern at a velocity of several
                        hundred feet a second. This device
                        may also emit oleoresin capsicum.
 Conducted Energy Devices
                        A system of bands put on a subject
                        to deliver an incapacitating electric
                        shock if the subject attempts to flee
 Electronic Custody     or attack. The shock can be set to
 Control Belt, Stun     go off automatically on movement
 Belt, or “Band-It,”    (Band-It; shown in picture) or can
 Electronic Restraint   be delivered by an operator up to
                        150 feet away through a wireless
                        remote.

                        Deploys electrical energy sufficient
                        to cause uncontrolled muscle
                        contractions and override an
 Taser                  individual’s voluntary motor
                        responses.




U.S. Department of Justice                                                          49
Office of the Inspector General
Evaluation and Inspections Division
                       Similar to the Taser described
                       above, the device deploys electrical
 Ultron II Contact     energy sufficient to temporarily
 Stun Device           incapacitate an individual.



 Sound Weapon
                       A CO2 or compressed air round
                       (typically a blank round) fired into
 Aerial Dispersion
                       the air, usually by a standard              Picture not available
 Shotgun Round
                       shotgun, to cause a loud “bang”
                       sound similar to a warning shot.

                           Emerging Less-Lethal Technologies

                       Emits a concentrated, 150-decibel [dB] high-energy acoustic wave
 Long Range Acoustic   that retains a level of 100dB over distances of 500 meters. The wave
 Device (LRAD)         is focused within a 15- to 30-degree “beam,” allowing the LRAD to be
                       aimed at a specific target. Used by the New York Police Department.
                       An electroshock weapon that forms an electrically conductive laser-
                       induced plasma channel. A powerful electric current is sent down
 Electrolaser          the plasma channel to incapacitated subjects. The weapon functions
                       as a long-distance version of the Taser. Developed for the U.S.
                       military.
                       Employs intense visible light usually generated by a laser to cause
 Dazzler               temporary blindness or disorientation. Used by the U.S. military in
                       Iraq.
                       Emits electromagnetic radiation at a frequency of 95 GHz toward the
 Active Denial         subject. The waves deter individuals by causing an intense painful
 System                burning sensation without actually burning the skin. Developed by
                       the Department of Defense’s Joint Non-Lethal Weapons Directorate.
                       Fires multiple shots of sticky material that entangles and impairs
 Sticky Foam Gun       individuals. Provided to the U.S. Marine Corps for Operation United
                       Shield.
                       Resembling a large flashlight, this weapon uses light emitting diode
                       (LED) lights flashed at several frequencies with multiple colors and
 LED Incapacitator     random pulses that the brain cannot process. The result is that the
                       suspect becomes physically ill. Developed for the U.S. Department of
                       Homeland Security.
 Sources: Compiled from multiple documents provided to the OIG by the components, as well
 as OIG research from public source documents.




U.S. Department of Justice                                                             50
Office of the Inspector General
Evaluation and Inspections Division
                   APPENDIX II: Less-Lethal Weapons Training


       This appendix presents a discussion of the less-lethal weapons training
and certification programs provided by each of the Department’s law
enforcement components, including location and frequency of training. This
appendix does not address training on less-lethal weapons provided only to the
components’ special operations units such as ATF’s Special Response Teams,
the BOP’s Special Operation Response Teams, the FBI’s Special Weapons and
Tactics teams, and the USMS’s Special Operations Groups. Members of these
entities receive instruction on additional less-lethal weapons through
participation in special weapons and tactics training.

DEA and FBI

       Both the DEA and the FBI provide their Special Agents with training on
the use of the baton and pepper spray. The DEA and FBI Training Academies
provide instruction on both of these devices as part of new Special Agent
training. 96 Existing Special Agents participate in quarterly defensive tactics
training courses at their respective field offices. The use of the less-lethal
devices is part of such quarterly defensive tactics training. However, neither
agency has a mandatory re-certification program for use of either the baton or
pepper spray, nor do they have specific requirements for how often the
defensive tactics classes must address the use of these weapons.

ATF and USMS

       All ATF Special Agents and USMS Deputy Marshals receive training on
use of the baton, pepper spray, and Tasers. 97 ATF’s and the USMS’s training
programs for use of the baton and pepper spray are similar to those employed
by the DEA and FBI. ATF Special Agents and USMS Deputy Marshals receive
training on the baton and pepper spray at the Federal Law Enforcement
Training Center (FLETC) and additional training on the use of these devices is
presented at ATF’s and the USMS’s Training Academies. Both ATF and the
USMS have annual recertification programs for their respective operational
personnel on the use of the baton and pepper spray.


       96 New Special Agents are exposed to pepper spray during the training. Existing
Special Agents are not exposed to pepper spray as part of the defensive tactics classes.

       97 Deputy Marshals may also have access to the Ultron II stun gun and the Band-It
System. However, as shown in Table 3, USMS personnel have not applied force using the
Band-It System in FY 2007 or FY 2008. The Ultron II has not been used in at least the past
6 years and has been largely phased out as a result of the USMS’s acquisition of the Taser.



U.S. Department of Justice                                                                 51
Office of the Inspector General
Evaluation and Inspections Division
      In addition, ATF and the USMS require mandatory training on the use of
the Taser for both instructors and end-users. Taser instructors and trainers
must be re-certified every 2 years, and end-users (Special Agents and Deputy
Marshals) must be re-certified annually. 98

       ATF uses the most current version of Taser International Inc.’s Taser
training curriculum. 99 Through FY 2008, ATF provided Taser training only at
selected field offices. In FY 2009, according to ATF Training Academy officials,
ATF began including Taser training as part of its new Special Agent training
curriculum at the ATF Training Academy.

       The USMS Training Academy provides Taser training to new Deputy
Marshals along with defensive tactics and use of force scenarios. Additionally,
the USMS has transition drills that train Deputy Marshals on situations that
escalate from using less-lethal weapons, including the Taser, to the use of
deadly force. Further, as part of the USMS’s overall less-lethal weapons and
defensive tactics training program, the USMS Training Academy oversees less-
lethal weapon instructor training and program development. 100

BOP

       BOP personnel receive training on use of the baton, pepper spray, the
PepperBall system, bean bag shotgun rounds, StingBall, rubber projectiles,
and the aerial dispersion shotgun round. 101 The BOP’s correctional officers
receive their initial training on the proper use of less-lethal weapons through
classroom instruction and drills at FLETC. BOP staff subsequently receive
annual training on the use of these weapons at their correctional facilities. The
training is provided by instructors who are trained and certified annually.
While the annual staff training is not part of a re-certification program, it
provides a review on how to use the baton, chemical agents (including pepper



       98 Master Taser Instructors (i.e., trainers of other Taser instructors) must be trained

and certified through Taser International Inc.

       99 The USMS’s Taser lesson plan is similarly based on the Taser International’s training

program. However, both ATF and the USMS ensure that their Taser training curriculum is
consistent with their respective use of force policies.

       100 The USMS Academy trains trainers from each division, and those trainers provide
instruction to local personnel.

       101 BOP correctional personnel also have access to tear gas and an electronic custody
control device. However, as shown in Table 4, the BOP’s personnel have not applied force
using the custody control belt in the past 5 years.



U.S. Department of Justice                                                                 52
Office of the Inspector General
Evaluation and Inspections Division
spray), and a classroom discussion covering the BOP’s use of force policies. 102
However, the annual use of force classes do not address all of the less-lethal
weapons utilized at BOP facilities, such as the PepperBall system.

       At a minimum, the BOP’s Disturbance Control Team and Special
Operations Response Team members, shift lieutenants, and security officers are
trained to use the PepperBall system. 103 Additionally, the facility’s Warden can
select other correctional facility staff to be trained and authorized to use the
PepperBall system. According to BOP officials, security officers are typically the
personnel sent to the PepperBall system vendor to receive the training and
complete the one-time training certification. Upon their return to their facilities,
the certified instructors are responsible for training other staff on the use of the
weapon. Staff designated by the Warden to use the PepperBall system must re-
certify their proficiency on use of the weapon annually. The certified instructors
at the facility must renew their certification annually.

        The annual firearms curriculum that all facility staff must complete
covers the aerial dispersion and bean bag rounds because all BOP correctional
facility staff are trained to fire a standard shotgun, which is the munitions
delivery system for these two less-lethal weapons. Training on the munitions
delivery system that deploys chemical agents (pepper spray and tear gas), as
well as training on deploying the StingBall, is provided to all staff as part of the
annual firearms curriculum.

       BOP correctional facilities provide supplemental less-lethal weapons
training to staff stationed in the facilities’ towers. Correctional officers
assigned to an armed post must be certified as having received training on use
of the weapons assigned to that post, such as rubber projectiles, prior to their
assignment. These officers must also be re-certified on a quarterly basis. The
certification process includes reviewing the range capabilities of the weapons
and distances to areas within the facility to ensure that the officer does not use
a less-lethal round at a distance that would result in a fatal injury. In addition
to the certification process, the towers maintain written post orders that
provide instructions on the weapons assigned to the post.

       102   Additionally, pepper spray is included in the annual firearms and munitions
training.

       103   Disturbance Control Teams (DCT) provide BOP institutions with a calculated
response to emergency situations utilizing crowd control techniques and less lethal munitions.
DCTs are activated under the direct authority of the Warden or the Warden’s designee. Special
Operation Response Teams (SORT) are extensively trained, armed tactical teams that respond
to disturbances and hostage situations, and perform other high-risk operations. SORTs are
activated under the direct authority of the Warden or the Warden’s designee. Not all BOP
facilities have a SORT.



U.S. Department of Justice                                                                 53
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX III: THE DEPARTMENT COMPONENTS’ ASSESSMENT
PROCESSES FOR ACQUIRING NEW LESS-LETHAL WEAPONS


       The OIG examined the steps that the components took when they
identified weapon technologies for prospective acquisition and use. We
reviewed whether the components completed research, testing, and evaluation
to verify that the prospective new weapons would perform in a manner that
would aid the components’ personnel in performing their daily duties. Further,
the OIG identified whether the components developed policies and training
governing new weapons prior to providing them to their personnel. The
material in this appendix is limited to those components that acquired new
less-lethal weapons during the period covered by the OIG’s review, FY 2002
through FY 2008 – ATF, the BOP, and the USMS. 104

ATF

      The Taser is the only new less-lethal weapon ATF tested, approved, and
acquired during the period covered by the OIG’s review. ATF’s Office of
Training and Professional Development (TPD) is responsible for testing and
evaluating the weapons carried by its Special Agents. The decision to acquire
Tasers stemmed from a review of ATF’s use of pepper spray and a rejection of
other alternatives. 105

      In 2002, the TPD performed an internal review to determine if pepper
spray was providing ATF Special Agents with an effective option to achieve
control of subjects. The TPD found that difficulties associated with using
pepper spray, such as exposure of Special Agents to the effects of the chemical,
caused Special Agents to use the weapon infrequently. Further, because only
three uses of pepper spray were reported in 2001, the TPD concluded the
reporting of pepper spray use may not be accurate. Regardless of the exact
number of pepper spray uses, the TPD staff determined that the infrequent use
of pepper spray warranted identifying other alternative less-lethal weapons that


       104 The OIG examined only components’ assessments of less-lethal weapon

technologies that were newly acquired during the review period. We did not consider the
acquisition of different types of munitions (e.g., foam baton, rubber bullets) or a change in a
munitions delivery system (e.g., size or manufacturer) to be a “new” less-lethal weapon.

       105   The TPD considered providing ATF’s Special Agents with bean bag rounds.
However, the TPD decided those devices would not serve Special Agents well because Special
Agents could confuse the shotgun and a bean bag shotgun and mistakenly select and use the
wrong weapon in a given circumstance. Further, plainclothes Special Agents would have
difficulty concealing the weapon because of its size.



U.S. Department of Justice                                                                 54
Office of the Inspector General
Evaluation and Inspections Division
ATF personnel would be more likely to use in situations in which deadly force
would not be authorized.

      The TPD took a number of steps in considering whether to acquire the
Taser. TPD officials first observed a Taser presentation at an International
Association of Law Enforcement Firearms Instructors Conference in September
2002. They also attended demonstrations at other conferences. ATF then
purchased five Tasers for testing and evaluation, and subsequently purchased
a newer model for further testing.

       In developing its Taser policy, ATF officials told the OIG that they wanted
to ensure ATF had best practices in place so that its use of the weapon would
not be subject to criticism. The TPD evaluated state and local law enforcement
agencies’ policies and reviewed less-lethal weapon materials from the
Department of Defense. The TPD then adopted recommendations from the
Police Executive Research Forum and the International Association of Chiefs of
Police regarding use of the Taser. ATF officials also met with representatives
from Taser International. ATF executives approved the first ATF Taser user
groups and proceeded to further evaluate the weapon.

       In the spring of 2003, ATF implemented its Taser pilot testing to
determine whether it would be an effective less-lethal weapon for its Special
Agents. Under the program, ATF trained selected personnel and provided that
group with access to 54 Tasers. Three Tasers were assigned to ATF’s training
staff. Four ATF Special Response Teams received 2 Tasers each as did the
offices within each of ATF’s 23 field divisions that had active violent crime
investigations. 106 ATF trained 145 Special Response Team members and
approximately 10 Special Agents in each active field office that received the
Tasers. At the same time, ATF began certifying personnel as Taser instructors
and, by September 2003, had certified approximately 35 Taser instructors.

       ATF completed its Taser pilot testing in the spring of 2004. During this
period, there were 21 reported uses of the Taser by ATF Special Agents. ATF
officials stated that in several of those 21 instances, Special Agents would have
been justified in using their standard-issue firearms because the subject had
been holding a weapon or had ready access to a weapon. ATF officials
concluded that the Taser enabled Special Agents to safely arrest armed
subjects without resorting to deadly force.


       106 ATF’s Special Response Teams confront violent criminals and protect the Bureau’s
agents, the public, other law enforcement officers, and the subjects during the course of
criminal investigations. The teams respond to high-risk operations that involve arrest and
search warrants, home invasion, robberies, undercover, and protection operations.



U.S. Department of Justice                                                            55
Office of the Inspector General
Evaluation and Inspections Division
       Based on their assessment of the pilot testing, the TPD officials
determined that the Taser would be an effective less-lethal weapon in
furtherance of ATF’s mission and briefed the Senior Leadership Team on the
test results. TPD officials said the Taser increases the Special Agents’
confidence that they can achieve control and “levels the playing field,”
especially in situations where a Special Agent is confronting a subject who is
physically much larger than the Special Agent.

        Following the pilot testing, ATF executives authorized acquiring
additional Tasers. ATF purchased the majority of its Tasers in the fall of 2005,
and those weapons were disseminated to field offices in January 2006.
According to ATF officials, all ATF field offices have Tasers, with the number of
units predicated on the offices’ staffing levels (approximately two Tasers per
office).

BOP

       During the period covered by our review, the only new less-lethal weapon
that the BOP acquired was the PepperBall system. The BOP’s decision to
acquire the PepperBall system was driven in part by the fact that using pepper
spray in confined spaces exposed the correctional staff to the effects of the
chemical spray, making it more difficult for them to obtain control over the
situation that gave rise to the need for use of some weapon.

       The BOP’s basic requirement for a less-lethal weapon is that it must
serve as an effective deterrent to an inmate by inducing a high degree of
discomfort or pain, but remain a weapon that cannot cause an inmate’s death
under any conditions. Before acquiring a new weapon (either lethal or less-
lethal), the BOP has several layers of review to ensure that the weapon will
meet its requirements and provide the necessary safety to inmates and officers.
These reviews include assessments by its Correctional Services Administration,
General Counsel, medical staff, and its Office of Science and Technology (OST).

       In 2000, the OST identified the PepperBall system as a weapon that it
believed had the potential to be a better delivery system of oleoresin capsicum
(OC) than pepper spray. 107 Additionally, the OST officials stated that they
believed the PepperBall system would augment the existing inventory of less-
lethal weapons. The OST found that although the PepperBall system had the
same effect on a subject as pepper spray, a correctional officer can use the
PepperBall system from a distance and avoid the effects of the OC powder. In

       107 Oleoresin capsicum is the active chemical agent in pepper spray. The BOP’s
approval of the PepperBall system followed the completion of the pilot testing in October 2001.
Thus, the BOP’s acquisition of the PepperBall system falls within the scope of the OIG’s review.



U.S. Department of Justice                                                               56
Office of the Inspector General
Evaluation and Inspections Division
addition, the impact of a PepperBall system round hitting an inmate provides a
blunt trauma deterrent. The BOP’s existing chemical agents (pepper spray or
tear gas) were deemed not effective in various situations, such as encounters
between correctional officers and inmates in confined spaces. Additionally, the
bean bag round the BOP had acquired could result in a debilitating injury or
death if used inappropriately or if the bean bag round struck an inmate’s head
or other sensitive body area.

       According to OST officials, before initiating pilot testing for the
PepperBall system, the OST looked at the technology and assessed the likely
effects from the blunt trauma of the PepperBall rounds’ impact on inmates as
well as the effectiveness of delivering the OC powder, including reviewing
studies of paintball weapons. 108 Given the similarities of the delivery systems,
the BOP reviewed information from the paintball industry on the likely effects
of a PepperBall system’s impact on the human body. The OST prepared a
proposal for a pilot testing and presented it to the BOP’s Executive Staff. Upon
approval, the BOP worked with the PepperBall system vendor to train specified
BOP staff, who subsequently provided instruction to certify other BOP staff on
use of the weapon.

       The OST then initiated the pilot testing to evaluate the weapon. During
the testing, the BOP provided 6 penitentiaries with at least 2 PepperBall
systems and provided training to over 200 staff. 109 During the 16-month pilot
test, correctional staff responded to several disturbances armed with the
PepperBall system, but discharged the weapon in only one instance. In that
one case, the PepperBall system enabled BOP staff to control a non-compliant
inmate in a recreation yard after a significant amount of pepper spray had
proved ineffective. The most successful PepperBall system application
occurred during a significant disturbance at the BOP’s Terre Haute
penitentiary. Although, not a single PepperBall round was fired, the sight of
four Disturbance Control Team members carrying PepperBall systems caused
the inmates to disperse and return to their cells. The facility’s Warden stated
that the PepperBall system “played a major role in quelling what could have
been a major incident.” 110



       108 OST officials stated that they reviewed an NIJ study on blunt trauma projectiles and

a National Institutes of Health report on eye injuries caused by paintball weapons.

       109In addition, the OST demonstrated the PepperBall system at each of the BOP’s
Regional Crisis Management Training events and at correctional administrators meetings. The
OST also surveyed BOP personnel on their assessments of the demonstration.

       110   BOP PepperBall System After-Action Report, October 2001.



U.S. Department of Justice                                                              57
Office of the Inspector General
Evaluation and Inspections Division
        Following the completion of the pilot testing, the OST prepared an after-
action report that concluded that the PepperBall system’s superb accuracy, at
up to 30 feet, made it an ideal chemical dispensing system for targeting specific
inmates. Thus, the OST decided that the PepperBall system would improve the
BOP’s arsenal of alternative less-lethal weapons and recommended that the
PepperBall system be approved for the BOP’s medium- and high-security
facilities.

       As part of its recommendation, the OST suggested a national certification
and training program be established to ensure that the PepperBall system was
implemented appropriately. The BOP Correctional Services Administration
accepted the OST’s recommendations concerning the PepperBall system. As
part of its use of the PepperBall system, the BOP has implemented a
certification and training program that ensures BOP personnel who use the
weapon are certified annually.

USMS

      During the period covered by the OIG’s review, the USMS approved the
acquisition of the Taser for Deputy Marshals. The USMS’s Research and
Evaluations Committee (Committee) is the entity responsible for deciding
whether to acquire new equipment, including less-lethal weapons for Deputy
Marshals. The Committee reviews devices and technologies ranging from
handcuffs and batons to conducted energy devices.

       According to USMS officials, their assessment of the Taser device as a
weapon for Deputy Marshals began in approximately 2003. 111 After seeing
videos about the Taser, USMS officials became interested in whether the Taser
could be an effective alternative to batons and pepper spray, especially in
situations when hand-to-hand grappling or pepper spray would not be an
effective choice. According to USMS officials, they were familiar with the
limitations of older conducted energy devices that were predicated upon
producing “pain compliance” rather than the newer versions that are designed
to incapacitate the subject.

      Training officials at the USMS Training Academy began researching the
device and contacted state and local agencies as well as other Department

       111  The USMS Special Operations Group (SOG) began using Tasers in 2000. The SOG
is a specially trained and highly disciplined tactical unit and self-supporting response team
capable of responding to emergencies anywhere in the United States. The group’s missions
include apprehending fugitives, protecting dignitaries, providing court security, transporting
high-profile and dangerous prisoners, providing witness security, and seizing assets.
According to SOG officials, the success of SOG’s Taser program was a factor in the USMS’s
expanding the use of Tasers to all of the USMS.



U.S. Department of Justice                                                               58
Office of the Inspector General
Evaluation and Inspections Division
components, including ATF. The training officials read information from Taser
International Inc. and other sources, including safety evaluations by
independent organizations, such as the U.S. Air Force. USMS officials also
attended a Taser instructor certification program where they observed that the
device performed as advertised. Based on their firsthand observations at this
program, USMS officials stated they believed the device demonstrated stopping
capability with immediate cessation of the impact once the weapon was
disengaged.

       Based on a presentation and documentation that had been compiled by
the USMS Training Academy, the Committee assessed deploying the Taser to
Deputy Marshals and made preliminary recommendations to the Director of
the USMS in 2004. Initially, the Committee made no final recommendations
regarding the Taser, waiting for additional information about the flammability
risks posed by the use of Tasers in conjunction an alcohol-based pepper
spray. 112 The USMS Training Academy had identified alternatives, such as a
water-based pepper spray, but needed to test the water-based spray’s
effectiveness.

      While the USMS tested the water-based pepper spray in conjunction with
the Taser, USMS Training Academy officials began to draft a Taser Policy
Directive and developed Taser training and use policies, which were reviewed
by the USMS Office of the General Counsel. Upon resolving the pepper spray
flammability issue, the Committee made a recommendation to the USMS
Director to provide Deputy Marshals with Tasers. In April 2006, the Taser was
approved for use by Deputy Marshals. 113 Even though the USMS has switched
to a water-based pepper spray, the USMS Taser training curriculum continues
to address the dangers of deploying both an alcohol-based pepper spray and a
Taser because Deputy Marshals operate in situations that include other law
enforcement personnel who may be carrying alcohol-based pepper spray.

       In September 2007, the Academy was provided $300,000 to purchase
Tasers and distributed 350 units to the district offices to augment the offices’
existing number of Tasers.



        112 The combination of the electric current generated by a Taser and alcohol has been

identified as a known risk. The dangers of using the Taser in association with an alcohol-
based spray are addressed in both the USMS and ATF Taser training policies. These risks are
similar to those posed by using a Taser in environments where other flammable elements are
present (e.g., at a gas station).

       113  Only USMS operational personnel are equipped with the Taser. Court Security
Officers are not provided with, trained on, or authorized to use USMS-issued Tasers.



U.S. Department of Justice                                                             59
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX IV: DEPARTMENT OF JUSTICE RESPONSE


                                                    U.S. Department of Justice
                                                    Washington, D.C. 20530
                                                    MAY 01 2009


Mr. Michael D. Gulledge
Assistant Inspector General for Evaluations and Inspections
United States Department of Justice
Suite 6100
1425 New York Avenue, NW
Washington, DC 20530

Re: OIG Review of the Department of Justice's Use of Less-Lethal Weapons

Dear Mr. Gulledge:

The Department of Justice appreciates the opportunity to review and respond
to your draft report titled Review of the Department of Justice's Use of Less-
Lethal Weapons, Number A-2008-007 (hereinafter "Report").

The Report describes how Department law enforcement and correctional
personnel may use less-lethal weapons when circumstances require the use of
some force, but use of deadly force would not be appropriate. Several types of
less-lethal weapons are used by the Bureau of Alcohol, Tobacco, Firearms and
Explosives, Drug Enforcement Administration (DEA), Federal Bureau of
Investigation (FBI), Federal Bureau of Prisons, and the United States Marshals
Service. FBI and DEA personnel use only batons and pepper spray. The Office
of the Inspector General (OIG) found that there have been no reported fatalities
resulting from the use of less-lethal weapons by Department components.
However, the OIG found that fatalities have occurred at the state and local
level. State and local law enforcement personnel often work with Department
personnel on task forces. Also, some state and local jurisdictions have policies
on the use of less-lethal weapons.

The OIG observed that the use of less-lethal weapons varies widely by
component and that the Department does not have a Department-wide policy
on the use of less-lethal weapons. Also, the OIG noted that the Department has
not promulgated guidelines for its components to follow when they create their
own policies. Further, the Department has not mandated that state and local
officers working on task forces with Department personnel abide by policies



U.S. Department of Justice                                                 60
Office of the Inspector General
Evaluation and Inspections Division
issued by any of the Department components. Consequently, the OIG
recommended to the Department that:

I. The Department coordinate and ensure that its components develop
appropriate and consistent policies to specifically address the use of less-lethal
weapons, including conducted energy devices, by Departmental personnel and
state and local law enforcement officers serving on Department task forces.

2. The law enforcement components establish procedures to ensure that state
and local task force members are informed of and adhere to the components'
less-lethal weapons policies.

The Department concurs with the recommendations. The Department will
convene a working group under the direction of the Management and Planning
Staff (MPS) of the Justice Management Division to consider the creation of a
Department-wide policy or guidelines for the creation of appropriate and
consistent policies among the components on the use of less-lethal weapons.
The working group will draw membership from the pertinent DOJ components
and prepare recommendations for consideration by the Attorney General. The
working group will hold its first meeting no later than July 2009 and meet
thereafter as needed. The working group will provide a status report to the
Office of the Deputy Attorney General by no later than the end of November
2009. A final recommendation will be presented by the working group by the
end of February 2010. The working group will provide periodic reports to the
OIG pursuant to mutually agreed upon schedule adopted by the OIG and MPS.

Thank you for the opportunity to provide comments on the draft report. If you
have any questions regarding this response, please contact Mike Allen, Deputy
Assistant Attorney General for Policy, Management and Planning, Justice
Management Division, on (202) 514-310 I.


                                         Respectfully submitted,

                                         Neil MacBride
                                         Associate Deputy Attorney General




U.S. Department of Justice                                                    61
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX V: OIG ANALYSIS OF DEPARTMENT OF JUSTICE RESPONSE


     The Office of the Inspector General provided a draft of this report to the
Department of Justice for its comments. The report contained four
recommendations: Recommendation 1 was directed to the Department;
Recommendation 2 was directed to the Department and its law enforcement
components; Recommendation 3 was directed to the law enforcement
components; and Recommendation 4 was directed to the law enforcement
components, the National Institute of Justice, and the Civil Rights Division.

      The Department responded to Recommendations 1 and 2 and that
response is included in Appendix IV of this report. The OIG’s analysis of the
Department’s response and the actions necessary to close the
recommendations are discussed below.

      Recommendation 1. The Department coordinate and ensure that its
components develop appropriate and consistent policies to specifically
address the use of less-lethal weapons, including conducted energy
devices, by Department personnel and state and local law enforcement
officers serving on Department task forces.

                                        and

      Recommendation 2. The law enforcement components establish
procedures to ensure that state and local task force members are
informed of and adhere to the components’ less-lethal weapons policies.

       Status. Resolved – open.

       Summary of Department’s Response. The Department concurred with
the recommendations and stated that the Management and Planning Staff of
the Justice Management Division will convene a working group to consider the
creation of a Department-wide policy or guidelines for the creation of
appropriate and consistent policies among the components on the use of less-
lethal weapons. The Department also stated that the working group will
consist of representatives from pertinent Department components and will
prepare recommendations for consideration by the Attorney General.

      OIG Analysis. The actions planned by the Department are responsive to
our recommendations to coordinate and ensure that its components develop
appropriate and consistent policies to specifically address the use of less-lethal
weapons. Regarding Recommendation 2, we believe the Department’s working
group should require the components to establish procedures to ensure that


U.S. Department of Justice                                                  62
Office of the Inspector General
Evaluation and Inspections Division
state and local task force members are informed of and adhere to the
components’ less-lethal weapons policies and any subsequent Department-
wide policy or guidelines created by the working group. In light of the fatalities
that have occurred following the use of less-lethal weapons on the state and
local levels, specifically conducted energy devices, we believe that state and
local law enforcement officers participating on Department task forces should
be made aware of and abide by the component or Department polices and
guidance on the appropriate use of less-lethal weapons.

        The Department has stated that the working group will hold its first
meeting no later than July 2009, provide a status report to the Office of the
Deputy Attorney General by November 2009, and present a final
recommendation by the end of February 2010. In addition, the working group
will provide periodic reports to the OIG. Please provide the OIG with a status
report relating to these meetings, including the date, location, an agenda, and a
list of participants




U.S. Department of Justice                                                  63
Office of the Inspector General
Evaluation and Inspections Division
                           APPENDIX VI: ATF RESPONSE


                                                  U.S. Department of Justice
                                                  Bureau of Alcohol, Tobacco,
                                                  Firearms and Explosives
                                                  Office of the Director
                                                  Washington, DC 20226
                                                  May 7, 2009

Mr. Michael D. Gulledge
Assistant Inspector General
 for Evaluations and Inspections
United States Department of Justice
1425 New York Avenue, N.W.
Suite 6100
Washington, DC 20530

Dear Mr. Gulledge:

The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) has reviewed
and appreciates the opportunity to comment on the Office of the Inspector
General's (OIG) draft report entitled "Review of the Department of Justice's Use
of Less-Lethal Weapons."

OIG's Recommendation Number 2: The law enforcement components
establish procedures to ensure that state and local task force members are
informed of and adhere to the components' less-lethal weapons policies.

ATF's Response: ATF concurs with this recommendation and currently
ensures that State and local task force members are informed of and abide by
ATF policy regarding less-lethal weapons. State and local members receive
initial training upon entering the task force and receive additional training
that covers policy and usage throughout the year. In order to ensure
compliance with Bureau policies, task force members are also subject to the
same "use of force" reviews as ATF special agents.

OIG's Recommendation Number 3: The law enforcement components
periodically analyze their use of less-lethal weapons, including any injuries,
fatalities, or misuse; analyze benefits from use of such weapons; and assess
emerging trends in use of such weapons.

ATF's Response: ATF concurs with the OIG's recommendation. Yearly training
and conferences are conducted to ensure the up-to-date assessment of Bureau


U.S. Department of Justice                                                  64
Office of the Inspector General
Evaluation and Inspections Division
issued less-lethal weapons and emerging technology in this field. Currently,
Firearms Instructor Coordinators and Division Tactical Advisors meet yearly in
order to analyze less-lethal weapons and their use.

OIG's Recommendation Number 4: The National Institute of Justice (NIJ) and
the Civil Rights Division share the results of any research, reviews, or
investigations concerning the use of less-lethal weapons with the Department's
law enforcement components. Given the sensitive nature of some of this
information, the Department components should develop protocols to ensure
appropriate dissemination of the NIJ's and the Civil Rights Division's work
products.

ATF's Response: ATF strongly concurs with this recommendation and
currently works closely with members from the Civil Rights Division through
ATF's Office of Professional Responsibility and Security Operations.

Should you have any questions regarding this response, please contact
Kelvin N. Crenshaw, Assistant Director, Office of Professional
Responsibility and Security Operations, at (202) 648-7500.


                                      Sincerely yours,

                                      Kenneth Melson,
                                      Acting Director




U.S. Department of Justice                                               65
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX VII: OIG ANALYSIS OF ATF RESPONSE


      The Office of the Inspector General provided a draft of this report to the
Bureau of Alcohol, Tobacco, Firearms and Explosives for its comments. The
report contained four recommendations: Recommendation 1 was directed to
the Department; Recommendation 2 was directed to the Department and its
law enforcement components; Recommendation 3 was directed to the law
enforcement components; and Recommendation 4 was directed to the law
enforcement components, the National Institute of Justice, and the Civil Rights
Division.

      ATF’s response is included in Appendix VI of this report. The OIG’s
analysis of ATF’s response and the actions necessary to close the
recommendations are discussed below.

      Recommendation 2. The law enforcement components establish
procedures to ensure that state and local task force members are
informed of and adhere to the components’ less-lethal weapons policies.

       Status. Resolved – open.

       Summary of ATF Response. ATF concurred with this recommendation
and stated that it currently ensures that state and local task force members
are informed of and abide by ATF policy regarding use of less-lethal weapons.
ATF also said state and local task force members receive initial training upon
joining ATF task forces and additional training that covers policy and usage
throughout the year.

       OIG Analysis. ATF’s actions are responsive to our recommendation. So
that we may close this recommendation, please provide copies of the training
agenda provided to state and local task force members upon joining ATF task
forces as well as the number of state and local task force members by task
force who received ATF training since fiscal year 2003. In addition, because
ATF has established guidelines for its state and local task force members, ATF
will be able to contribute valuable input to the Justice Management Division’s
working group when it considers creating Department-wide policy or guidelines
on the use of less-lethal weapons. (See Appendix IV.) So that we may close
this recommendation, please provide the training information by July 31, 2009.




U.S. Department of Justice                                                  66
Office of the Inspector General
Evaluation and Inspections Division
     Recommendation 3. The law enforcement components periodically
analyze their use of less-lethal weapons, including any injuries, fatalities,
or misuse; analyze benefits from use of such weapons; and assess
emerging trends in the use of such weapons.

       Status. Resolved – open.

      Summary of ATF Response. ATF concurred with this recommendation
and stated that Firearms Instructor Coordinators and Division Tactical
Advisors meet yearly to analyze less-lethal weapons and their use.

      OIG Analysis. The actions taken by ATF are responsive to our
recommendation. By July 31, 2009, please provide any reports or summaries
describing (1) how Firearms Instructor Coordinators and Division Tactical
Advisors analyzed less-lethal weapons and (2) how ATF management used the
findings resulting from such analyses.

       Recommendation 4. The NIJ and Civil Rights Division share the
results of any research, reviews, or investigations concerning the use of
less-lethal weapons with the Department’s law enforcement components.
Given the sensitive nature of some of this information, the Department
components should develop protocols to ensure appropriate
dissemination of the NIJ’s and the Civil Rights Division’s work products.

       Status. Resolved – open.

       Summary of ATF Response. ATF concurred with this recommendation
and stated that it works closely with the Civil Rights Division through ATF’s
Office of Professional Responsibility and Security Operations.

       OIG Analysis. The actions taken by ATF are responsive to our
recommendation. To fully implement this recommendation, ATF should work
with the NIJ to disseminate to ATF employees the results of any NIJ research
concerning the use of less-lethal weapons. This can be done through
participation in OJP’s Less-Lethal Technology Working Group. OJP stated in
its response that participation on the working group will enable the
Department’s law enforcement components to stay abreast of less-lethal
weapon research, testing, and issues related to policies and practices. (See
Office of Justice Programs response to Recommendation 4, Appendix XVI.) So
that we may close this recommendation, please provide the OIG with a status
report on the specific protocols developed for the appropriate dissemination of
NIJ and Civil Rights Division work products on the use of less-lethal weapons
by July 31, 2009.



U.S. Department of Justice                                                67
Office of the Inspector General
Evaluation and Inspections Division
                          APPENDIX VIII: DEA RESPONSE


                                              U. S. Department of Justice
                                              Drug Enforcement Administration
                                              Washington, D.C. 20537
                                              MAY 04 2009

MEMORANDUM


TO:           Michael D. Gulledge
              Assistant Inspector General
              for Evaluation and Inspections

FROM          Kevin M. Foley
              Acting Deputy Chief Inspector
              Office of Inspections

SUBJECT: DEA's Response to the OIG's Draft Report: Review of the
         Department of Justice's Use of Less-Lethal Weapons, Report Number
         A-2008-007

       The Drug Enforcement Administration (DEA) has reviewed the
Department of Justice (DOJ), Office of the Inspector General's (OIG) draft audit
report, entitled: Review of the Department of Justice's Use of Less-Lethal
Weapons, Report Number A-2008-001. DEA acknowledges OIG for its efforts in
conducting a review of the Department's use of less-lethal weapons. As a result
of this review, DEA concurs with the three recommendations directed to the
DOJ components in the draft report and will take the necessary steps to
implement the recommendations.

        DEA appreciates that OIG noted that there have been no reported
fatalities resulting from the use of less-lethal weapons by Department
components. OIG also noted that for the DEA, use of less-lethal weapons by
state and local law enforcement officers participating on DEA Task Forces are
subject to DEA's general use of force policies as well as policies concerning
baton and pepper spray.

      OIG's recommendation 1 was directed to the Department; therefore, DEA
provides the following responses to the OIG's recommendations 2, 3, and 4
below:

Recommendation 2. The law enforcement components establish


U.S. Department of Justice                                                68
Office of the Inspector General
Evaluation and Inspections Division
procedures to ensure that state and local task force members are
informed of and adhere to the components' less-lethal weapons policies.

       DEA concurs with the recommendation. DEA's Offices of Training (TR)
and Operations Management will jointly develop a policy governing the
utilization of less-lethal weapons by DEA Special Agents (SA) and Task Force
Officers (TFO). This policy will include protocols for DEA TFOs who are
trained and certified by their parent agencies in the use of conducted energy
devices.

Recommendation 3. The law enforcement components periodically
analyze their use of less-lethal weapons, including any injuries,
fatalities, or misuse; analyze benefits from use of such weapons; and
assess emerging trends in the use of such weapons.

       DEA concurs with the recommendation. The development of a DEA
policy governing the use of less-lethal weapons by DEA SAs and TFOs will
also include procedures to conduct an analysis of any injuries, fatalities, or
misuse occurring during the deployment of these devices. TR will utilize these
analyses to assess the effectiveness of such devices.

Recommendation 4. The NIJ, Civil Rights Division, and Department
components share the result of any research, reviews, or investigations
concerning the use of less-lethal weapons with the Department's law
enforcement components.

   DEA concurs with the recommendation. DEA will coordinate with the NIJ,
Civil Rights Division, and other DO] components to develop a procedure to
supply the results of any research, reviews, or investigations conducted by
DEA to these entities. Once this procedure has been established, it will be
incorporated into DEA's policy governing the utilization of less-lethal weapons.

   DEA anticipates developing the above-mentioned policy in 180 days.
Documentation detailing DEA's efforts to implement the actions will be
provided to the OIG on a quarterly basis, until such time that all corrective
actions have been completed. If you have any questions regarding DEA's
responses to the OIG's recommendations, please contact Senior Inspector
Michael Stanfill at 202-307-8200.




U.S. Department of Justice                                                  69
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX IX: OIG ANALYSIS OF DEA RESPONSE


     The Office of the Inspector General provided a draft of this report to the
Drug Enforcement Administration for its comments. The report contained four
recommendations: Recommendation 1 was directed to the Department;
Recommendation 2 was directed to the Department and its law enforcement
components; Recommendation 3 was directed to the law enforcement
components; and Recommendation 4 was directed to the law enforcement
components, the National Institute of Justice, and the Civil Rights Division.

      The DEA’s response is included in Appendix VIII of this report. The
OIG’s analysis of the DEA’s response and the actions necessary to close the
recommendations are discussed below.

      Recommendation 2. The law enforcement components establish
procedures to ensure that state and local task force members are
informed of and adhere to the components’ less-lethal weapons policies.

       Status. Resolved – open.

       Summary of DEA Response. The DEA concurred with this
recommendation and stated that it will develop a policy governing the use of
less-lethal weapons by DEA Special Agents and task force officers that will
include protocols for task force officers who are trained and certified by their
home agencies in the use of conducted energy devices.

      OIG Analysis. The actions planned by the DEA are responsive to our
recommendation. So that we may close this recommendation, please provide
the OIG with a copy of the final approved policy or a status report regarding the
development of the policy, including what types of less-lethal weapons will be
addressed by the new DEA policy, by July 31, 2009.

     Recommendation 3. The law enforcement components periodically
analyze their use of less-lethal weapons, including any injuries, fatalities,
or misuse; analyze benefits from use of such weapons; and assess
emerging trends in the use of such weapons.

       Status. Resolved – open.

       Summary of DEA Response. The DEA concurred with this
recommendation and stated that development of a DEA policy governing the
use of less-lethal weapons by DEA Special Agents and task force officers will
also include procedures to conduct an analysis of any injuries, fatalities, or


U.S. Department of Justice                                                   70
Office of the Inspector General
Evaluation and Inspections Division
misuse occurring during the deployment of these devices. The DEA also stated
that its Office of Training will use these analyses to assess the effectiveness of
such devices.

       OIG Analysis. The actions planned by the DEA are partially responsive
to our recommendation. In its response, the DEA did not state when the use of
less-lethal weapons would be analyzed (e.g., quarterly, annually) or how
analytical reports will be used by management. To ensure the use of less-
lethal weapons is periodically reviewed and that benefits and trends in the use
of these weapons are assessed, by July 31, 2009, please describe how often the
use of less-lethal weapons will be analyzed and how DEA management will use
the findings resulting from such analyses.

       Recommendation 4. The NIJ and Civil Rights Division share the
results of any research, reviews, or investigations concerning the use of
less-lethal weapons with the Department’s law enforcement components.
Given the sensitive nature of some of this information, the Department
components should develop protocols to ensure appropriate
dissemination of the NIJ’s and the Civil Rights Division’s work products.

       Status. Resolved – open.

       Summary of DEA Response. The DEA concurred with this
recommendation and stated that it will coordinate with the NIJ, Civil Rights
Division, and other components to develop a procedure to provide the results of
research, reviews, or investigations the DEA conducts to these entities. The
DEA also stated that it will incorporate this procedure into its policy governing
the utilization of less-lethal weapons. The DEA anticipated developing the
policy in 180 days.

       OIG Analysis. The actions planned by the DEA are responsive to our
recommendation. We believe that any research, reviews, or investigations the
DEA conducts regarding the use of less-lethal weapons will be beneficial to the
NIJ, the Civil Rights Division, and other components. However, developing
DEA procedures to ensure that work products developed by the NIJ and the
Civil Rights Division regarding the use of less-less weapons would assist the
DEA in identifying new less-lethal weapons, in developing use policies and
training curriculum, and in ensuring proper use of these weapons. So that we
may close this recommendation, please provide the OIG with a status report on
the specific protocols developed for the appropriate dissemination of NIJ and
Civil Rights Division work products on the use of less-lethal weapons by
July 31, 2009.




U.S. Department of Justice                                                  71
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX X: CIVIL RIGHTS DIVISION RESPONSE


                                           U. S. Department of Justice
                                           Civil Rights Division
                                           Office of the Assistant Attorney
                                           General Washington, D.C. 20035
MEMORANDUM


TO:           Michael D. Gulledge
              Assistant Inspector
              General for Evaluation
              and Inspections

FROM:         Loretta King
              Acting Assistant Attorney General
              Civil Rights Division


SUBJECT: Response to the Office of the Inspector General's (OIG) Draft
Report: Review of the Department of Justice's Use of Less-Lethal Weapons


This responds to the Office of the Inspector General's (OIG) Draft Report:
Review of the Department of Justice's Use of Less-Lethal Weapons. This
response is limited to the recommendations directed to the Civil Rights
Division (CRT).

Recommendation 1. The Department coordinate and ensure that its
components develop appropriate and consistent policies to specifically
address the use of less-lethal weapons, including conducted energy
devices, by Department personnel and state and local law enforcement
officers serving on Department task forces.

Response: CRT concurs with the recommendation, and understands
"components" to include CRT.

Status: CRT will work with other Department components to develop protocols
for coordination to ensure that CRT input can be considered in the
development of policies addressing the use of less-lethal weapons.

Recommendation 4. The NIJ and Civil Rights Division share the results of


U.S. Department of Justice                                                   72
Office of the Inspector General
Evaluation and Inspections Division
any research, reviews, or investigations concerning the use of less-lethal
weapons with the Department's law enforcement components. Given the
sensitive nature of this information, the Department components should
ensure appropriate dissemination of the NIJ's and Civil Rights Division's
work products.

Response: CRT concurs with the recommendation. CRT routinely posts its
technical assistance letters and settlement agreements regarding its police
misconduct investigations on the Special Litigation Section website,
www.usdoj.gov/crt/split.

Status: CRT will work with other Department components to develop
protocols for the appropriate dissemination of CRT work products.

If you have any questions concerning this subject, please contact Thomas
Skeeter, Special Assistant to the Executive Officer, at (202) 616-9974.




U.S. Department of Justice                                                   73
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX XI: OIG ANALYSIS OF CIVIL RIGHTS DIVISION RESPONSE


       The Office of the Inspector General provided a draft of this report to the
Civil Rights Division for its comments. The report contained four
recommendations: Recommendation 1 was directed to the Department;
Recommendation 2 was directed to the Department and its law enforcement
components; Recommendation 3 was directed to the law enforcement
components; and Recommendation 4 was directed to the law enforcement
components, the National Institute of Justice, and the Civil Rights Division.

      The Division’s response is included in Appendix X of this report. The
OIG’s analysis of the Division’s response and the actions necessary to close the
recommendations are discussed below.

      Recommendation 1. The Department coordinate and ensure that its
components develop appropriate and consistent policies to specifically
address the use of less-lethal weapons, including conducted energy
devices, by Department personnel and state and local law enforcement
officers serving on Department task forces.

       Status. Resolved – closed.

      Summary of Civil Rights Division Response. The Civil Rights Division
concurred with this recommendation and stated that it will work with other
Department components to develop protocols for coordination to ensure that
the Division’s input can be considered in the development of policies
addressing the use of less-lethal weapons.

       OIG Analysis. In response to our recommendation, which was directed
to the Department, the Management and Planning Staff of the Department’s
Justice Management Division will convene a working group to consider the
creation of a Department-wide policy or guidelines for the components to use in
formulating their policies on the use of less-lethal weapons (see Department of
Justice response, Appendix IV). The OIG encourages the Civil Rights Division
to participate on the working group and raise its concerns with other
participants. No further status reports are required from the Civil Rights
Division concerning Recommendation 1.

       Recommendation 4. The NIJ and Civil Rights Division share the
results of any research, reviews, or investigations concerning the use of
less-lethal weapons with the Department’s law enforcement components.
Given the sensitive nature of some of this information, the Department



U.S. Department of Justice                                                   74
Office of the Inspector General
Evaluation and Inspections Division
components should develop protocols to ensure appropriate
dissemination of the NIJ’s and the Civil Rights Division’s work products.

       Status. Resolved – open.

       Summary of Civil Rights Division Response. The Civil Rights Division
concurred with this recommendation and stated that it will work with other
Department components to develop protocols for the appropriate dissemination
of the Division’s work products.

       OIG Analysis. The actions planned by the Civil Rights Division are
responsive to our recommendation. So that we may close this
recommendation, please provide the OIG with a summary of the Division’s
efforts to work with other components to develop protocols for the appropriate
dissemination of Civil Rights Division work products by July 31, 2009.




U.S. Department of Justice                                                75
Office of the Inspector General
Evaluation and Inspections Division
                           APPENDIX XII: FBI RESPONSE


                                           U.S. Department of Justice
                                           Federal Bureau of Investigation
                                           Washington, D. C. 20535-0001
                                           May 4, 2009

Mr. Michael D. Gulledge
Assistant Inspector General
 for Evaluation and Inspections
Office of the Inspector General
U.S. Department of Justice
Suite 6100
1425 New York Avenue
Washington, D.C. 20005

Dear Mr. Gulledge:

      The Federal Bureau of Investigation (FBI) appreciates the opportunity to
review and respond to your report entitled, "Review of the Department of
Justice's Use of Less-Lethal Weapons" (hereinafter, "Report").

        We have completed our review of the Report and welcome your
observations, evaluations and final recommendations. Enclosed is the FBI's
response to your preliminary findings and recommendations. The response has
undergone a classification and sensitivity review which is enclosed with this
letter.

      The FBI appreciates the professionalism exhibited by your staff in
working with our representatives throughout this audit process, assessing the
Department of Justice's policies and use of less-lethal weapons. Please feel free
to contact me on (202) 324-2901 should you have any questions.

Sincerely yours,
Kevin L. Perkins
Assistant Director
Inspection Division




Enclosure


U.S. Department of Justice                                                 76
Office of the Inspector General
Evaluation and Inspections Division
 The Federal Bureau of Investigation's (FBI) Response to the Office of the
  Inspector General's Audit Review of the Department of Justice's Use of
            Less -Lethal Weapons, Report Number A-2008-007

Recommendation #2: "The law enforcement components establish procedures
to ensure that state and local task force members are informed of and adhere
to the components' less-lethal weapons policies."

FBI Response to Recommendation #2: RESOLVED -The Federal Bureau of
Investigation (FBI) concurs with this recommendation. When understandings
and guidelines for the components are developed by the Department of Justice
(DOJ), the FBI will ensure that state and local task force members are informed
of DOJ less-lethal weapons policies. However, as with lethal weapons, the FBI
believes that task force members should follow their own agency's policies with
respect to the use of less-lethal weapons.

Recommendation #3: "The law enforcement components periodically analyze
their use of lesslethal weapons, including any injuries, fatalities, or misuse;
analyze benefits from use of such weapons; and assess emerging trends in the
use of such weapons."

FBI Response to Recommendation #3: RESOLVED -The FBI concurs with
this recommendation. The FBI's Defensive Systems Unit is tasked with
evaluating all weapons issued to FBI personnel. As part of their mission, they
continually evaluate any weapons systems' performance and the benefits of its
continued use. While the FBI has had very limited use of such weapons in the
past, any use, in the future, of these weapons will be analyzed and
assessments made on a periodic basis and provided to the DOJ as requested.

Recommendation #4: "The NIJ, Civil Rights Division, and Department
components share the results of any research, reviews, or investigations
concerning the use of less-lethal weapons with the Department's law
enforcement components."

FBI Response to Recommendation #4: RESOLVED -The FBI concurs with
this recommendation. The FBI will ensure that the results of any research,
reviews or investigations on the use of less-lethal weapons, if conducted by the
FBI, will be shared with the appropriate law enforcement community parties.




U.S. Department of Justice                                                 77
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX XIII: OIG ANALYSIS OF FBI RESPONSE


     The Office of the Inspector General provided a draft of this report to the
Federal Bureau of Investigation for its comments. The report contained four
recommendations: Recommendation 1 was directed to the Department;
Recommendation 2 was directed to the Department and its law enforcement
components; Recommendation 3 was directed to the law enforcement
components; and Recommendation 4 was directed to the law enforcement
components, the National Institute of Justice, and the Civil Rights Division.

      The FBI’s response is included in Appendix XII of this report. The OIG’s
analysis of the FBI’s response and the actions necessary to close the
recommendations are discussed below.

      Recommendation 2. The law enforcement components establish
procedures to ensure that state and local task force members are
informed of and adhere to the components’ less-lethal weapons policies.

       Status. Resolved – open.

       Summary of FBI Response. The FBI concurred with this
recommendation and stated that when memoranda of understandings and
guidelines for the components are developed by the Department, the FBI will
ensure that state and local task force members are informed of Department
less-lethal weapons policies.

      OIG Analysis. The actions planned by the FBI are responsive to our
recommendation. So that we may close this recommendation, please provide
the OIG with a copy of the final approved FBI policy or a status report
regarding the development of procedures, including what types of less-lethal
weapons will be addressed by FBI policy. Please provide this response by
July 31, 2009.

     Recommendation 3. The law enforcement components periodically
analyze their use of less-lethal weapons, including any injuries, fatalities,
or misuse; analyze benefits from use of such weapons; and assess
emerging trends in the use of such weapons.

       Status. Resolved – open.

      Summary of FBI Response. The FBI concurred with this
recommendation and stated that it will continually evaluate any weapon
systems’ performance and the benefits of the weapons’ continued use. The FBI


U.S. Department of Justice                                                 78
Office of the Inspector General
Evaluation and Inspections Division
also stated that any use of the less-lethal weapons in the future will be
analyzed and assessed on a periodic basis and these assessments will be
provided to the Department as requested.

       OIG Analysis. The actions planned by the FBI are partially responsive to
our recommendation. The FBI did not provide information on when the use of
less-lethal weapons will be analyzed (e.g., quarterly, annually) or how these
reports will be used by FBI management. So that we may close this
recommendation to ensure the use of less-lethal weapons is periodically
analyzed and that benefits and trends of the use of these weapons are
assessed, please provide the OIG by July 31, 2009, information on how often
the use of less-lethal weapons will be analyzed and how FBI management will
use the findings resulting from such analyses.

       Recommendation 4. The NIJ and Civil Rights Division share the
results of any research, reviews, or investigations concerning the use of
less-lethal weapons with the Department’s law enforcement components.
Given the sensitive nature of some of this information, the Department
components should develop protocols to ensure appropriate
dissemination of the NIJ’s and the Civil Rights Division’s work products.

       Status. Resolved – open.

      Summary of FBI Response. The FBI concurred with this
recommendation and stated that it will ensure the results of any research,
reviews, or investigations on the use of less-lethal weapons, if conducted by the
FBI, will be shared with appropriate law enforcement partners.

       OIG Analysis. The actions planned by the FBI are partially responsive to
our recommendation. We believe that any research, reviews, or investigations
conducted by the FBI regarding the use of less-lethal weapons will be beneficial
to the NIJ, the Civil Rights Division, and other Department components.
However, work products developed by the NIJ and the Civil Rights Division on
the use of less-lethal weapons would also assist the FBI in identifying new less-
lethal weapons, developing use policies and training curriculum, and ensuring
proper use of these weapons. To ensure that Department law enforcement
components are fully informed of the NIJ’s research in the area of less-lethal
devices, the NIJ plans to invite the components to participate in its Less-Lethal
Technology Working Group (see Office of Justice Programs response,
Appendix XVI). So that we may close this recommendation, please provide the
OIG with a status report on the specific protocols developed for the appropriate
dissemination to FBI employees of NIJ and Civil Rights Division work products
on the use of less-lethal weapons by July 31, 2009.



U.S. Department of Justice                                                  79
Office of the Inspector General
Evaluation and Inspections Division
                          APPENDIX XIV: BOP RESPONSE


                                                  U.S. Department of Justice
                                                  Federal Bureau of Prisons
                                                  Office of the Director
                                                  Washington, DC 20534

                                                  May 1, 2009

MEMORANDUM FOR MICHAEL D. GULLEDGE
            ASSISTANT INSPECTOR GENERAL
            FOR EVALUATION AND INSPECTIONS

FROM:                Harley G. Lappin, Director

SUBJECT:             Response to the Office of Inspector General’s (OIG) Final
                     Report: Review of the Department of Justice’s Use of Less-
                     Lethal Weapon Report Number A-2008-007

The Bureau of Prisons (BOP) appreciates the opportunity to respond to the
recommendations from OIG’s final draft report entitled Review of the
Department of Justice's Use of Less-Lethal Weapons Report Number A-2008-
007.

Please find the Bureau's response to the recommendations below:

Recommendation #3: The law enforcement components periodically analyze
their use of less-lethal weapons, including any injuries, fatalities, or misuse;
analyze benefits from use of such weapons; and assess emerging trends in the
use of such weapons.

Response: The BOP agrees with the recommendation. In order to periodically
analyze our use of less-lethal weapons, including any injuries, fatalities, or
misuse; analyze benefits from use of such weapons; and assess emerging
trends in the use of such weapons, the BOP will require all incidents involving
the use of less-lethal weapons be reported utilizing the TRUINTEL Program.
TRUINTEL is an intelligence/reporting database that will allow the BOP to
more efficiently and effectively gather and analyze information to be able to
make informed management decisions. It is a three tiered system including
Intelligence, Security Threat Groups, and Incident Reporting. Incident reporting
will allow the institution level user to easily input the information in a
standardized manner.



U.S. Department of Justice                                                     80
Office of the Inspector General
Evaluation and Inspections Division
The data entered into the program can be easily retrieved to generate reports. A
report for each specific weapon or munition can be acquired for periodic
monitoring. The capabilities of the program will allow users to compile
information by incident to eliminate duplicate entries.

Nationwide training on the TRUINTEL Program is scheduled to commence in
June 2009. Once the necessary institution staff are trained in the use of the
TRUINTEL program, the application will be activated. The BOP is set for
complete activation by July 2009. We believe these actions will meet the intent
of the recommendation. Therefore, we request our part of the recommendation
be closed.

Recommendation #4: The NIJ, Civil Rights Division, share the results of any
research, reviews, or investigations concerning the use of less-lethal weapons
with the Department's law enforcement components. Given the sensitive nature
of some of this information, the Department components should develop
protocols to ensure appropriate dissemination of the NIJ's and the Civil Rights
Division's work products.

Response: The BOP agrees with the recommendation. Following receipt of
results of any research, reviews, or investigations concerning the use of less-
lethal weapons from the NIJ, Civil Rights Division, the BOP Executive Staff will
be briefed on the findings during their scheduled quarterly meetings. We
believe these actions will meet the intent of the recommendation. Therefore, we
request our part of the recommendation be closed.

If you have any questions regarding this response, please contact VaNessa P.
Adams, Senior Deputy Assistant Director, Program Review Division, at (202)
353-3206.




U.S. Department of Justice                                                 81
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX XV: OIG ANALYSIS OF BOP RESPONSE


     The Office of the Inspector General provided a draft of this report to the
Federal Bureau of Prisons for its comments. The report contained four
recommendations: Recommendation 1 was directed to the Department;
Recommendation 2 was directed to the Department and its law enforcement
components; Recommendation 3 was directed to the law enforcement
components; and Recommendation 4 was directed to the law enforcement
components, the National Institute of Justice, and the Civil Rights Division.

      The BOP’s response is included in Appendix XIV of this report. The BOP
did not respond to Recommendation 2 as it does not use task forces. The
OIG’s analysis of the BOP’s response and the actions necessary to close the
recommendations are discussed below.

     Recommendation 3. The law enforcement components periodically
analyze their use of less-lethal weapons, including any injuries, fatalities,
or misuse; analyze benefits from use of such weapons; and assess
emerging trends in the use of such weapons.

       Status. Resolved – open.

       Summary of BOP Response. The BOP concurred with this
recommendation and stated that it will require that all incidents involving the
use of less-lethal weapons be reported utilizing the TRUINTEL Program, which
will allow the BOP to more efficiently and effectively gather and analyze
information and report the use of a specific weapon or munitions for
monitoring. The BOP also stated that nationwide training on the TRUINTEL
Program is scheduled to commence in June 2009 and that complete activation
is set for July 2009.

       OIG Analysis. The actions planned by the BOP are partially responsive
to our recommendation. We believe that the BOP may have resolved the
problems we identified with its method of recording information about its use of
less-lethal weapons. However, the BOP did not identify when the use of less-
lethal weapons would be analyzed (e.g., quarterly, annually) or how analysis of
these reports will be used by management. So that we may close this
recommendation, please provide the OIG with printed screen views showing the
TRUINTEL Program’s method of recording information by July 31, 2009, as
well as a description of how often the use of less-lethal weapons will be
analyzed and how BOP management will use the findings resulting from such
analyses.



U.S. Department of Justice                                                 82
Office of the Inspector General
Evaluation and Inspections Division
       Recommendation 4. The NIJ and Civil Rights Division share the
results of any research, reviews, or investigations concerning the use of
less-lethal weapons with the Department’s law enforcement components.
Given the sensitive nature of some of this information, the Department
components should develop protocols to ensure appropriate
dissemination of the NIJ’s and the Civil Rights Division’s work products.

       Status. Resolved – open.

      Summary of BOP Response. The BOP concurred with this
recommendation and stated that following receipt of results of any research,
reviews, or investigations concerning the use of less-lethal weapons from the
NIJ or Civil Rights Division, the BOP Executive Staff will be briefed on the
findings during their scheduled quarterly meetings.

      OIG Analysis. The actions planned by the BOP are responsive to our
recommendation. So that we may close this recommendation, please provide
the OIG with a status report on the specific protocols developed for
dissemination to BOP officials of NIJ and Civil Rights Division work products
on the use of less-lethal weapons by July 31, 2009.




U.S. Department of Justice                                                83
Office of the Inspector General
Evaluation and Inspections Division
                          APPENDIX XVI: OJP RESPONSE


                                            U.S. Department of Justice
                                            Office of Justice Programs
                                            Office of the Assistant Attorney General
                                            Washington, D.C. 20531

                                            May 04, 2009


MEMORANDUM TO:              Glenn A. Fine
                            Inspector General
                            United States Department of Justice

THROUGH:                    Michael D. Gulledge
                            Assistant Inspector General
                             for Evaluation and Inspections
                            Office of the Inspector General
                            United States Department of Justice

FROM:                       Laurie O. Robinson
                            Acting Assistant Attorney General

SUBJECT:                    Response to Office of the Inspector General's Draft
                            Audit Report, Review of the Department of Justice's Use
                            of Less-Lethal Weapons

This memorandum provides a response to the recommendations directed to the
Office of Justice Programs (OJP) included in the Office of the Inspector
General's (OIG's) draft audit report entitled, Review of the Department of
Justice's Use of Less-Lethal Weapons. The draft audit report contains four
recommendations and no questioned costs, of which Recommendation Number
4 pertains to the OJP.

The Office of Justice Programs' response to Recommendation Number 4 is
detailed below. For ease of review, the draft audit report recommendation is
restated in bold and is followed by OJP's response.

       4. The NIJ and Civil Rights Division share the results of any
       research, reviews, or investigations concerning the use of less-lethal
       weapons with the Department's law enforcement components. Given
       the sensitive nature of some of this information, the Department
       components should develop protocols to ensure appropriate


U.S. Department of Justice                                                    84
Office of the Inspector General
Evaluation and Inspections Division
       dissemination of the NIJ's and the Civil Rights Division's work
       products.

       To ensure that Department of Justice law enforcement components are
       fully informed of the National Institute of Justice's (NIJ's) research in the
       area of less-lethal devices, the NIJ will invite the Department's law
       enforcement components to participate in its Less-Lethal Technology
       Working Group. The purpose of the working group is to advise the NIJ on
       research and development in the area of less-lethal devices, related
       equipment standards and testing activities, and evolution of policy and
       practice. The working group is principally comprised of knowledgeable
       representatives of State and local law enforcement agencies, but also
       currently includes a representative from the Federal Bureau of Prisons.
       The working group meets formally twice a year to discuss relevant NIJ
       research and development efforts and the evolving needs of the field. The
       working group representatives are also involved in technology
       assessments and participate on relevant NIJ solicitation peer review
       panels. Participation on the working group will enable the DOJ law
       enforcement components to stay abreast of less-lethal research, testing,
       and issues related to policies and practices.

       Thank you for your continued cooperation. If you have any questions
       regarding this response, please contact LeToya Johnson, Deputy
       Director, Office of Audit, Assessment, and Management, on (202) 514-
       0692.

cc:    Beth McGarry
       Deputy Assistant Attorney General
        for Operations and Management

       Kristina Rose
       Acting Director
       National Institute of Justice

       Maureen A. Henneberg
       Director
       Office of Audit, Assessment, and Management

       LeToya A. Johnson
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Richard A. Theis
       Assistant Director, Audit Liaison Group


U.S. Department of Justice                                                    85
Office of the Inspector General
Evaluation and Inspections Division
       Justice Management Division




U.S. Department of Justice            86
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX XVII: OIG ANALYSIS OF OJP RESPONSE


       The Office of the Inspector General provided a draft of this report to the
Office of Justice Programs for its comments. The report contained four
recommendations: Recommendation 1 was directed to the Department;
Recommendation 2 was directed to the Department and its law enforcement
components; Recommendation 3 was directed to the law enforcement
components; and Recommendation 4 was directed to the law enforcement
components, the National Institute of Justice, and the Civil Rights Division.

      OJP’s response is included in Appendix XVI of this report. The OIG’s
analysis of OJP’s response and the actions necessary to close the
recommendation are discussed below.

       Recommendation 4. The NIJ and Civil Rights Division share the
results of any research, reviews, or investigations concerning the use of
less-lethal weapons with the Department’s law enforcement components.
Given the sensitive nature of some of this information, the Department
components should develop protocols to ensure appropriate
dissemination of the NIJ’s and the Civil Rights Division’s work products.

       Status. Resolved – open.

      Summary of OJP Response. OJP concurred with this recommendation
and stated that the NIJ will invite the Department’s law enforcement
components to participate in its Less-Lethal Technology Working Group. OJP
stated that participation on the working group will enable the Department’s law
enforcement components to stay abreast of less-lethal weapon research,
testing, and issues related to policies and practices. The working group meets
formally twice a year to discuss relevant NIJ research and development efforts.

       OIG Analysis. The actions planned by OJP are responsive to our
recommendation. So that we may close this recommendation, by July 31,
2009, please provide the OIG with the date, location, agenda, and a list of
participants at the meeting of the Less-Lethal Technology Working Group. If
the meeting will occur after July 31, 2009, please apprise the OIG when the
next meeting will occur and provide the requested information after the
meeting.




U.S. Department of Justice                                                   87
Office of the Inspector General
Evaluation and Inspections Division
                        APPENDIX XVIII: USMS RESPONSE



                                              U.S. Department of Justice
                                              United States Marshals Service
                                              Office of the Director
                                              Washington, DC 20530-1000

                                              May 7, 2009


MEMORANDUM TO:              Michael D. Gulledge
                            Assistant Inspector General
                              for Evaluation and Inspections

              FROM:         John F. Clark
                            Director

          SUBJECT:          Review of the Department of Justice's Use of Less
                            Lethal Weapons, Report Number A-2008-007

The following is provided in response to your recent memorandum regarding
the Office of the Inspector General (OIG) draft report on the Department of
Justice's Use of Less-Lethal Weapons, Report Number A-2008-007.

General Comments:

Amnesty International Report: The USMS questions the use of the Amnesty
International report entitled Less Than Lethal? as a source for the OIG audit
report. In performing our ongoing review of the Taser program, we found this
report flawed in its methodology and assertions. This report is at least the third
major report by the human rights group over the past six years on the use of
stun weapons by the United States law enforcement community. Over the
course of the three reports, Amnesty International has changed its position
from a call for a complete ban of all Taser electronic control devices (ECDs) to a
position in its latest report which acknowledges the value of less lethal
weapons in policing. The latest report states, "Amnesty International is calling
on departments which deploy such weapons to limit their use to situations
where officers are faced with an immediate threat of death or serious injury
that cannot be contained through less extreme options, in order to avoid the
resort to firearms." It should be further noted that Amnesty International has
conducted no medical studies and has performed no direct evaluation of Taser
ECDs, but instead incorporates media headlines and other open source


U.S. Department of Justice                                                      88
Office of the Inspector General
Evaluation and Inspections Division
materials in its published "findings." The following is taken directly from page 8
of the latest Amnesty International report: "Amnesty International’s review is
not a scientific study, nor is the organization in a position to reach conclusions
regarding the role of the Taser in each case. It can be difficult to determine
through autopsy alone whether Taser shocks caused or contributed to a fatal
arrhythmia as there are often no direct pathological signs." Despite this
admission, Amnesty International continues to discuss a number of Taser-
related deaths. This is not only misleading and inaccurate, but also
unsupported by medical or academic science. We believe that the inclusion of
Amnesty International's flawed data in the OIG report detracts from an overall
beneficial review.

Increase in Use of Taser (Pages 21 and 22): The report notes an increase in
the use of the Taser from 2003 to 2008 and affirms the USMS conclusion that
the Taser is possibly being used in lieu of pepper spray. However, the overall
inference is that the USMS is using the Taser at ever-increasing levels. The
report does not mention what we believe to be the primary and most logical
reason for the increase, that over the five year period, the USMS has acquired
more than 1,000 devices and has trained an increasing number of investigators
to use them.

Taser Use and Injuries (Page 37): OIG references an increase in injuries
sustained by Deputy United States Marshals (DUSMs) from 2007 to 2008,
amounting to a 16 percent increase over the previous five years. In the next
paragraph, the report notes that this information "indicates that the USMS's
use of the Taser may not have resulted in one of the principal benefits that the
Taser was' supposed to provide-reduction in significant officer injuries."

The CA-1 injury data provided to OIG could not be correlated to Taser use
because, at present, USMS injury data and USMS use of force data are
maintained separately. There is no data element or field that provides a nexus
between the two. The CA-1 data provided to OIG included every type of injury
reported under all reportable circumstances (with no distinction made between
injuries occurring as a result of a car accident, in the gym, while effecting
arrest--with or without a Taser, etc.). The OIG inference that Taser use may not
have resulted in a reduction in injuries is misleading, as there is no data to
support that Taser use has not resulted in a reduction in injuries. In fact, in
2004 the USMS had more DUSM injuries than in 2007 or 2008, but only one
Taser discharge for the entire fiscal year.

Recommendation 1:

That the Department coordinate and ensure that its components develop
appropriate and consistent policies to specifically address the use of less-lethal


U.S. Department of Justice                                                  89
Office of the Inspector General
Evaluation and Inspections Division
weapons, including conducted energy devices, by Department personnel and
state and local law enforcement officers serving on Department task forces.

USMS Response: (Disagree) While it appears reasonable to recommend that
the Department of Justice (DOJ) seek a "coordinated less-lethal weapons policy
for the components," we would stress that the components' missions are very
diverse. Consequently, the individuals encountered by each component range
from white collar criminals and repeat violent offenders to individuals in a
correctional environment. This variance in missions does not lend itself to a
uniform, across-the-board DOJ policy.

Recommendation 2:
That the law enforcement components establish procedures to ensure that
state and local task force members are informed of and adhere to the
components' less-lethal weapons policies.

USMS Response: (Disagree) USMS Fugitive Task Forces are made up of
members from local and state agencies (some on an ad-hoc basis). A majority of
these Task Forces' fugitive warrants are generated by the contributing
members. If state and local agencies are held to USMS less-lethal policy, any
differences between the USMS less-lethal policy and the local/state less-lethal
policy create the potential for officer safety and decision-making issues, such
as vacillation, confusion, delayed reactions to spontaneous situations, and
elevated risk to officers and suspects. Additionally, from a legal liability
perspective, it should be noted that while state and local agencies operate
under their own policies and procedures, the USMS is not liable for their
actions. Lastly, this recommendation, if adopted, could deter state or local
agencies from participating in federal task forces.

Recommendation 3:

That the law enforcement components periodically analyze their use of less-
lethal weapons, including any injuries, fatalities, or misuse; analyze benefits
from use of such weapons; and assess emerging trends in the use of such
weapons.

USMS Response: (Agree) The USMS Training Academy currently analyzes use
of force reports from the field to assess less-lethal weapons usage and the
effectiveness of that usage. We also use this analysis to modify our less-lethal
training programs. The USMS and other DOJ components could benefit from
more in-depth analyses of less-lethal devices and correlate this data with
reported injuries sustained by DUSMs. USMS offices currently collecting CA-l
and Use of Force data will be directed to work collaboratively to determine the



U.S. Department of Justice                                                  90
Office of the Inspector General
Evaluation and Inspections Division
best means of capturing collected information to produce meaningful trends
and analyses. This work will begin immediately.

Recommendation 4:

That the NIJ and Civil Rights Division share the results of any research,
reviews, or investigations concerning the use of less-lethal weapons with the
Department's law enforcement components. Given the sensitive nature of some
of this information, the Department components should develop protocols to
ensure appropriate dissemination of the NIJ's and the Civil Rights Division's
work products.

USMS Response: (Agree) The USMS currently reviews studies and
investigations pertaining t less-lethal devices. The USMS welcomes any
additional research provided by the NIJ and Civil Rights Division. If sensitive in
nature, these studies could be provided to the USMS Training Division for
analysis, summarization, and distribution to other USMS divisions.




U.S. Department of Justice                                                  91
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX XIX: OIG ANALYSIS OF USMS RESPONSE


      The Office of the Inspector General provided a draft of this report to the
United States Marshals Service for its comments. The report contained four
recommendations: Recommendation 1 was directed to the Department;
Recommendation 2 was directed to the Department and its law enforcement
components; Recommendation 3 was directed to the law enforcement
components; and Recommendation 4 was directed to the law enforcement
components, the National Institute of Justice, and the Civil Rights Division.

      The USMS provided general comments on three areas of the report,
including the OIG’s use of a report by Amnesty International, analysis of
increased use of the Taser, and analysis of Taser use and injuries. The USMS’s
response to the recommendations is included in Appendix XVIII of this report.
The OIG’s analysis of the USMS’s general comments and responses, as well as
the actions necessary to close the recommendations, are discussed below.

General Comments

Amnesty International Report

      Summary of USMS Response. The USMS expressed concerns about the
OIG’s use of a report by Amnesty International and stated that the USMS
found the report’s methodology and data flawed. The USMS stated that the
Amnesty International report is misleading and inaccurate and is not
supported by medical or academic science. The USMS stated that the OIG’s
use of the report otherwise “detracts from an overall beneficial review.”

       OIG Analysis. We did not assess the accuracy of the Amnesty
International data, but rather cited the data as an example of the number of
deaths following the use of Tasers as reported by one source. However, we also
cited several studies that conclude that deaths following such discharges may
not be the result of the conducted energy devices’ use. OIG staff discussed
these concerns regarding the Amnesty International report with USMS
personnel and other components prior to issuance of the formal draft report
and incorporated appropriate disclaimers in the draft regarding the data used
by Amnesty International (see footnote, pages ii and 6).




U.S. Department of Justice                                                  92
Office of the Inspector General
Evaluation and Inspections Division
Increase in Use of Taser

      Summary of USMS Response. The USMS believes the overall inference
made by the OIG is that the USMS is using the Taser at “ever-increasing levels”
and that the report does not mention that the USMS may have more usage
because it has acquired more devices and has trained an increasing number of
investigators to use them.

       OIG Analysis. The OIG’s report does not state that the USMS’s use of
the Taser is “ever-increasing.” The OIG’s analysis of the use of force data the
USMS provided simply states that the USMS is increasing its use of the Taser.
Table 3 (page 22) indicates that the USMS’s use of the Taser has increased in
each of the past 6 fiscal years (FY). Specifically, the USMS reported to us that
it has increased its use of the Taser from 0 discharges in FY 2003 to 138
discharges in FY 2008. Additionally, on page 19 we state that the USMS has
acquired approximately 1,000 Tasers for use by approximately 3,000 Deputy
Marshals operating at its field offices since it approved usage of Tasers in
FY 2006. While the increase in Taser use can be seen as stemming at least
partially from the general increase in the number of Tasers issued to Deputy
Marshals, the fact that the USMS has issued more Tasers does not explain the
approximately five-fold increase in total uses of less-lethal force by Deputy
Marshals over the 6 years we reviewed.

Taser Use and Injuries

       Summary of USMS Response. The USMS stated that the injury data it
provided to the OIG could not be correlated to the use of Tasers because injury
data and use of force data are maintained separately. The USMS stated that
there is no data element or field that provides a nexus between the two
statistics. The USMS also stated that the OIG inference that Taser use may not
have resulted in a reduction in injuries is misleading as there is no data to
support that Taser use has not resulted in a reduction in injuries.

       OIG Analysis. We agree that the injury data and use of force data could
not be directly correlated to the USMS’s use of the Taser. Our report specifically
addresses the likelihood of additional factors that could be causing an increased
injury rate for USMS personnel and states that other factors (such as the types
of fugitives encountered by USMS personnel) could have led to an increased
number of injuries to Deputy Marshals. Nevertheless, it is important for the
USMS to determine what impact (if any) the use of the Taser by its Deputy
Marshals is having on its injury rates. One of the principal benefits that the
Taser is supposed to provide is a reduction in significant officer injuries. To
determine what factors may be driving up the USMS’s injury rates, the USMS
should analyze the effect of equipping Deputy Marshals with Tasers.


U.S. Department of Justice                                                 93
Office of the Inspector General
Evaluation and Inspections Division
      Recommendation 1. The Department coordinate and ensure that its
components develop appropriate and consistent policies to specifically
address the use of less-lethal weapons, including conducted energy
devices, by Department personnel and state and local law enforcement
officers serving on Department task forces.

       Status. Resolved – closed.

      Summary of USMS Response. The USMS disagreed with this
recommendation and stated that while the recommendation appears
reasonable, the components’ missions are very diverse and the variance in
missions does not lend itself to a uniform, across-the-board Department policy.

       OIG Analysis. In response to our recommendation, which was directed
to the Department, the Management and Planning Staff of the Department’s
Justice Management Division will convene a working group to consider the
creation of a Department-wide policy or guidelines for the components to use in
formulating their policies on the use of less-lethal weapons (see Department of
Justice response, Appendix IV). Therefore, while we recognize the need for
flexibility in components’ policies to address their diverse missions, the OIG
encourages the USMS to participate on the working group and discuss its
concerns with the other participants.

      Recommendation 2. The law enforcement components establish
procedures to ensure that state and local task force members are
informed of and adhere to the components’ less-lethal weapons policies.

       Status. Resolved – open.

       Summary of USMS Response. The USMS disagreed with this
recommendation and stated that if state and local agencies are held to USMS
less-lethal policies, any differences between a USMS less-lethal policy and the
state and local agency policies could create the potential for officer safety and
decision-making issues. The USMS also stated that the USMS is not liable for
state and local personnel’s actions while they are acting under state and local
agencies’ policies, and that this recommendation, if adopted, could deter state
and local agencies from participating in federal task forces.

       OIG Analysis. We believe, and the Department has concurred, that
state and local law enforcement officers participating on Department task
forces should be made aware of and abide by the component or Department
polices and guidance on the appropriate use of less-lethal weapons. As
discussed in our report, one local agency participating on a USMS task force
was found by the Civil Rights Division to have deficiencies in its use of and


U.S. Department of Justice                                                  94
Office of the Inspector General
Evaluation and Inspections Division
policy on conducted energy devices. Given that fatalities have occurred after
state and local officers have used conducted energy devices (although that has
not yet occurred while the officers were operating on a Department task force),
we believe component policies should govern state and local task force officers’
use of less-lethal weapons while they are participating on Department-led task
forces.

      Moreover, the Department concurred with this recommendation and
plans to coordinate and ensure that the components develop appropriate and
consistent policies to specifically address the use of less-lethal weapons,
including use by task force officers. Therefore, we consider this
recommendation “resolved – open” and anticipate that this issue will be
addressed by the Department’s coordinated approach.

      So that we may close this recommendation, please provide the OIG with
a copy of the final approved USMS procedures or a status report regarding
the development of procedures to ensure that state and local task force
members are informed of and adhere to USMS less-lethal weapons policy,
including what types of less-lethal weapons are addressed by the policy, by
July 31, 2009.

     Recommendation 3. The law enforcement components periodically
analyze their use of less-lethal weapons, including any injuries, fatalities,
or misuse; analyze benefits from use of such weapons; and assess
emerging trends in the use of such weapons.

       Status. Resolved – open.

      Summary of USMS Response. The USMS concurred with this
recommendation and stated that the offices currently collecting injury data and
use of force data will be directed to immediately begin working collaboratively
to determine the best means of capturing collected information to produce
meaningful trends and analysis.

       OIG Analysis. The actions planned by the USMS are partially responsive
to our recommendation. The USMS did not state when the use of less-lethal
weapons would be analyzed (e.g., quarterly, annually) or how analytical reports
will be used by management. To ensure the use of less-lethal weapons is
periodically analyzed and that the benefits of and trends in the use of these
weapons are assessed, please describe by July 31, 2009, how often the use of
less-lethal weapons will be analyzed and how USMS management will use the
findings resulting from such analyses.




U.S. Department of Justice                                                 95
Office of the Inspector General
Evaluation and Inspections Division
       Recommendation 4. The NIJ and Civil Rights Division share the
results of any research, reviews, or investigations concerning the use of
less-lethal weapons with the Department’s law enforcement components.
Given the sensitive nature of some of this information, the Department
components should develop protocols to ensure appropriate
dissemination of the NIJ’s and the Civil Rights Division’s work products.

       Status. Resolved – open.

       Summary of USMS Response. The USMS concurred with this
recommendation and stated that it welcomes any additional reviews, studies,
and investigations provided by the NIJ and Civil Rights Division. The USMS
further stated that if sensitive in nature these work products could be provided
to the USMS Training Division for analysis, summarization, and distribution to
other USMS divisions.

      OIG Analysis. The actions planned by the USMS are responsive to our
recommendation. So that we may close this recommendation, please provide
the OIG with a status report on the specific protocols developed for the
appropriate dissemination of NIJ and Civil Rights Division work products on
the use of less-lethal weapons by July 31, 2009.




U.S. Department of Justice                                                96
Office of the Inspector General
Evaluation and Inspections Division
